OFFICE OF INSPECTOR GENERAL
SEMIANNUAL REPORT TO CONGRESS
October 1, 2007 — March 31, 2008




Promoting Integrity and Accountability
in America’s Postal System
MISSION

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008




                                           MISSION
                                           The mission of the U.S. Postal Service Ofﬁce of Inspector General (OIG) is
                                           to conduct and supervise objective and independent audits, reviews, and
                                           investigations relating to Postal Service programs and operations to:
                                           ■    Prevent and detect fraud, theft, and misconduct.
                                           ■    Promote economy, efﬁciency, and effectiveness.
                                           ■    Promote program integrity.
                                           ■    Keep the Governors, Congress, and Postal Service
                                                management informed of problems, deﬁciencies, and
                                                corresponding corrective actions.
                                                                          A MESSAGE FROM THE INSPECTOR GENERAL

                                                                           Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                  October 1, 2007 — March 31, 2008




A MESSAGE FROM THE INSPECTOR GENERAL
This report, submitted pursuant to the Inspector General Act, outlines our
work and activities for the 6-month period ending March 31, 2008. It focuses
on the Postal Service’s updated strategic goals that respond to changes in
the oversight and management of postal business expressed in the Postal
Accountability and Enhancement Act of 2006 (Postal Act of 2006). The six goals
are to generate revenue; increase efﬁciency; improve service; have a customer-
focused culture; enhance sustainability; and address regulatory studies and
reporting obligations. We discuss the Postal Service’s progress towards these
goals and explain how our work adds value. We conclude with
a separate chapter that discusses our work to preserve integrity and feature
reports on the Voyager and SmartPay® Purchase Card programs.
In this period, we issued 233 audit reports and management advisories.
These efforts resulted in a total monetary impact of nearly $831 million. We had
158 signiﬁcant audit recommendations, of which 155 were accepted by the
Postal Service.
In addition, we closed 3,754 investigations and management took administrative
action on 1,398 cases. Our investigations led to 778 arrests and indictments,
$95 million in long-term cost avoidances in the Ofﬁce of Workers’ Compensation
Program, $13 million in ﬁnes, restitutions, and recoveries, of which more than
$9 million went to the Postal Service. I would also like to bring to your attention
that this will be the last semiannual report that details OIG work solely. The
Chief Postal Inspector, of the U.S. Postal Inspection Service, and myself have
agreed that combining related programs within a single cover will provide a
comprehensive treatment of law enforcement and audit activities.
I appreciate the continuing support of the Governors, Congress, and
Postal Service management as we continue to assess the strategic
transformation progress.
SUMMARY OF PERFORMANCE

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008




                                           SUMMARY OF PERFORMANCE
                                           For the period October 1, 2007 — March 31, 2008

                                            AUDIT
                                            Reports issued                                                                                               233
                                            Signiﬁcant recommendations issued                                                                            158
                                            Total reports with ﬁnancial impact                                                                            95
                                                  Funds put to better use                                                                     $547,637,127
                                                  Questioned costs1                                                                           $190,209,049
                                                  Revenue Impact                                                                               $92,823,873
                                                      2
                                            TOTAL                                                                                           $830,670,049


                                            INVESTIGATIONS3
                                            Investigations completed                                                                                   3,754
                                            Arrests                                                                                                      418
                                            Indictments/informations                                                                                     360
                                            Convictions/pretrial diversions4                                                                             302
                                            Administrative actions taken                                                                               1,398
                                            Cost avoidance                                                                                     $97,596,288
                                            Fines, restitutions and recoveries                                                                 $13,605,987
                                                  Amount to Postal Service5                                                                      $9,244,750


                                            HOTLINE CONTACTS
                                            Telephone calls                                                                                           51,681
                                            e-Mail                                                                                                    14,028
                                            Virtual Front Ofﬁce calls                                                                                  5,198
                                            Mail                                                                                                       1,068
                                            Voice mail messages                                                                                        1,043
                                            Facsimile — FAX                                                                                              324

                                            TOTAL CONTACTS                                                                                           73,342


                                            1
                                                Includes unsupported costs of $59,945,723.
                                            2
                                                The Postal Service agreed to recommendations or proposed alternative corrective actions that, if implemented,
                                                  could result in nearly
                                                  $831 million in savings.
                                            3
                                                Statistics include joint investigations with other law enforcement agencies.
                                            4
                                                Convictions reported in period may be related to arrests made in prior reporting periods.
                                            5
                                                Amount included in ﬁnes, restitution, and recoveries.
                                                                                                                                                                                             TABLE OF CONTENTS

                                                                                                                                                                Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                                                                       October 1, 2007 — March 31, 2008




TABLE OF CONTENTS

ASSESSING STRATEGIC TRANSFORMATION PROGRESS ..................7
Generate Revenue........................................................................................................................................................ 7
Increase Efﬁciency ....................................................................................................................................................... 9
Improve Service ......................................................................................................................................................... 13
Customer-Focused Culture ......................................................................................................................................... 15
Enhance Sustainability................................................................................................................................................ 17
Regulatory Studies and Reporting Obligations .............................................................................................................. 17
PRESERVING INTEGRITY .................................................................19
Audit Activities ........................................................................................................................................................... 19
Investigative Activities................................................................................................................................................. 25
FEATURE STORIES ..........................................................................35
Voyager Card Program ............................................................................................................................................... 35
SmartPay® Purchase Card Program ............................................................................................................................ 35
MAP OF OFFICE LOCATIONS ...........................................................37
APPENDICES ...................................................................................38
Appendix A — Reports with Quantiﬁable Potential Monetary Beneﬁts............................................................................ 38
             Report Listing ..................................................................................................................................... 43
Appendix B — Findings of Questioned Costs ............................................................................................................... 48
Appendix C — Recommendations That Funds Be Put to Better Use .............................................................................. 50
Appendix D — Reported Non-monetary Beneﬁts ......................................................................................................... 51
Appendix E — Reports with Signiﬁcant Recommendations Pending Corrective Actions................................................... 52
Appendix F — Signiﬁcant Management Decisions in Audit Resolution ........................................................................... 63
Appendix G — Investigative Statistics ......................................................................................................................... 64
Appendix H — Summary of Postal Service Investigative Activities Under Title 39 USC § 3013 ........................................ 65
Appendix I — Closed Congressional and Board of Governors Inquiries ......................................................................... 67
SUPPLEMENTAL INFORMATION.......................................................72
Freedom of Information Act......................................................................................................................................... 72
Workplace Environment .............................................................................................................................................. 73
Glossary .................................................................................................................................................................... 74
ASSESSING STRATEGIC TRANSFORMATION PROGRESS

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008
                                                                                                                                                 GENERATE REVENUE

                                                                                                                   Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                          October 1, 2007 — March 31, 2008




ASSESSING STRATEGIC
TRANSFORMATION PROGRESS
In this report, we assess the status of the Postal Service’s progress toward the strategic goals articulated in its Strategic
Transformation Plan: 2006-2010, 2007 Update, published in December 2007. The Postal Service issued this update to
respond to changes in the oversight and management of postal business expressed in the Postal Accountability and
Enhancement Act of 2006 (Postal Act of 2006). The Postal Service’s revised plan describes how it intends to improve
the value of mail services and sustain a ﬁnancially stable enterprise that best serves the nation’s mailing needs while
providing affordable and reliable service.

The Postal Service’s strategic goals are to generate revenue, increase efﬁciency, improve service, have a customer-
focused culture, enhance sustainability, and address regulatory studies and reporting obligations. Each of these
strategic goals presents signiﬁcant challenges to the Postal Service. This section discusses audits and reviews we
completed during the reporting period in each of these areas.


                                                                                                                                       Management
GENERATE REVENUE                                               availability of about 66.7 million data records at risk in eVS.
                                                                                                                                       Response to OIG Work
                                                               Strengthening controls over business-sensitive ﬁnancial
The Postal Service recognizes that the market for              information would assist in preserving customer goodwill                We adhere to professional
mailing and shipping volume and revenue is shaped              and the Postal Service brand. Management agreed to                      audit standards and
by competition, new technologies, and rising customer          strengthen ﬁle transport security; however, they did not                present our audit work to
expectations. The Postal Service has a strategic goal to       agree with two of our recommendations to strengthen                     management for comments
generate revenue. To accomplish this goal, it plans to         user authentication and stated they would accept the risk               prior to issuing a ﬁnal report.
create more value in core products and services, thereby       associated with the existing user access controls.                      Unless otherwise noted in the
increasing mail volume and revenue to continue ﬁnancing
                                                                                                                                       selected audit work discussed
universal service and the growing delivery network.            International Mail Volume Data                                          in this report, management
Customer value is deﬁned as increased product utility,
                                                               Volume data used to bill foreign postal administrations for             has agreed or partially agreed
improved ease of use and access, and more reliable,
                                                               inbound air Parcel Post mail at the New York International              with our recommendations
predictable performance at affordable prices.
                                                               Service Center (ISC) was accurate. However, this type of                and is taking or has already
Our audit work during the last 6 months showed                 data for inbound Express Mail and letter class service                  taken corrective action to
opportunities to protect and increase revenue by               was not always accurate. As a result, we calculated that                address the issues we raised.
strengthening application controls in the Electronic           the Postal Service underbilled foreign countries almost
Veriﬁcation System (eVS), increasing the accuracy of           $3.5 million. If this issue had
international mail volume data, and appropriately collecting   gone undetected, we project
revenue on stamps and Click-n-Ship transactions. We            that underbillings would have
further believe the Postal Service could increase emphasis     been more than $10 million
on accurately collecting, recording, and reporting all         over a 2-year period.
revenue, and strengthening internal controls to minimize
risks relating to ﬁnancial transactions.                       Stamp Revenue
                                                               The local Stamps on
Electronic Veriﬁcation System                                  Consignment (SoC) program
The eVS allows high-volume package mailers to document         allowed local businesses to
and pay postage using electronic ﬁles rather than paper        sell stamps, which the Postal
forms. The Postal Service has strengthened application         Service had consigned to
controls in eVS; however, edits could be strengthened for      them. In December 2004,
some transactions to avoid erroneous postage calculations      management rescinded
and lost revenue. We made seven recommendations to             the delegation of authority
strengthen controls over input data validation, sampling,      previously granted to area and
and reconciliation and data storage procedures.                district ofﬁcials to administer
                                                                                               The local Stamps on Consignment (SoC) program allowed local
                                                               these programs, directing local
Additionally, we reported that weaknesses in the primary                                       businesses to sell stamps, which the Postal Service had consigned
                                                               ofﬁcials to incorporate their
ﬁle transfer method place the conﬁdentiality, integrity, and                                   to them; however, in December 2004 local SoC programs were
                                                               SoC programs into the national
                                                                                                  incorporated into a national SoC program.




                                                                                                                                                                         7
GENERATE REVENUE

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



                                           SoC program, and soon thereafter asking them to close all         Retail Access Channels. We also recommended that the
                                           existing local SoC agreements.Despite instructions from           Postal Service terminate existing local SoC agreements,
                                           senior management, some Retail Access Channels ofﬁcials           incorporate them into the national program, and collect the
                                           did not terminate all local SoC agreements nor properly           past due amounts.
                                           account for stamp shipments to consignees. These ofﬁcials
                                           stated that area and district management did not always           Click-N-Ship Transactions
                                           provide the documentation needed to take these actions.
                                                                                                             We assessed whether Postal Service ofﬁcials implemented
                                           Our audit identiﬁed more than $800,000 in recoverable
                                                                                                             controls to protect revenue generated from the Click-
                                           and $50,000 in unrecoverable revenue.
                                                                                                             N-Ship program and whether it was functioning in
                                           We recommended that retail and marketing managers                 accordance with policies and procedures. We found that
                                           for each Postal Service cluster provide information about         revenue was not sufﬁciently protected. (Click-N-Ship
                                           their local SoC programs, including existing agreements           enables customers to print either postage or shipping
                                           and amounts that consignees owed, to the Manager,                 labels with postage from their computer with the Postal
                                                                                                             Service or one of its approved vendors.)

                                                                                                             We recommended that management strengthen controls
                                                                                                             over the Click-N-Ship program to better protect revenue.
                                                                                                             In addition, delivery and retail employees can improve
                                                                                                             processing when customers present Shipment Acceptance
                                                                                                             Notiﬁcation forms at the retail window or at carrier pick-
                                                                                                             up. Further, management needs to closely monitor VISA
                                                                                                             Merchant chargeback fees and improve Click-N-Ship
                                                                                                             program management by developing written policies and
                                                                                                             procedures for the Click-N-Ship Program Ofﬁce. Our audit
                                                                                                             identiﬁed $37 million in unrecoverable and $37 million in
                                                                                                             recoverable revenue relating to Click-N-Ship packages.

                                                                                                             Negotiated Service Agreement. We responded to a
                                                                                                             request from the Board of Governors Chairman to review
                                                                                                             a Negotiated Service Agreement (NSA) following an Opinion
                                                                                                             and Recommended Decision by the PRC As background,
                                                                                                             an NSA is a written contract between the Postal Service
                                                                                                             and a mailer that provides for customer-speciﬁc rates,
                                                                                                             fees, or terms of service. This “pay-for-performance” NSA
                                                                                                             was designed to pay incentives primarily for improvements
                                                                                                             to the quality of the company’s mail. An additional key
                                                                                                             aspect of this NSA involved the company implementing the
                                                                                                             Intelligent Mail Barcode.

                                                                                                             In summary, our internal review found that additional
                                                                                                             information was needed to determine whether the Postal
                                                                                                             Service should implement the agreement, and NSA
                                                                                                             processes needed to be strengthened to ensure sufﬁcient,
                                                                                                             accurate information is provided for future NSA decisions.
                                                                                                             More speciﬁcally, key portions of the required NSA process
                                                                                                             were not followed in the preparation and negotiation of
                                                                                                             this NSA, especially the requirement for cross-functional
                                                                                                             involvement of key Postal Service managers. In addition,
                                                                                                             the Postal Service had relied upon information that
                                                                                                             included data that were 8 years old and had pursued
                                                                                                             capital investments in the interim that were intended to
                                                                                                             improve mail processing. Further, the NSA data presented
                                                                                                             to the Board (1) was signiﬁcantly different than that in
Click-N-Ship enables customers to print either postage or shipping labels with postage from their computer   the PRC ﬁling, (2) was not appropriately characterized
with the Postal Service or one of its approved vendors.                                                      as preliminary, and (3) did not effectively describe the




8
                                                                                                                                                 INCREASE EFFICIENCY

                                                                                                                      Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                             October 1, 2007 — March 31, 2008



risks associated with the NSA. Finally, because the Postal
Service did not obtain data speciﬁc to the company, it was
difﬁcult to analyze the potential beneﬁts of the NSA as a
“pay-for-performance” agreement or to determine whether
incentives were appropriate.

Subsequently, we evaluated a revised Postal Service
presentation to the Governors. We found that the newer
proposal relied upon more recent data, and we conﬁrmed
the involvement of other key Postal Service functions in the
review and validation of the data presented.

INCREASE EFFICIENCY
A perennial challenge facing the Postal Service is to
increase operational efﬁciency. The Postal Service’s
strategy in this area is to:
■   Expand standardization and process control.
■   Reduce the cost of meeting universal service
    obligations by focusing on major cost drivers, especially
    delivery operations and supply chain management.
■   Capture improvements from existing equipment
    and technology.
■   Target new investments to improve productivity.

The strategy emphasizes continued partnerships with
customers by developing low-cost forms of customer               The Postal Service operates one of the largest and most complex transportation and logistical support
access via technology and product simpliﬁcation.                 networks in the world, reaching every community in the United States.
Additionally, the Postal Service plans to examine facility
capacities to transition from overlapping single-product         A supplemental audit of a $518 million ﬁrm-ﬁxed-price
networks to an integrated multi-product network.                 proposal for the Biohazard Detection System Operations
                                                                 and Maintenance/Consumables disclosed more than
The Postal Service focused on reducing its costs and             $14 million in questioned costs. Subcontractors did not
reports that it has achieved some success. Our work in this      provide cost or pricing data to support their proposed costs.
area assisted the Postal Service in identifying signiﬁcant       In addition, subcontractor proposals contained numerous
opportunities to reduce costs. These opportunities include       related party transaction concerns, and unallowable costs
maximizing the cost-effectiveness of contracts, improving        that resulted from a pyramiding of proﬁts. We considered
transportation efﬁciency, optimizing the mail processing         the non-compliances and inadequacies to be signiﬁcant,
network, and controlling facility and operational costs.         and therefore did not believe the contractor’s overall
                                                                 proposal was an acceptable basis for negotiation of a fair
Maximizing the Cost-Effectiveness                                and reasonable contract price. In response, the contracting
                                                                 ofﬁcer with assistance from the Law Department, reduced
of Contracts
                                                                 the contract price by the full $14 million in questioned
We issued 20 contract-related audit reports during the           costs plus an additional $39 million, resulting in a contract
reporting period, evaluating 13 accounting systems, three        price of $467 million.
proposals, one invoice, one incurred cost submission, one
termination, and one forward pricing rate submission.            Optimizing the Transportation Network
These audits identiﬁed unsupported and questioned costs
of more than $96 million. This information was provided to       The Postal Service operates one of the largest and most
contracting ofﬁcers for their consideration in negotiating the   complex transportation and logistical support networks in
best terms for the Postal Service. Here is one example of        the world, reaching every community in the United States.
signiﬁcant work in this area:                                    The network is dynamic with changing requirements, so
                                                                 the challenge for the Postal Service is to optimize it while
                                                                 maintaining service. Since transportation is the second




                                                                                                                                                                            9
INCREASE EFFICIENCY

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



                                                                                                            Paciﬁc Area resulted in unanticipated expenditures. While
                                                                                                            management reacted rapidly and appropriately to mitigate
                                                                                                            and correct these conditions, the Postal Service incurred
                                                                                                            about $18.3 million in unnecessary costs. The Postal
                                                                                                            Service has an opportunity to save about $62.1 million, if
                                                                                                            transportation managers optimize use of FedEx to ﬂy this
                                                                                                            mailer’s First-Class Mail, and if they properly prepare the
                                                                                                            mail for shipment. However, management did not fully
                                                                                                            agree with our monetary impact estimates due to analytical
                                                                                                            differences relating to the calculation of FedEx container
                                                                                                            density. Management agreed to work with us to resolve
                                                                                                            these analytical differences.

                                                                                                            FedEx Transportation Agreement — Paciﬁc Area.
                                                                                                            We assessed whether the Postal Service’s use of FedEx
                                                                                                            transportation was effective and whether there were
                                                                                                            opportunities for savings. We found that during FYs 2005
                                                                                                            and 2006, the Paciﬁc Area incurred about $17.8 million
                                                                                                            in unnecessary costs because they used FedEx to move
                                                                                                            mail that could have been moved on less costly surface
                                                                                                            transportation or passenger airlines. The Postal Service
                                                                                                            also paid FedEx to sort mail when they could have avoided
We found that during FYs 2005 and 2006, the Paciﬁc Area incurred about $17.8 million in unnecessary         those costs by sorting the mail or properly preparing it for
costs because they used FedEx to move mail that could have been moved on less costly surface                transport. Additionally, the Paciﬁc Area has an opportunity to
transportation or passenger airlines.                                                                       save about $45 million over the next 10 years by not using
                                                                                                            FedEx to transport mail that could be transported on surface
                                           largest cost segment in the Postal Service budget — only         networks, by transporting First-Class Mail on passenger
                                           employee compensation and beneﬁts are greater — it is            airlines when capacity is available, and by sorting the mail
                                           critical that the Postal Service seize opportunities to reduce   before giving it to FedEx to avoid their sorting charges.
                                           costs in this area, particularly as mail volume and revenue
                                           projections decline in ﬁscal year (FY) 2008.                     Surface Network Transportation
                                           During this reporting period, we issued three audits             The Postal Service’s surface network transportation
                                           covering air network and surface network transportation          includes ground transportation using Postal Service
                                           and identiﬁed monetary impacts exceeding $153 million.           vehicles, employees, and contracted transportation. During
                                                                                                            this period, we audited the effectiveness of Postal Vehicle
                                           Air Network Transportation                                       Service (PVS) operations at the San Francisco Processing
                                                                                                            and Distribution Center (P&DC) and found that management
                                           Management implemented its nationwide Integrated                 could improve PVS processes, allowing them to remove
                                           Air Strategy in 2006, intending to reduce reliance on            26,698 excess hours from existing PVS schedules and
                                           passenger airlines, expand transportation by dedicated           save more than $10.1 million over 10 years. Ofﬁcials
                                           cargo carriers, and shift mail to less costly ground             could eliminate the hours without negatively affecting
                                           transportation. We conducted two audits of the Postal            service because schedules contain unassigned times when
                                           Service’s air network transportation in the context of its       drivers are not needed for a speciﬁc trip or related activity,
                                           overall strategy.                                                duplicate trips, and trips that were not as full as possible.
                                                                                                            Management agreed to conduct a review of all PVS
                                           Air Networks — Issues in the Paciﬁc Area. We
                                                                                                            schedules at the San Francisco P&DC and eliminate the
                                           assessed the implementation of the Postal Service’s
                                                                                                            excess hours from driver schedules.
                                           Integrated Air Strategy and its impact on the FedEx
                                           transportation operations under a Postal Service contract.
                                           Implementing comprehensive strategies in a complex               Network Optimization
                                           environment frequently presents unanticipated challenges.        In response to a management request, we initiated a series
                                           This was the case in the Paciﬁc Area involving a very            of Airport Mail Center (AMC) outsourcing reviews. In our
                                           large mailer. The Postal Service’s reduced reliance on           review of the St.. Louis AMC outsourcing initiative, we
                                           commercial airlines, the transition from commercial              determined the decision to outsource some operations was
                                           airlines to FedEx, and certain unique circumstances in the       supported and should reduce costs with minimal impact




10
                                                                                                                                               INCREASE EFFICIENCY

                                                                                                                    Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                           October 1, 2007 — March 31, 2008



on service performance; however, management could
have improved planning for this initiative. We also found
the former AMC building remained on the Postal Service’s
records after ownership had been transferred to the city
of St. Louis. While management generally complied with
policies and procedures, opportunities exist to formalize
lessons learned and best practices from AMC closures, and
to strengthen guidance for measuring results. In addition,
we recommended management develop guidance for
planning and implementing outsourcing of AMC operations.

Facilities Single Source Provider. We completed an
audit assessing the effectiveness of the Facilities Single
Source Provider system (FSSP) as a means to repair and
maintain Postal Service facilities. We found the majority of
users are satisﬁed with the FSSP as an effective means
to repair and maintain Postal Service facilities. However,
Facilities Service Ofﬁces (FSO) did not consistently manage
repair calls through the FSSP, FSOs did not adequately
track more than $18 million in expenditures charged to the
repairs and alterations budget line, FSOs did not adequately
control more than $9 million in Facilities Knowledge Center
(FKC) invoicing and payments, and data in the FSSP system
was not reliable. We recommended that management               Streamlining the network presents the Postal Service with many challenges.
ensure consistent processing and monitoring of FSSP            provided conﬁrming evidence for the consolidation.
calls; keep accurate information in the FSSP database;         However, we identiﬁed discrepancies in workhour and
establish controls over FKC invoicing and reimbursement        personnel savings, as well as transportation and annual
and expenditure of funds; and establish guidelines for         associated costs, resulting in a savings overstatement of
acceptance of maintenance and repair work. We reported         $2.4 million. Further, we identiﬁed mail volume transferred
more than $27 million in non-monetary assets at risk,          from the Kansas City, Kansas, P&DC to the Kansas City,
and recommended the Postal Service collect more than           Kansas, Bulk Mail Center for processing that was not
$9,000 of recoverable questioned costs.                        documented in the AMP proposal, and noted a slight
                                                               downgrade in First-Class Mail, Priority Mail, and Periodicals
Management agreed with all of our recommendations
                                                               service and some risk factors. We recommended
except a portion of one regarding controls over certifying
                                                               management revise the AMP proposal to accurately
FKC repairs. They believed that adequate procedures
                                                               document savings and potential service impacts and
were already in place to certify that FKC repairs were
                                                               resubmit it to headquarters for review.
completed satisfactorily prior to payment. Work by district
maintenance charged to credit cards is certiﬁed by Postal      Additionally, management requested we review selected
Service personnel separate from the credit cardholder,         aspects of the consolidation of outgoing mail at the
which is the same procedure followed for all credit card       Marysville Processing and Distribution Facility (P&DF),
charges. In addition, management did not agree with the        in California, into the Sacramento P&DC. We concluded
assets at risk, stating that the FSOs are responsible for      that district management did not route mail volumes in
monitoring spending and that transactions are subject to       accordance with the approved AMP proposal, and that the
audit by the FSO. However, management did not provide          rerouted mail was not reported in the post-implementation
documentation to demonstrate that FSOs were monitoring         review (PIR) because of management oversight, which
spending or conducting reviews of transactions.                was the same reason that service impacts associated
                                                               with the consolidation were not accurately reported in
Processing & Distribution                                      the AMP or PIRs. Management subsequently decided to
Center Consolidations                                          reverse the AMP consolidation because overnight service
At management’s request, we audited the Kansas City,           between Chico, California, and San Francisco, Oakland, and
Kansas, Area Mail Processing (AMP) consolidation proposal.     Stockton, California, was downgraded. The AMP reversal
We concluded it was generally accurate and supported, and      reverted the ZIP Codes to their original service standard.
showed evidence of management review. Our analyses             We recommended that management document costs and




                                                                                                                                                                         11
INCREASE EFFICIENCY

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



                                                                                                           Project Management Challenges in the
                                                                                                           Engineering Program
                                                                                                           During our reviews of various engineering programs, we
                                                                                                           identiﬁed several project management challenges that
                                                                                                           increase the risk to performance, schedule, or cost of
                                                                                                           engineering programs. We believe consistent application
                                                                                                           of life cycle project management guidelines, such as
                                                                                                           those contained in the draft Technology Acquisition
                                                                                                           Manual Process Guide, may help alleviate some of these
                                                                                                           challenges. Speciﬁcally, the draft guide addresses the
                                                                                                           production and deployment phase to include ﬁrst article
                                                                                                           test, acceptance, deployment, and ﬁnancial management.

                                                                                                           Equipment Maintenance Opportunities
                                                                                                           Preventive maintenance is the scheduled, systematic
                                                                                                           servicing of equipment necessary to maintain optimal
Incorrect and unreliable Automated Vehicle Mileage Utilization System (AVUS) information jeopardizes
                                                                                                           operating conditions. To complete maintenance routines,
supervisors’ ability to make decisions and impacts the safety and reliability of vehicles.
                                                                                                           management traditionally used machine run time to
                                                                                                           determine the extent of preventive maintenance needs.
                                                                                                           Production or condition-based maintenance (PBM) was
                                                                                                           introduced to align the timing and extent of preventive
                                                                                                           maintenance to wear and tear on machines caused by
                                                                                                           actual usage — as it more accurately reﬂects when
                                                                                                           preventive maintenance is needed. As such, PBM achieves
                                                                                                           more efﬁcient use of maintenance hours by making
                                                                                                           more hours available for proactive maintenance and
                                                                                                           supplementing the hours needed for other equipment.

                                                                                                           In December 2006, the Maintenance Technical Service
                                                                                                           Center issued PBM guidelines for the Automated
                                                                                                           Facer Canceller System (AFCS). We assessed whether
                                                                                                           opportunities existed to reduce AFCS preventive
                                                                                                           maintenance workhours through the PBM program.
                                                                                                           We found that facilities equipped with AFCS have not
                                                                                                           implemented PBM guidelines because the Electronic
                                                                                                           Maintenance Activity Reporting & Scheduling system is
                                                                                                           incapable of automatically generating production-based
                                                                                                           checklists that facilitate daily maintenance routines.
First-Class Permit Reply Mail (PRM) mailpieces and two-way DVD mailpieces are processed manually at the
                                                                                                           Additionally, staff was reluctant to deviate from former
Portland, Oregon, Processing and Distribution Center.
                                                                                                           maintenance procedures. As a result, the Postal Service
                                           service implications from reversing the consolidation of the    incurred excessive maintenance costs of $11.6 million
                                           Marysville P&DF outgoing mail into the Sacramento P&DC.         for the year ending December 21, 2007. Successful
                                                                                                           implementation of the tested PBM guidelines would also
                                           Streamlining the network presents the Postal Service with       avoid costs of $130.1 million over the next 10 years
                                           many challenges. These challenges include developing            through attrition and reduced overtime.
                                           a ﬂexible network that can adjust to changing market
                                           conditions and mail volumes; measuring the results of           City Delivery Vehicle Mileage
                                           network streamlining initiatives; balancing service with
                                           cost; keeping stakeholders informed to prevent surprises;       Incorrect and unreliable Automated Vehicle Mileage
                                           and maintaining resilience in the event of major disruptions,   Utilization System (AVUS) information jeopardizes
                                           natural disasters, or acts of terrorism. We will continue to    supervisors’ ability to make decisions. This is especially
                                           review initiatives to streamline the network to ensure they     important since the Postal Service plans to extend the
                                           are adequately planned, supported, and achieve desired          useful life of their primary delivery vehicles an additional
                                           results without sacriﬁcing service.                             10 years beyond their normal 24-year useful life.




12
                                                                                                                                                      IMPROVE SERVICE

                                                                                                                      Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                             October 1, 2007 — March 31, 2008



Overall, our four area reports concluded that vehicle
mileage information in AVUS was not consistently accurate
and reliable. We identiﬁed that more than 682,000 miles
recorded as driven by carriers were unsupported. This
adversely impacted supervisors’ effectiveness in making
daily delivery decisions. We questioned more than
$5.8 million in costs, and recommended that the Postal
Service improve the accuracy and reliability of vehicle
mileage information in AVUS by establishing a central
reference policy with clear guidance on recording and
maintaining mileage information, and standards for
carrier mileage deviation. Additionally, AVUS input control
modiﬁcations could reduce input errors and the associated
variances between authorized miles and recorded miles.

Permit Reply Mail Review. We assessed whether
First-Class Permit Reply Mail (PRM) mailpieces were
processed according to their approved classiﬁcation and
pricing. We found that most PRM mailpieces are processed         Key components of network streamlining include mail processing plant consolidations, plant closings, and
according to the Domestic Mail Manual (DMM). However,            outsourcing some mail processing operations to eliminate excess capacity, increase efﬁciency, and better
approved First-Class two-way digital versatile disk (DVD)        use resources.
return mailpieces from one DVD rental company sustained
damage, jammed equipment, and caused missorts                   aligned to customer needs, is essential for all products,
during automated processing. About 70 percent of these          services, and channels.
mailpieces are not machinable due to the envelope design,
                                                                The Postal Service’s strategy to improve service is to
so employees must process them manually. We estimated
                                                                provide timely, reliable delivery and improved customer
the Postal Service paid $41.9 million in additional labor
                                                                service across all access points. Speciﬁcally, it is focusing
costs over the past 2 years and will pay about $61.5 million
                                                                on the quality and consistency of service provided at
over the next 2 years.
                                                                all customer contact points as well as the speed and
We also found that, although nonmachinable mailpieces           reliability of end-to-end mail delivery across all product
are subject to a surcharge, the DMM does not address            lines. However, improving service is challenging to do
the characteristics of the mailer’s two-way DVD return          while simultaneously working to cut costs, and service
mailpiece that make it nonmachinable. Although the DVD          issues can quickly come under scrutiny from external
rental company’s two-way DVD return mailpiece adheres to        stakeholders. Our work in this area is aimed at helping the
the DMM machinability criteria, Engineering’s testing of this   Postal Service improve operational efﬁciencies related to
and similar mailpieces has consistently shown that this type    customer service.
of mailpiece is not machinable.
                                                                Reducing Excess Capacity
We made recommendations for management to revise the
                                                                The Postal Service’s business environment is challenging
DMM’s Nonmachinable Criteria for First-Class letter-size
                                                                due to an uncertain economy, lower than expected mail
mail, to notify mailers that the Postal Service must test
                                                                volumes, the implementation of new automation and
their two-way DVD return mailpieces against the revised
                                                                technology to enhance mail sorting and tracking, and
criteria, and to collect the 17 cents per piece surcharge for
                                                                an expanding delivery network. In addressing these
nonmachinable mailpieces. Management agreed with the
                                                                challenges, the Postal Service is reducing excess capacity
recommendations; however, they did not identify actions to
                                                                in the plant network and the redundancy inherent in
address them.
                                                                maintaining separate transportation networks for different
                                                                mail classes. With less mail coming in, the mail processing
IMPROVE SERVICE                                                 infrastructure must be ﬂexible and resources must be
                                                                adjusted to match volume. Key components of network
The Postal Service recognizes that improving service is the
                                                                streamlining include mail processing plant consolidations,
key to increasing competitiveness and proﬁtability. Further,
                                                                plant closings, and outsourcing some mail processing
evolving customer needs, shaped by the Internet and a new
                                                                operations to eliminate excess capacity, increase efﬁciency,
generation of customers, are redeﬁning expectations for
                                                                and better use resources.
service and convenience. Continuous service improvement,




                                                                                                                                                                            13
IMPROVE SERVICE

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



                                                                                                              System, which is vital to managing the day-to-day domestic
                                                                                                              and international operational mail activities. In cooperation
                                                                                                              with the Postal Service, we reviewed data integrity and
                                                                                                              found the mail condition reports for the Chicago J.T.
                                                                                                              Weeker ISC were submitted on a timely basis, but data was
                                                                                                              incomplete and inaccurate. Management could not always
                                                                                                              rely on the data to make distribution decisions, identify
                                                                                                              problems in achieving operational targets, or analyze
                                                                                                              operational trends. We recommended improving controls
                                                                                                              over reporting and training employees.

                                                                                                              Delayed Mail — Waco. In response to an inquiry, we
                                                                                                              reviewed allegations of delayed mail at the Waco, Texas,
                                                                                                              P&DF. The audit found that since FY 2005, the Waco P&DF
                                                                                                              had difﬁculties with the timely processing of Standard Mail,
                                                                                                              resulting in mail delays. While the Waco P&DF signiﬁcantly
                                                                                                              reduced the amount of delayed mail since March 2007, it
                                                                                                              continues to experience periods with relatively high volumes
                                                                                                              of delayed Standard Mail. We recommended improving
                                                                                                              controls over the timely processing of mail.

                                                                                                              Chicago Mail Processing, Transportation, and
                                                                                                              Delivery Operations. We followed up on our previous
The Postal Service could divert some non-revenue generating transactions from the retail counter to other     reviews of the timeliness of mail processing, transportation,
means by promoting the use of their website and contact center, expanding automated services available in     and delivery operations in the Chicago District based on
the retail lobby, and exploring new channels that its domestic competitors and foreign postal entities use.   requests from the Postmaster General, Chief Executive
                                                                                                              Ofﬁcer, and Congress. We concluded the Chicago District
                                           Management is making progress to streamline the network,           made noticeable improvements at the end of FY 2007,
                                           but efforts to date have achieved limited results and              but continue to have difﬁculty with the timely and efﬁcient
                                           future improvements may be harder to realize. Our recent           processing and delivery of mail, resulting in mail delays,
                                           reviews focused on the process for consolidating plants,           service degradation, and customer complaints. The Postal
                                           whether consolidation and outsourcing proposals were               Service acknowledged these conditions and took a number
                                           supported, and whether consolidations and outsourcing              of actions to remedy the situation. As a result, service
                                           realized projected cost savings. In general, we found the          scores improved as of Quarter 4 FY 2007, compared to the
                                           consolidations and outsourcing initiatives were supported          prior three quarters. We recommended process efﬁciency
                                           and realized cost savings, but we identiﬁed a few concerns.        improvements for the Cardiss Collins P&DC to reduce
                                                                                                              workhours by 697,245 for a savings of more than $231
                                           In response to a Postal Service management request, we             million by FY 2017.
                                           assessed proposed changes to Handbook PO-408, AMP
                                           Guidelines, which provides the framework for consolidating         Business Over the Counter
                                           mail processing operations and performing PIRs. The Postal
                                           Service’s revisions to AMP guidance provide signiﬁcant             Each day, millions of customers visit post ofﬁces to
                                           improvements. Management incorporated 32 of our                    purchase postal products and services, send mail, pick
                                           prior recommendations on AMP policy into the revisions.            up items that could not be delivered to their homes, place
                                           Our review identiﬁed ten additional recommendations                temporary holds on their mail, and more. From FY 2005
                                           to improve AMP guidance with regard to workhours,                  through Quarter 2 FY 2007, retail associates completed
                                           transportation, communications, service, performance               about 5.35 billion transactions at the retail counter.
                                           indicators, and supervisory ratios. Management agreed              Almost 6 percent of these transactions were non-revenue
                                           with nine of our recommendations and on the remaining              generating, accounting for almost 7 percent of retail
                                           one, management provided an alternate process that met             associates’ total transaction time. Over half of non-revenue
                                           the intent of the recommendation.                                  transactions were to pick up or hold mail.

                                           Web Mail Condition Reporting System. The Postal                    The Postal Service could divert some non-revenue
                                           Service processes more than 212 billion mail pieces a year         generating transactions from the retail counter to other
                                           and has a number of systems supporting its operations.             means by promoting the use of the its website and
                                           Critical among these is the Web Mail Condition Reporting           contact center, expanding automated services available




14
                                                                                                                                CUSTOMER-FOCUSED CULTURE

                                                                                                                Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                       October 1, 2007 — March 31, 2008



in the retail lobby, and exploring new channels that its       The Postal Service’s strategy is to achieve results with
domestic competitors and foreign postal entities use.          a customer-focused culture by engaging and motivating
We recommended that management make customers                  the workforce. The Postal Service is focusing on four
aware — by advertising and revising certain forms — that       critical human resource strategies: engaging employees,
they can place mail on hold or request redelivery through      developing and managing talent, establishing and
its website and contact center. Further, we suggested          maintaining market-based compensation, and managing
management explore ways to expand automated services           the workforce to assure ﬂexibility.
in the retail lobby. We also suggested that management
explore installing parcel kiosks, adding fee-based premium     The need to create a ﬂexible workforce is part of the Postal
delivery options to available services, and giving customers   Service’s network optimization initiative. To that end, the
the option to have their packages intercepted and              Postal Service successfully negotiated changes in most of
redelivered for a fee.                                         the new labor contracts to more effectively use part-time
                                                               and temporary employees as changes in mail volume
Automated Workforce Projection System and                      dictate adjustments to operations. It also implemented the
                                                               National Reassessment Process, which ﬁnds appropriate
Business Plans                                                 and productive assignments for employees covered
Following our FY 2006 review of the implementation of the      under the Department of Labor’s Ofﬁce of Workers’
Delivery and Retail Standard Operating Procedures, we          Compensation Programs.
assessed whether management completed all scheduled
on-site reviews, implemented the review recommendations        Further, the Postal Service is committed to providing a
at units where the reviews were completed, and updated         safe workplace for its employees, and describes a number
the Automated Workforce Projection System (AWPS) with          of initiatives in its 2007 Annual Report. For example,
workload information from the on-site and administrative       the Voluntary Protection Program brings management,
reviews. We found that management did not complete all         employees, and union representatives together to work to
the scheduled on-site reviews, did not always implement        reduce injuries and illnesses.
the review recommendations at units where the reviews
were completed, and did not always update AWPS with            During this reporting period, we assessed the Postal
workload information. We estimate the annual value of          Service’s ability to resolve workforce and workplace
recommended budget reductions in units that did not            issues, particularly those related to violence prevention
implement the on-site review recommendations at about          and response programs. We also responded to a complaint
$2.7 million. In addition, the information in AWPS, which      regarding the Equal Employment Opportunity (EEO)
management uses for operational planning, may not be           contracting function in Tampa, Florida. Additionally, to
accurate because ofﬁcials did not always update the            help ensure employee safety we conducted work on the
system with workload information.                              ventilation ﬁltration system — another important human
                                                               capital area.
We recommended that management adhere to the on-site
review schedule and ensure that qualiﬁed teams are             Violence Prevention and Response Programs
available to conduct the targeted reviews, as scheduled.
                                                               We conducted ﬁve audits during this reporting period on
In addition, we recommended that management monitor
                                                               the violence prevention and response programs in 15
performance and track adherence to the approved business
                                                               performance clusters located in ﬁve areas of operation.
plans. We also recommended that management provide
                                                               Our reviews concluded that all of the performance clusters
AWPS training to ﬁeld ofﬁcials so that they are aware of
                                                               established threat assessment teams and took some
the requirement to update the system, and ensure the ﬁeld
                                                               positive steps to reduce the potential for violence such as
ofﬁces update the AWPS workload annually.
                                                               conducting climate assessments and Voice of the Employee
                                                               focus groups. However, the performance clusters’ violence
CUSTOMER-FOCUSED CULTURE                                       prevention and response programs may not be fully
                                                               effective in reducing the potential for violence because the
The Postal Service manages a large and dynamic
                                                               performance cluster managers and the threat assessment
workforce. A challenge is optimizing its workforce
                                                               teams did not implement many of the required policies
planning by placing the right mix of employees, in the right
                                                               and procedures. In addition, the areas and performance
location, at the right time. Optimizing the workforce also
                                                               clusters did not provide adequate oversight of the violence
means aligning it with changing customer needs, new
                                                               prevention and response programs to ensure compliance
technologies, and emerging markets. Further, controlling
                                                               with policies and procedures.
costs associated with workplace programs is also important
to the Postal Service’s success.




                                                                                                                                                                     15
CUSTOMER-FOCUSED CULTURE

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



                                           Equal Employment Opportunity                                              justiﬁcation for how the process followed required business
                                           Contracting Function                                                      principles was not documented. NEEOISO Management
                                                                                                                     agreed to document how the processes and procedures
                                           In response to a complaint that questioned the need to                    ensure compliance with the principles set forth in the
                                           establish the National Equal Employment Opportunity                       delegation of authority.
                                           Investigative Services Ofﬁce (NEEOISO), we reviewed the
                                           Postal Service’s EEO contracting function. The complaint
                                           also alleged that the contracting process for obtaining
                                                                                                                     Ventilation Filtration System Utilization
                                           EEO investigators was not consistent with Postal Service                  As a result of the anthrax attack in 2001, the Postal Service
                                           contracting policies, and that management engaged in                      developed an Emergency Preparedness Plan (EPP) that
                                           discriminatory practices when compensating the contract                   outlines programs and activities to mitigate and deter future
                                           investigators, resulting in excessive annual amounts paid                 biological attacks that use the mail system. The Ventilation
                                           to some of them.                                                          Filtration System (VFS) is one of the major programs
                                                                                                                     identiﬁed in the EPP. The VFS is attached to the AFCS
                                           Our review concluded that the business purpose for                        to limit the dispersion of particulate matter ejected from
                                           contracting for EEO investigations and ﬁnal agency                        in-process mail, thereby reducing the risk that biological or
                                           decision (FAD) letter writing services was to improve the                 chemical agents could contaminate employees.
                                           EEO process, which is consistent with federal regulations.
                                           We also concluded that the delegation of contracting                      We assessed utilization of the VFS and whether its
                                           authority to the NEEOISO complies with Postal Service                     operation occurred in tandem with AFCS at certain
                                           Supplying Principles and Practices. However, we could not                 locations. We determined VFS machines were operated for
                                           determine whether the selection process for EEO contract                  shorter run times than the AFCS machines and, therefore,
                                           investigators and FAD letter writers complied with the                    did not fully support program runtime requirements that
                                           delegation of authority requirements because the business                 they operate 45 minutes after AFCS machines were




The Postal Service manages a large and dynamic workforce. A challenge is optimizing its workforce planning by placing the right mix of employees, in the right location, at the right time.




16
                                                                                                                                          ENHANCE SUSTAINABILITY

                                                                                                                     Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                            October 1, 2007 — March 31, 2008



turned off. We also noted some sites did not change ﬁlters         REGULATORY STUDIES AND
according to program requirements, which potentially               REPORTING OBLIGATIONS
reduces the effectiveness of the VFS machines. We
recommended the Postal Service develop and implement               The Postal Act of 2006 is the ﬁrst major legislative change
a mechanical lockout device for the VFS control panel              to the Postal Service since 1970. Among other things, it
and distribute standard operating policy and procedures            requires the Postal Service to conduct certain regulatory
concerning the operation of VFS machines. We also                  studies and mandates a number of reporting obligations.
recommended that maintenance managers monitor and                  In its plan published in December 2007, the Postal Service
change VFS ﬁlters according to program requirements.               outlines its Sarbanes-Oxley Act of 2002 implementation
                                                                   timeline, annual report plan, and plan for additional reports
ENHANCE SUSTAINABILITY                                             and studies.

The Postal Service added enhancing sustainability as a             A number of important
strategic goal in its updated plan. It deﬁnes sustainability       requirements of the Postal Act
as meeting the needs of the present without compromising           of 2006 affect the OIG. Below,
the future. To achieve this strategic goal, the Postal Service     we report on the status of our
plans to focus on expanding environmentally-friendly               work related to the Sarbanes-
business practices and increasing energy conservation.             Oxley Act. Further, our work
                                                                   in this area assessed the
Enhancing sustainability is an important challenge facing          adequacy and fairness of the
the Postal Service and by seriously addressing this issue,         revenue deﬁciency assessment
it demonstrates its environmental leadership. Further,             and appeals process, the
the Postal Service’s approach is built on the principle            In-Ofﬁce Cost System, and
of integrating environmental activities within day-to-day          the internal controls over the
operations and engaging employees to take responsibility           Revenue, Pieces, and Weight
for minimizing their environmental impact. The Postal              Adjustment System.
Service believes that these efforts enhance the value of
mail and reduce waste and energy consumption. Our work             Sarbanes-Oxley Act
in this area assessed the Postal Service’s facility energy
                                                                   We coordinated with the
management strategies and savings opportunities.
                                                                   Postal Service and Ernst &
                                                                   Young (E&Y), its independent
Energy Management Savings Opportunities                            public accounting ﬁrm,
The current Postal Service energy management program               to monitor its efforts to
focuses on facilities of more than 100,000 square feet. In         become Sarbanes-Oxley Act
the Northern Virginia District, there are 127 facilities with      compliant by FY 2010. We
less than 100,000 square feet. In FY 2007, payments to             also started realigning our
electricity providers for these facilities totaled about $2        ﬁnancial reporting structure
million, or 73 percent of the Northern Virginia District’s total   and processes to better assist
electricity costs.                                                 in supporting the overall         The current Postal Service energy management program focuses on
                                                                   opinion on internal controls      facilities of more than 100,000 square feet.
We evaluated the Northern Virginia District’s program              over ﬁnancial reporting
to reduce electricity consumption and costs at facilities          issued by E&Y. Also, for the
between 10,000 and 100,000 square feet and determined              ﬁrst quarter in FY 2008, we assisted E&Y in reviewing the
that efforts had not been directed toward these facilities         quarterly ﬁnancial information to be in full compliance with
primarily because the Northern Virginia District, following        Securities and Exchange Commission requirements. We
national strategic direction, focused on the larger facilities.    will continue to coordinate with the Postal Service as they
As a result, the Northern Virginia District has not completely     identify key controls over ﬁnancial reporting and move
seized opportunities to reduce energy consumption and              towards compliance; and will further reﬁne and coordinate
lower energy costs. For example, our audit revealed                our work and incorporate process efﬁciencies in the overall
several low- or no-cost opportunities to improve energy            opinion process.
efﬁciency at these smaller sites. Further, insufﬁcient internal
controls over the payment of the Northern Virginia District’s
electricity bills put about $2 million of assets at risk in
calendar year 2007.




                                                                                                                                                                          17
REGULATORY STUDIES AND REPORTING OBLIGATIONS

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



                                           Assessment of Rate Deﬁciencies                              Our audit found the assessment and appeals process to
                                                                                                       be adequate and fair, and we did not ﬁnd a compelling
                                           In response to our January 2000 audit, mailer complaints,
                                                                                                       reason for Congress to assign an outside body a role in
                                           and congressional inquiries, the Postal Service made
                                                                                                       this process. Further, we determined there was no need
                                           several organizational changes. It also updated its
                                                                                                       to establish a statute of limitations because management
                                           management instruction, Assessing and Collecting
                                                                                                       issued, and generally adhered to, guidance establishing a
                                           Deﬁciencies in Postage or Fees, that documents the
                                                                                                       12-month time limit for revenue deﬁciency assessments.
                                           revenue deﬁciency reporting, recording, notiﬁcation, and
                                                                                                       However, we did identify issues with the Postal Service’s
                                           appeal and collection process. However, members of
                                                                                                       monitoring of revenue deﬁciencies and updating of
                                           Congress continued to express concerns. As a result, the
                                                                                                       procedures. As a result, the Postal Service is taking
                                           Postal Act of 2006 included a requirement that we study
                                                                                                       a number of actions, such as updating its guidance
                                           and report on the adequacy and fairness of the process
                                                                                                       for reporting revenue deﬁciencies, providing concise
                                           by which nonproﬁt rate deﬁciency assessments are
                                                                                                       instructions for those with roles in the process, and
                                           determined and appealable.
                                                                                                       clarifying the 12-month time limit.

                                                                                                       In-Ofﬁce Cost System
                                                                                                       The Postal Act of 2006 requires us to regularly audit the
                                                                                                       data collection systems and procedures the Postal Service
                                                                                                       uses to prepare its reports analyzing costs, revenues, rates,
                                                                                                       and quality of service for the Postal Regulatory Commission.
                                                                                                       As part of this effort, we reviewed the In-Ofﬁce Cost System
                                                                                                       (IOCS), which is used in the ratemaking process to distribute
                                                                                                       more than $32 billion in labor costs of clerks, mail handlers,
                                                                                                       city delivery carriers, and supervisors to the activities carried
                                                                                                       out by those employees, and to classes and subclasses of
                                                                                                       mail and special services. We determined that management
                                                                                                       actions improved the quality of data obtained via telephone
                                                                                                       on employee work activities. However, at the three districts
                                                                                                       we visited, data collection policies and procedures were
                                                                                                       not always followed, and 43 percent of the telephone
                                                                                                       responses we examined contained inaccurate information.
                                                                                                       In addition, a nationwide analysis of IOCS telephone
                                                                                                       responses indicated some bias when telephone responses
                                                                                                       were completed. We provided ﬁve recommendations to
                                                                                                       strengthen controls over the integrity of IOCS data collection
                                                                                                       and to improve the accuracy and integrity of management
                                                                                                       data used in the ratemaking process.

                                                                                                       Internal Controls over the Revenue, Pieces,
                                                                                                       and Weight Adjustment System
                                                                                                       Overall, the Revenue, Pieces, and Weight Adjustment
                                                                                                       (ARPW) system’s internal controls were effective and
                                                                                                       included an established control environment, identiﬁcation
                                                                                                       of risks, functioning control activities, effective
                                                                                                       communication, and adequate system monitoring. We
                                                                                                       made two recommendations to provide for succession
                                                                                                       planning and improve written procedures detailing
                                                                                                       key internal control activities, which will assist in the
                                                                                                       preparation of timely, accurate reports used in the
                                                                                                       ratemaking process, helping preserve customer goodwill
                                                                                                       and the Postal Service brand.


The Postal Act of 2006 is the ﬁrst major legislative change to the Postal Service since 1970.




18
                                                                                                                                                       AUDIT ACTIVITIES

                                                                                                                      Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                             October 1, 2007 — March 31, 2008




PRESERVING INTEGRITY
The OIG works to preserve the integrity of Postal Service processes and personnel, which are essential elements for
safeguarding Postal Service products, customers, services, and assets. To deal with potential natural or man-made
disasters, the Postal Service renewed its emphasis on developing initiatives to more effectively secure the nation’s mail
system. This is a signiﬁcant challenge due to the sheer size and geographic dispersion of the Postal Service.

The OIG helps assure integrity by conducting ﬁnancial audits of Postal Service installations and information systems
audits, and by providing oversight of the U.S. Postal Inspection Service.

OIG investigative efforts assist the Postal Service in protecting the mail, safeguarding the Postal Service’s revenue and
assets, and helping maintain the integrity of postal personnel.

This section discusses audit and investigative activities during this period to preserve integrity in the Postal Service.



AUDIT ACTIVITIES
By focusing on key vulnerabilities of Postal Service
installations, our audits have shown how the Postal
Service can further protect the integrity of the mailstream.
Ultimately, assessing the integrity and accuracy of
management data helps to maintain a stable and sound
Postal Service.

Financial Statements Account for Postal
Service Costs and Revenues
Following is an outline of the Postal Service’s ﬁnancial
position and a summary of the ﬁnancial audits performed
in support of the independent accountant’s opinion on the
ﬁnancial statements.

Postal Service’s Financial Position
The Postal Act of 2006 made signiﬁcant reforms in
the governance of the Postal Service and signiﬁcantly
altered some of the Postal Service’s ﬁnancial
responsibilities, with some major provisions directly          By focusing on key vulnerabilities of Postal Service installations, our audits have shown how the Postal
affecting the ﬁnancial statements.                             Service can further protect the integrity of the mailstream.
The Postal Act of 2006 returned the obligation to fund
the portion of the Civil Service Retirement System (CSRS)      created Postal Service Retiree Health Beneﬁt Fund
retirement beneﬁt earned while serving in the military         (PSRHBF) on June 29, 2007.
by participants who retire as Postal Service employees
back to the United States Treasury. Accordingly, the Ofﬁce     Further, beginning in FY 2007, the Postal Act of 2006
of Personnel Management (OPM) estimated the Postal             requires the Postal Service to make annual payments into
Service has fully funded its CSRS pension obligation as        the PSRHBF, averaging $5.6 billion for 10 years. After that
of September 30, 2006. As such, the Postal Act of 2006         time, OPM will determine whether any further payments
suspended the employer contribution to CSRS until              are required. In FY 2007, the Postal Service paid into the
FY 2017, when OPM will determine whether additional            PSRHBF and expensed $5.4 billion. The Postal Act of 2006
funding is required. It also required OPM to determine the     also required the Postal Service to transfer previously
CSRS surplus attributable to Postal Service employees as       escrowed funds, calculated by OPM as $2.958 billion, to
of September 30, 2006. This surplus amount, determined         the PSRHBF and to expense the entire amount. Since the
by OPM to be $17.1 billion, was transferred to the newly       Postal Service no longer holds funds in escrow, interest




                                                                                                                                                                           19
AUDIT ACTIVITIES

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



                                                                                                          income substantially decreased for the second half of
                                                                                                          FY 2007 and that will continue into the future.

                                                                                                          The Postal Act of 2006 also establishes the former Postal
                                                                                                          Rate Commission as a regulatory body, renamed the
                                                                                                          Postal Regulatory Commission (PRC); mandates fully
                                                                                                          SEC-compliant ﬁnancial reporting beginning in FY 2008;
                                                                                                          requires compliance with the Sarbanes-Oxley Act in 2010;
                                                                                                          and divides mail services into two broad categories:
                                                                                                          market-dominant (mailing services) and competitive
                                                                                                          (shipping services) with separate rate-setting process rules
                                                                                                          and reporting requirements for each category. Its provisions
                                                                                                          set the Postal Service on a new path to proﬁtability and
                                                                                                          performance, with new opportunities for growth that will
                                                                                                          deﬁne the Postal Service of the future.

                                                                                                          Without the payments required by the Postal Act of 2006,
                                                                                                          the Postal Service would have marked its ﬁfth consecutive
The Postal Act of 2006 also established the former Postal Rate Commission as a regulatory body and        year of positive net income and fourth straight year of
renamed it the Postal Regulatory Commission.                                                              positive retained earnings, with net income of more than
                                                                                                          $1.6 billion. However, with the required funding of health
                                                                                                          beneﬁts for FY 2007 and related ﬁnancial adjustments,
                                                                                                          the Postal Service reported a $5.1 billion loss. Still,
                                                                                                          the Postal Service increased productivity for the eighth
                                                                                                          consecutive year and delivered 96 percent of local First-
                                                                                                          Class Mail overnight.

                                                                                                          Revenues increased to $75 billion (more than $2.2 billion
                                                                                                          over FY 2006) primarily due to a rate increase across all
                                                                                                          rate classiﬁcations, implemented in May 2007. However,
                                                                                                          operating expenses increased from $71.7 billion in
                                                                                                          FY 2006 to $80.1 billion in FY 2007, primarily due to a
                                                                                                          516 percent increase in retiree health beneﬁts resulting
                                                                                                          from the Postal Act of 2006 requirements. The Postal
                                                                                                          Service expects continued sluggish economic growth to
                                                                                                          affect the business outlook of the Postal Service for FY
                                                                                                          2008, but it expects revenues to increase by $3.2 billion, or
                                                                                                          4.3 percent, primarily due to the May 2007 price increase.
                                                                                                          Conversely, it expects expenses to decrease 1.6 percent
                                                                                                          from FY 2007 primarily due to the one-time $2.958 billion
                                                                                                          payment from escrow that was expensed in FY 2007.
                                                                                                          Excluding that payment, personnel costs (including
                                                                                                          retiree health beneﬁts) are expected to increase about
                                                                                                          $700 million or 1.2 percent primarily due to cost of living
                                                                                                          pay adjustments, and increases in contractual pay and
                                                                                                          health beneﬁts costs. The Postal Service plans to offset this
                                                                                                          increase by reducing 28 million workhours, equal to
                                                                                                          14,000 full-time equivalent positions. These costs are
                                                                                                          expected to account for 79 percent of total expenses. The
                                                                                                          Postal Service has not yet determined additional costs
                                                                                                          associated with the new ﬁnancial reporting requirements,
                                                                                                          PRC regulations, or Section 404 of the Sarbanes-Oxley Act.
During FY 2007, we issued two reports summarizing 210 post ofﬁce and Business Mail Entry Unit audits.     Throughout most of FY 2006 and FY 2007, the Postal
We concluded that ﬁnancial transactions were reasonably and fairly presented in the accounting records,   Service was debt-free and borrowed only to meet year-end
and that generally, internal controls were in place and effective.                                        cash disbursement requirements. At the end of FY 2007,




20
                                                                                                                                                        AUDIT ACTIVITIES

                                                                                                                       Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                              October 1, 2007 — March 31, 2008



the Postal Service had $4.2 billion in debt outstanding, a       We did not identify any
$2.1 billion increase from FY 2006. As was the case for          instances of noncompliance
FY 2007, the Postal Service does not expect cash ﬂow             with laws and regulations that
from operations to be sufﬁcient to fund capital investments      have a direct and material
and legislative payment requirements. Consequently,              effect on the ﬁnancial
it anticipates increasing debt in FY 2008 by about               statements; however, we
$1 billion. Since the Postal Service’s debt since FY 2004        identiﬁed a signiﬁcant
has consisted of short-term obligations that allow payment       deﬁciency regarding
on a daily basis, interest expense on borrowings has been        international mail accruals
at the lowest levels since the early 1970’s.                     and rates. To address this, the
                                                                 Postal Service implemented a
Financial Audits. During FY 2007, we issued two reports          quarterly review process and
summarizing 210 post ofﬁce and Business Mail Entry Unit          started a business process
(BMEU) audits. We concluded that ﬁnancial transactions           improvement plan to develop a
were reasonably and fairly presented in the accounting           stronger system.
records, and that generally, internal controls were in place
and effective. However, we identiﬁed ﬁve post ofﬁces where       We also conducted 15 audits
internal controls were not effective and nine post ofﬁces        addressing cost and revenue
and BMEUs where major segments of the internal controls          analyses. We concluded that
were not effective. To address a signiﬁcant deﬁciency            the Postal Service generally
regarding mail acceptance at BMEUs, the Postal Service           conducted these statistical
created a cross-functional team that included the Sarbanes-      tests in accordance with
Oxley compliance group, Marketing management, and the            established policies and
Financial Control and Support group. We also recommended         procedures. However, we
that the Postal Service develop and implement a nationwide       noted some areas where the
corrective action plan to measurably reduce or eliminate         Postal Service could make
these reported, recurring deﬁciencies.                           improvements to maintain the         During the reporting period, we determined that access controls
                                                                 integrity of the statistical data.   were in place and functioning adequately. However, testing identiﬁed
We also issued one report summarizing our work conducted                                              opportunities to improve compliance with these controls.
at 11 stamp distribution ofﬁces (SDO) and one stamp              Security and Controls in
services center (SSC). In general, the internal controls
at the 12 ofﬁces were in place and effective, except for
                                                                 Technology Investments
one ofﬁce in which controls over stamp stock destruction         We perform information systems general controls reviews
were not effective. In addition, there were internal control     to support the annual ﬁnancial statement audit and to
and compliance issues related to stamp destruction and           assess the adequacy of controls over information systems
security at 11 of the 12 ofﬁces. For example, supervisors        security and software.
or employees did not always follow prescribed policies and
procedures related to stamp transfers, notiﬁcations of and       FY 2007 Information Systems Access Controls. Access
accounting for discrepancies, and access to and storage          controls limit or detect access to computer data, programs,
of stock and merchandise. In addition, management did            equipment, and facilities. They also protect these resources
not always notify investigative authorities about, or properly   against unauthorized modiﬁcation, loss, and disclosure.
account for, discrepancies. We identiﬁed $155 million in         Access controls can use computer hardware and software
non-monetary impact for accountable items at risk.               to prevent or detect unauthorized access (logical), or
                                                                 restrict physical access to computer resources and protect
Our audits of Postal Service headquarters and the                these resources from intentional or unintentional loss or
Information Technology and Accounting Service Centers            impairment (physical). Inadequate access controls diminish
(IT/ASC) concluded that management’s ﬁnancial                    the reliability of computerized data and increase the risk of
accounting policies and procedures provided for an               destruction or inappropriate disclosure of data.
adequate internal control structure and conformed to
accounting principles generally accepted in the United           During the reporting period, we determined that access
States; transactions affecting general ledger account            controls were in place and functioning adequately.
balances were stated in accordance with those same               However, testing identiﬁed opportunities to improve
accounting principles; and general ledger account                compliance with these controls. Speciﬁcally, management
balances conformed to the general classiﬁcation of               could improve access controls for the Injury Compensation
accounts on a basis consistent with the previous year.           Performance Analysis System (ICPAS) by strengthening
                                                                 database security settings, reconciling user lists,




                                                                                                                                                                             21
AUDIT ACTIVITIES

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



                                                                                                           eAccess System. The eAccess access control system
                                                                                                           has become an integral part of the day-to-day operations
                                                                                                           of the Postal Service. The system grants access and
                                                                                                           monitors who obtains access to various Postal Service
                                                                                                           resources, automates the creation and maintenance of
                                                                                                           user accounts, and provides efﬁciencies that allow for
                                                                                                           the elimination of certain paper forms and the associated
                                                                                                           manual effort necessary to approve and create user
                                                                                                           accounts. Employees and contractors use the eAccess
                                                                                                           system to obtain automated access to registered Advanced
                                                                                                           Computer Environment (ACE) and some mainframe
                                                                                                           systems. If employment status data does not ﬂow
                                                                                                           accurately from feeder systems into Active Directory and
                                                                                                           the mainframe security system (CA-ACF2 — Computer
                                                                                                           Associates Access Control Facility 2), or if internal controls
                                                                                                           in these systems are not in place or working properly, it
                                                                                                           could result in improper or unauthorized user access to
Homeland Security Presidential Directive 12 established a federal policy to create and use a government-   information systems.
wide secure and reliable form of identiﬁcation for federal employees and contractors.
                                                                                                           We reported that the automated and manual processes
                                           and providing application documentation. In addition,           accurately extracted employment status changes that were
                                           management should modify the Windows default domain             transmitted to Active Directory and CA-ACF2; however,
                                           password settings to comply with policy, and complete           Human Resources management needed to improve
                                           ongoing inventories of all door keys at the Information         controls deﬁnition to better separate duties for users who
                                           Security Centers. Addressing these issues would enhance         can update the Human Capital Enterprise System (HCES)
                                           the security of access to more than 680 million records         and the Payroll systems. Additionally, management needed
                                           that include sensitive data in the ICPAS database and           to evaluate the business processes that change employee
                                           protect the Postal Service brand by reducing the potential      status between HCES and eAccess to adequately separate
                                           for improper disclosure of sensitive information.               duties between managers and users in eAccess, and to
                                                                                                           better manage employee status changes — particularly
                                           External Public Key Infrastructure Services. Homeland           detail assignments that affect user access to critical or
                                           Security Presidential Directive 12 (HSPD-12 — Policy for        sensitive systems. Finally, management needed to improve
                                           a Common Identiﬁcation Standard for Federal Employees           eAccess system documentation.
                                           and Contractors, dated August 27, 2004) established a
                                           federal policy to create and use a government-wide secure       Management identiﬁed as many as 20 security
                                           and reliable form of identiﬁcation for federal employees        enhancements to eAccess, planned for mid-2008,
                                           and contractors. Currently, the Postal Service operates an      but some of these system improvements depend
                                           internal certiﬁcate authority-public key infrastructure (CA-    on corresponding changes to HCES. We made four
                                           PKI) to generate internal digital certiﬁcates for machines,     recommendations to address these issues, and while
                                           software, and employees. However, a requirement of Federal      management did not agree with some facts in two of the
                                           Information Processing Standard 201 is that every HSPD-12       recommendations, they recognized that the conditions were
                                           credential the government issues must contain an external       valid and agreed to correct them.
                                           digital certiﬁcate, too.                                        Oracle® Financial Processing. Oracle® Accounts
                                           We reviewed whether the Postal Service’s external PKI           Payable (AP) processes all non-payroll related payments
                                           environment complies with Postal Service certiﬁcate             totaling approximately $14 billion annually. Business
                                           policy, certiﬁcate practice statements, and any applicable      processes include supplier maintenance, purchase
                                           agreements. We found the environment generally complies,        orders, and invoice management. Oracle AP receives and
                                           but the Postal Service could improve it by addressing           processes invoices, receipts, and purchase orders from
                                           14 items not in compliance at the time of the review.           30 electronic subsystems. Each subsystem represents
                                           These items included 11 minor issues in the areas of            an individual application with its own inherent risks and
                                           physical security controls, documentation, and operational      unique controls.
                                           procedures; and three issues that involved audit log            We assessed whether Oracle® AP processing controls
                                           backups, active directory settings, and role separation.        are sufﬁcient and operating as intended to ensure that
                                                                                                           transactions are valid, authorized, and completely and




22
                                                                                                                                                    AUDIT ACTIVITIES

                                                                                                                   Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                          October 1, 2007 — March 31, 2008



accurately processed. We found that controls over               Enterprise Payment Switch Solution Phase 3:
electronically processed invoices are adequate to ensure        Security Testing. In FY 2007, the Postal Service
available discounts are taken prior to payment. However,        processed more than 293 million debit and credit card
the Postal Service has an opportunity to further improve        transactions involving more than $9.6 billion. To meet
its capability to take advantage of discounts on manually       updated performance, reliability, ﬂexibility, and cost
processed invoices through timely certiﬁcation of invoices      objectives associated with debit and credit card transaction
and timely delivery of certiﬁed invoices for payment,           processing, the Postal Service has developed the Enterprise
reduced errors, and a re-worked discount calculation            Payment Switch solution. The Payment Switch is an off-
and certiﬁcation process. Our audit determined that the         the-shelf hardware/software solution that resides between
Postal Service missed taking more than $450,000 in              the retail environment and vendors that process the
discounts from August 12, 2005, through July 11, 2007.          transactions for payment. Placed into limited production
We recommended strengthening controls to more timely            in 2007, the Payment Switch supports a broad range of
process payments, reduce overall outlays, and increase          electronic payment types, including credit card, debit card,
discounts earned.                                               checks, and Internet payments. As a merchant accepting
                                                                debit and credit card payments, the Postal Service is
Additionally, we found that Postal Service managers did not     required to comply with the terms of the Payment Card
detect duplicate and inactive suppliers because they did        Industry (PCI) Data Security Standard.
not perform or delegate reviews of supplier master data
that would identify these conditions. We recommended the        We partnered with the Postal Service to evaluate the
Postal Service establish comprehensive standard operating       security of the proposed credit and debit processing
procedures, and establish and document quality control          solution to verify that the routing and storage of customer
reviews, to address these issues.                               information is secure within the Postal Service systems and
                                                                the Payment Switch environment. This project was divided
National Accounting Oracle Financials Application               into multiple phases to facilitate timely reporting in step
Database. The National Accounting Oracle Financials             with the Postal Service development and implementation
Application (NAOFA) is the hub for all ﬁnancial reporting for   of the Payment Switch solution. We reviewed the security
the Postal Service. The NAOFA consists of three commercial      testing documentation and methodology during Phase 3.
off-the-shelf Oracle modules focused on the general ledger,
property and equipment, and accounts payable.                   The Postal Service elected to incorporate the tests
                                                                associated with PCI security requirements into their internal
At management’s request, we assessed the strength of            security testing for the Payment Switch solution to address
encryption used to store or transmit sensitive NAOFA            all security requirements in a combined effort. During the
data as a follow-up review to the security vulnerability        audit, we identiﬁed concerns related to disaster recovery
assessment we conducted on servers and databases                capabilities for the Payment Switch solution while security
supporting the NAOFA. The scope of our review was limited       representative veriﬁcations also disclosed security concerns
to analysis of data transmitted to and from the NAOFA           not previously recognized by management. We presented
database as well as sensitive credit card and personally        our concerns to senior Postal Service managers prior to the
identiﬁable information stored within the database.             implementation date. Management agreed with the ﬁndings
                                                                presented in the Phase 3 OIG report and stated that most of
We believe the Postal Service has adequately secured            the issues identiﬁed involve the many pre-existing systems
sensitive information transmitted to and from the NAOFA         and processes that were not changed by the Payment
Oracle database by way of Assured File Transfer. However,       Switch solution.
we identiﬁed areas where management could strengthen
their implementation of encryption used to secure sensitive
data for storage and transmission. During the review, we
                                                                Inspection Service Security Controls,
also identiﬁed concerns related to the key management           Processes, and Programs
process and identiﬁcation of credit cardholder data in the      We issued a report assessing Inspection Service security
application Business Impact Assessment. Based on current        controls and processes. We concluded that management
industry data reports, the Postal Service could incur costs     has opportunities to improve security controls and
of $83 per record in the event sensitive credit card or         processes to protect employees, customers, the mail, and
personally identiﬁable information is compromised — a           critical assets. Speciﬁcally, the Postal Service could realize
potential non-monetary impact of $62,997 relating to            a cost savings of at least $6.4 million over the next 10
the safeguarding of information technology assets and           years by using physical security specialists, rather than
preserving the integrity of the Postal Service brand.           postal inspectors, to conduct security surveys and reviews.
                                                                In addition, postal inspectors should be required to take




                                                                                                                                                                        23
AUDIT ACTIVITIES

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



                                                                                                               training that will help them identify and mitigate risks, and
                                                                                                               provide more effective oversight of the security program.
                                                                                                               Management’s planned actions to establish mandatory
                                                                                                               training for postal inspectors will address the training
                                                                                                               issues identiﬁed.

                                                                                                               Identity Theft
                                                                                                               Identity theft — the unauthorized use of another
                                                                                                               individual’s personal information to commit fraud — is
                                                                                                               America’s fastest growing crime. Commission of this crime
                                                                                                               depends on access to personal data, and recent studies
                                                                                                               indicate annual losses in the billions of dollars. The Postal
                                                                                                               Service is combating identity theft by strengthening the
A mail transport equipment trailer and other trailers were stored at an unsecured lot near the San Francisco   protection of its customers’ and employees’ sensitive
Processing and Distribution Center on January 9, 2008.                                                         and personally identiﬁable information. Initiatives include
                                                                                                               security clearances for appropriate individuals; protection of
                                                                                                               social security numbers and other sensitive data processed
                                                                                                               in information systems; access management; and identity
                                                                                                               theft communication and awareness activities.

                                                                                                               Our audit showed the Postal Service should enhance
                                                                                                               controls surrounding the protection of sensitive and
                                                                                                               personally identiﬁable information in the seven systems
                                                                                                               reviewed. Speciﬁcally, management needs to make
                                                                                                               improvements in the areas of user access, data protection,
                                                                                                               and the collection and use of personally identiﬁable data on
                                                                                                               Postal Service forms. Additionally, the Postal Service should
                                                                                                               discontinue one of its employment veriﬁcation systems. We
                                                                                                               made seven recommendations to address these issues,
                                                                                                               safeguard assets, and protect the Postal Service brand,
                                                                                                               and identiﬁed funds put to better use and questioned costs
                                                                                                               totaling almost $140,000.

                                                                                                               Unsecured Trailers
Depicted is a Postal Service-owned trailer covered with grafﬁti sitting on the San Francisco P&DC’s
unsecured storage lot on August 7, 2007.                                                                       During unrelated audit work at the San Francisco P&DC,
                                                                                                               we observed Postal Service-owned and leased trailers and
                                                                                                               mail transport equipment (MTE) stored at an unsecured lot
                                                                                                               near the P&DC. This lot had no fences, cameras, guards or
                                                                                                               other security measures, so we immediately notiﬁed senior
                                                                                                               Postal Service ofﬁcials and the Inspection Service. During
                                                                                                               our observations at the unsecured lot, we found some
                                                                                                               trailers defaced with grafﬁti, some with other damage, and
                                                                                                               most unlocked. In many cases, the unlocked trailers were
                                                                                                               loaded with mailbags, hampers, pallets, and other MTE. Our
                                                                                                               discussions with employees indicated transient or homeless
                                                                                                               people were using the lot, sleeping in Postal Service
                                                                                                               trailers, and using Postal Service equipment. The unsecured
                                                                                                               conditions presented a danger to public safety and security;
                                                                                                               subjected Postal Service vehicles and equipment, worth
                                                                                                               approximately $1.6 million, to theft or misuse; diminished
                                                                                                               the Postal Service’s image, reputation, and brand; and
A family set up camp on the Postal Service leased lot, potentially to take advantage of adjacent parklands     exposed the Postal Service to unrecoverable ﬁnancial loss.
along San Francisco Bay. This photo was taken on August 7, 2007.




24
                                                                                                                                            INVESTIGATIVE ACTIVITIES

                                                                                                                       Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                              October 1, 2007 — March 31, 2008



INVESTIGATIVE ACTIVITIES                                          An example of a
                                                                  countermeasure is the
The investigative efforts of OIG special agents assist the        enforcement of policy
Postal Service in protecting the mail, safeguarding the           prohibiting employees
Postal Service’s revenue and assets, and helping maintain         from carrying personal
the integrity of postal personnel. These special agents —         items like a backpack or
federal law enforcement ofﬁcers — play a key role in              gym bag on the workroom
maintaining America’s trust in the postal system.                 ﬂoor to help prevent
                                                                  or minimize employee
The vast majority of postal personnel are dedicated, hard-        mail theft at a plant.
working public servants whose daily efforts instill trust         An alternative would
in America’s postal system. However, it takes only one            allow employees on the
incident of theft, fraud, or misconduct to potentially diminish   workroom ﬂoor to carry
that trust. The charge of our special agents is to investigate    personal items in clear
these internal crimes and frauds against the Postal Service       plastic bags.
and help deter postal crimes. With more than 600 special
agents stationed in more than 100 ofﬁces nationwide, the          In addition, the
OIG carries out that mission by investigating internal postal     Countermeasures
crimes involving:                                                 group works closely
■   Theft, delay, or destruction of mail by employees             with key mailers (such
    and contractors.                                              as Netﬂix, Blockbuster,
                                                                  QVC, HSN, GameFly, and
■   Injury compensation fraud.                                    the U.S. Department of
                                                                  Veterans Affairs) and
■   Embezzlements and ﬁnancial crimes.                                                          As part of our crime prevention and awareness outreach, a Mail Theft/Delay of
                                                                  major ﬁnancial industry
■   Contract fraud.                                               associations (such as the Mail insert was distributed to more than 600,000 Postal Service employees
                                                                  Financial Industry Mail       with a March pay statement.
■   Computer crimes.                                              Security Initiative [FIMSI])
■   Internal affairs and executive investigations.                on proactive initiatives to more quickly identify non-receipt
                                                                  of mailed items and possible points of loss within the
■   Whistleblower reprisals.                                      postal network.
■   Employee misconduct and general crimes.
                                                                  Theft, Delay, or Destruction of Mail by
■   Narcotics.
                                                                  Employees and Contractors
Special agents also investigate bribery, kickbacks,               The American public expects to receive letters and parcels
extortion, conﬂicts of interest, and allegations against          on time and intact. Citizens have an expectation that
postal executives. Investigative analysts examine data and        their mail will not be stolen, riﬂed, read, or obstructed
analyze trends to augment investigators’ work in the ﬁeld.        while in the possession of Postal Service employees.
Analysts and special agents partner to ﬁnd solutions to help      That expectation and trust extends to every one of the
detect and prevent fraud. They operate as a headquarters          700 million mailpieces that travel across the country daily.
intelligence unit, providing investigative analysis and           Whether it is a First-Class letter or a Priority Mail piece;
research, reviewing investigative trends, and facilitating        Express Mail overnight service; a magazine; or a family
strategic initiatives.                                            heirloom in Registered Mail, all are handled by the women
                                                                  and men of the Postal Service.
Countermeasures
                                                                  Following are examples of mail theft investigations.
This program involves a continuous examination of
investigative results to identify trends and to develop           “Operation First-Class Mail” Nabs Los Angeles Postal
effective countermeasures to prevent or minimize future           Manager. We launched “Operation First-Class Mail” in Los
violations. The Countermeasures group uses trend                  Angeles to determine the cause of high-mail loss. A video
surveys to capture information on investigations and              game company told us the losses began after it had mailed
develop business cases for proposed countermeasures.              9,170 pieces in August 2007, and approximately 4,500
It works with other OIG components to ensure                      customers did not receive their mailed product.
proper implementation and monitoring of approved
countermeasures.




                                                                                                                                                                            25
INVESTIGATIVE ACTIVITIES

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



                                           Our investigation determined a Los Angeles P&DC Manager         to determine whether he had removed mail from the post
                                           was stealing the DVDs. Our agents observed the Manager,         ofﬁce. Within plain view in the Casual Clerk’s vehicle,
                                           who was also assisting in their investigation, hide the         agents saw a hand-made sign advertising jewelry for
                                           company’s mailers in a hamper of waste mail. She later          sale and invoices from a major shopping network service
                                           retrieved the mailings and took them to her apartment.          addressed to New Jersey residents. After receiving a
                                                                                                           verbal consent to search the Casual Clerk’s vehicle, agents
                                           Additionally, the video company security team provided loss     found jewelry, a cell phone charger, and magazines. Agents
                                           reports indicating an abnormally high amount of loss from       next searched the Casual Clerk’s residence and recovered
                                           customers in ZIP Code preﬁxes 900 to 904.                       70 DVDs.
                                           Our investigation determined 1,050 opened mailers from          The OIG investigation revealed the Casual Clerk had stolen
                                           the video company appeared outside the normal mail              DVDs from the post ofﬁce for at least 2 months. It was
                                           stream and in the possession of the Manager.                    also determined the Casual Clerk stole parcels from two
                                                                                                           shopping network services and sold them from his car
                                           In January, a federal grand jury indicted the Manager and       at a nearby shopping center using the cardboard sign to
                                           charged her with one count of Delay of Mail by a Postal         advertise merchandise for sale.
                                           Service Employee and three counts of Embezzlement of
                                           Mail Matter by a Postal Service Employee. Special agents        Management removed the Casual Clerk in January. In
                                           arrested the Manager in January. The Manager had been           February, the Casual Clerk was arrested and he was
                                           placed on off-duty status in November.                          charged with one count of Obstruction of Mail Generally.
                                           Florida Postal Union President Pled Guilty to Mail              Postal Service Terminates Louisiana Highway
                                           Theft. We investigated a former American Postal Workers         Contract Route Driver For Stealing Checks. In
                                           Union local President and Sales and Service Associate           September, the Baton Rouge Police Department told us an
                                           (SSA) for riﬂing mail and removing articles from the mail       arrestee allegedly received stolen checks from a Highway
                                           stream for his personal use. During surveillance, our special   Contract Route (HCR) Driver working in Louisiana.
                                           agents observed the SSA riﬂing mail and stealing the
                                           contents. Later, during an interview with agents, the SSA       We interviewed the HCR Driver who admitted stealing
                                           acknowledged the thefts. The Postal Service removed the         13 checks, including Social Security and state-issued
                                           SSA in June 2007.                                               child support enforcement checks, from postal customers
                                                                                                           on his route. The HCR Driver supplied the checks to two
                                           The former postal employee was sentenced in federal court       co-conspirators in exchange for cash. The co-conspirators
                                           to 7 months in prison, followed by 2 years of supervised        used the HCR Driver’s vehicle to drive to a bank, where they
                                           release for two counts of mail theft.                           set up an account to deposit and cash the checks. The total
                                                                                                           amount deposited from the stolen checks was $15,608.
                                           Colorado Mail Processing Clerk Indicted for Riﬂing
                                           Mail. During our investigation, agents observed a Denver        In October, management terminated the HCR contract.
                                           Mail Processing Clerk riﬂing mail and removing the              A Louisiana federal grand jury charged the former HCR
                                           contents from several First-Class letters. Agents also          Driver with three counts of theft of mail and one count of
                                           observed the Clerk taking $30 in currency from the riﬂed        bank fraud.
                                           letters. A consent search of the Clerk’s residence revealed
                                           he had stolen 87 DVDs from the Denver P&DC.
                                                                                                            Targets for Mail Theft
                                           The investigation further revealed the Clerk stole more          Items that are attractive to mail thieves have evolved over
                                           than 600 mailpieces since the summer of 2006 and                 the years. Here is a list of traditional targets and today’s
                                           $1,200 in cash. He resigned from the Postal Service in           list of new desirables.
                                           January. In March, he was sentenced in federal court to
                                           3 years probation.                                               Traditional: Checks, credit cards, greeting cards with
                                                                                                            cash, jewelry, and video tapes.
                                           Special Agents Foil New Jersey Clerk’s Resale
                                           Business. We received information from two video rental          New: DVDs, CDs, Home Shopping Network/QVC
                                           services regarding signiﬁcant DVD losses mailed to and           branded parcels, gift cards, mail-order prescriptions, and
                                           from the north-central New Jersey area. In December,             eBay branded parcels.
                                           we observed a Casual Clerk making several trips to
                                           his personal vehicle and then driving it off the postal
                                           parking lot. Special agents pulled the Casual Clerk over




26
                                                                                                                                                INVESTIGATIVE ACTIVITIES

                                                                                                                           Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                                  October 1, 2007 — March 31, 2008



Injury Compensation Fraud                                            During this reporting period, injury compensation fraud
                                                                     investigations resulted in more than $95.4 million in cost
The Postal Service funds workers’ compensation beneﬁts               savings/avoidances. Our investigations resulted in the
for employees who sustain job-related injuries. The                  arrests of 23 suspects and in 134 administrative personnel
monetary and medical beneﬁts paid by the Postal                      actions, including removals, suspensions, and letters of
Service to workers’ compensation claimants totaled                   warning. Following are examples of injury compensation
$880 million in 2007. At the end of 2007, the Postal                 fraud cases investigated during this reporting period.
Service’s estimated total liability for future workers’
compensation costs was more than $7.77 billion.                      Michigan Tattoo Artist Draws Conviction in
Administered by the U.S. Department of Labor (DOL),                  Compensation Scam. In August 2006, we received a
the Ofﬁce of Workers’ Compensation Programs (OWCP)                   tip that a Letter Carrier was working in a tattoo booth at
provides direct compensation to providers, claimants,                a Michigan county fair. At the time, the Letter Carrier was
and beneﬁciaries. The Postal Service later reimburses                receiving $2,087 in workers’ compensation payments every
OWCP in a process known as “charge-back billing.”                    28 days because of an on-the-job injury. The Letter Carrier
                                                                     had submitted documents to the OWCP claiming he had
Most employees receive workers’ compensation                         not been employed or involved in any business enterprise
beneﬁts because of legitimate job-related injuries.                  during the previous 15 months.
However, a small percentage of postal employees and
healthcare providers abuse the system. These schemes                 We conducted surveillance of the Letter Carrier while he
cost the Postal Service millions of dollars each year in             worked at numerous fairs and carnivals. We videotaped him
compensation payments, medical costs, administrative                 carrying equipment, lifting heavy objects, jogging, bending,
expenses, and enforcement costs.                                     twisting, sitting, and standing for extended periods.

We initiate criminal investigations when we suspect                  In October 2007, a Michigan federal grand jury charged the
individuals or healthcare providers of defrauding the                Letter Carrier with two counts of fraud to obtain employees’
DOL’s Federal Employees’ Compensation Act beneﬁts                    compensation, eight counts of mail fraud, and four counts
fund. Criminal prosecutions are an effective deterrent to            of false statements. The Letter Carrier was convicted on
fraud and may permanently prevent the payment of any                 all counts in December. This conviction will save the Postal
additional compensation. Any cases that may require                  Service $1,012,663 in future compensation costs.
administrative action are referred to the Postal Service
and the DOL. Special agents work closely with injury                 Western Area Clerk Guilty of Workers’ Compensation
compensation specialists from the Postal Service on all              Fraud. In July 2006, management reported that a Western
phases of these investigations.                                      Area Processing and Distribution Clerk was allegedly
                                                                     exceeding her physical restriction while receiving workers’
                                                                     compensation payment on the daily roll.




A federal grand jury in Baton Rouge, Louisiana, charged eight people for postal-related crimes. “Those who violate laws regulating the
postal system must be punished,” U.S. Attorney David Dugas said at a press conference. “The mail must be sacrosanct. It’s been that way
since this nation started, and we intend to keep it that way.”




                                                                                                                                                                                27
INVESTIGATIVE ACTIVITIES

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008




 Injury Compensation Fraud Investigative Results                                                        Agents subsequently observed the Clerk helping to
                                                                                                        construct a parade ﬂoat, on which she rode for
 October 1, 2007 – March 31, 2008                                                                       2 ½ hours. During that time, the Clerk displayed no
 ■    734 fraud investigations resolved                    ■   21 indictments                           obvious pain behaviors, although she had told her doctor
                                                                                                        she could not sit for more than 10 minutes. During
 ■    $95 million in compensation payments                 ■   13 convictions                           additional surveillances (including a surveillance of the
      avoided                                                                                           Clerk dancing at a Halloween party), we observed the
                                                           ■   134 personnel actions taken by postal
 ■    23 arrests                                               management                               Clerk continuing to exceed her physical restrictions, and
                                                                                                        at no time did she appear to be in pain. In an undercover
                                                                                                        interview at the Injury Compensation and Control Ofﬁce,
                                                                                                        the Clerk reported being unable to work a limited duty job
                                                                                                        answering a telephone for 2 hours per day.

                                                                                                        In February 2007, management removed the Clerk from
                                                                                                        duty. In September, OWCP terminated the Clerk from the
                                                                                                        daily roll, saving the Postal Service more than $1.1 million
                                                                                                        in future compensation beneﬁts. In November, the Clerk
                                                                                                        was found guilty in federal court of one count of Wire Fraud
                                                                                                        and ﬁve counts of making false statements or fraud to
                                                                                                        obtain federal employee’s compensation. She is scheduled
                                                                                                        to be sentenced in May.

                                                                                                        OWCP Claimant Plays Golf Instead of Working;
                                                                                                        Gets Jail Time. In September 2006, an anonymous
                                                                                                        person reported seeing a Letter Carrier golﬁng regularly
                                                                                                        at a Southeast Area golf course. This activity exceeded
                                                                                                        the physical limitations under which the Letter Carrier
                                                                                                        received workers’ compensation payments on the periodic
                                                                                                        roll. Between September 2006 and May 2007, special
                                                                                                        agents and Workers’ Compensation analysts conducted
During surveillance of a Clerk receiving workers’ compensation, she was observed helping to construct
                                                                                                        surveillances of the Letter Carrier. On 11 separate
a parade ﬂoat, on which she rode for 2 ½ hours. During that time, the Clerk displayed no obvious pain
                                                                                                        occasions, they videotaped him playing golf at a local golf
behaviors, although she had told her doctor she could not sit for more than 10 minutes.
                                                                                                        club. One day, the Letter Carrier was observed playing 36
                                                                                                        holes of golf. At no time during any of these surveillances
                                                                                                        did the Letter Carrier show signs of discomfort.

                                                                                                        During an interview with DOL personnel, the Letter Carrier
                                                                                                        said that he could no longer play golf because of his back
                                                                                                        injury. He was limited to merely walking on the golf course
                                                                                                        for exercise.

                                                                                                        In September 2007, the Letter Carrier was indicted by
                                                                                                        a federal grand jury on 30 counts of Mail Fraud and
                                                                                                        one count of false statements or fraud to obtain federal
                                                                                                        employee’s compensation. He pled guilty in federal district
                                                                                                        court to one count of False Statements or Fraud to Obtain
                                                                                                        Federal Employee’s Compensation. The Letter Carrier was
                                                                                                        sentenced to 30 months incarceration, 3 years supervised
                                                                                                        release, and was ordered to pay $71,514 in restitution. The
                                                                                                        OWCP also terminated him from the periodic roll, saving the
                                                                                                        Postal Service $1,054,258 in future compensation beneﬁts.


A letter carrier on workers’ compensation, who claimed he could no longer play golf, was observed by
special agents playing 36 holes of golf in 1 day and showing no signs of physical distress.




28
                                                                                                                                         INVESTIGATIVE ACTIVITIES

                                                                                                                    Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                           October 1, 2007 — March 31, 2008



OWCP Medical Provider Fraud                                      prosecution, offenders not only face the loss of their jobs,
                                                                 but also may face jail time and court-ordered restitution.
We also investigate allegations of fraud against medical
providers who treat multiple Postal Service OWCP                 Following are examples of ﬁnancial fraud cases
claimants. The following is an example of our medical            we investigated.
provider fraud investigations during the reporting period.
                                                                 Texas SSA Sentenced to Home Conﬁnement for
Doctor Pled Guilty to Overcharging the Ofﬁce of                  Stealing Postal Funds. In April 2007, we began
Workers’ Compensation. In February 2004, we launched             investigating a report of suspicious refunds recorded by an
an investigation in response to a qui tam involving a Missouri   SSA working in a Texas post ofﬁce. Management reviewed
plastic surgeon. A qui tam is a private action under the False   the SSA’s transaction reports for the past month and
Claims Act, 31 U.S.C. It allows a private person, “known as      identiﬁed more than $9,000 in suspicious refunds. During
the “relator,” who has knowledge of fraud committed against      our investigation, we determined the SSA defrauded the
the federal government, to bring suit on the United States’      Postal Service of $60,544 by reducing the amount of cash
behalf when the private person has information that the          she submitted in daily deposits by falsely claiming refunds.
named defendant has knowingly submitted or caused the            The SSA embezzled postal funds over a 5-month period
submission of false or fraudulent claims.                        from November 2006 to April 2007.
We discovered after querying a postal database that the          During our interview, the SSA said the money was used to
OWCP had paid $92,489 to the surgeon. We consulted               pay medical bills and her house note. She said it also
a government medical expert, who reviewed the medical            helped four people purchase plane tickets and repair
records of the postal worker who the surgeon operated on         a home in New Orleans. The SSA provided a written
in April 2002. The medical expert determined the surgeon         statement detailing her embezzlement of postal funds. She
falsely and fraudulently stated the employee sustained a         resigned from the Postal Service in May 2007.
“large avulsion injury,” an injury in which a body part has
been severed from the body. The postal employee had              In October, a federal district court
actually injured himself when a mail tray fell on his right      sentenced the SSA to 6 months of
index ﬁnger. The surgeon falsely reported he performed           home conﬁnement and 5 years of
extensive medical and surgical procedures for the postal         probation. The court also ordered the
worker. Additionally, the medical expert discovered              SSA to pay restitution of $60,544 to
other ﬁles in which the surgeon charged for medically            the Postal Service.
unnecessary procedures or for services not performed.
                                                                 Alaska Postmaster Convicted of
In October 2007, the surgeon pled guilty to fraudulently         Embezzling $130,000. We began
billing the OWCP by “up-coding” and billing the OWCP             investigating an Alaska Postmaster
$128,855 for services he never rendered to postal                after discovering numerous deposits
employees. “Up-coding” is the act of billing for a higher        were missing between November
level of service than actually provided to receive higher        and December 2005. We learned
payment. During plea negotiations, the surgeon agreed to         the Postmaster later submitted
surrender his medical license, and he and his company            some deposits, but an audit of the
agreed to pay $1 million in criminal ﬁnes, $400,000 in           post ofﬁce disclosed a shortage
restitution, and $100,000 in investigative costs.                of $129,692. Our investigation
                                                                 revealed the Postmaster stole
Embezzlements and Financial Crimes                               cash from postal funds over an          Employee embezzlements may involve postal employees
                                                                 8- to 10-month period because           stealing money from cash drawers, using sophisticated schemes
Employee embezzlements may involve postal employees                                                      to manipulate postal money orders or money order funds, or
stealing money from cash drawers, using sophisticated            of her gambling addiction. She
                                                                 resigned from the Postal Service in     falsifying ﬁnancial retail records.
schemes to manipulate postal money orders or money
order funds, or falsifying ﬁnancial retail records. When         December 2005.
post ofﬁces experience unusual or signiﬁcant shortages,
                                                                 In October 2007, the Postmaster was sentenced to 12
our investigators employ various investigative techniques
                                                                 months at a halfway house and 5 years of probation. The
to uncover embezzlements. Improper or lax procedures
                                                                 federal district court also ordered the former Postmaster to
are reported to management for corrective action. When
                                                                 pay restitution of $129,692 to the Postal Service.
employees are found to be responsible for missing postal
funds, they are reported to management for appropriate
administrative action. In cases that warrant criminal




                                                                                                                                                                         29
INVESTIGATIVE ACTIVITIES

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



                                                                  Former Texas SSA Convicted              The SSA, who pled guilty in June 2007, was sentenced
                                                                  for Embezzling $108,000.                to 14 months in prison in November. Additionally, the
                                                                  We reviewed postal accounting           federal district court ordered the SSA to pay restitution of
                                                                  records at a Texas post ofﬁce           $128,691 to the Postal Service.
                                                                  and discovered irregularities in
                                                                  the handling of refunds and bank        Contract Fraud
                                                                  deposit remittance procedures.
                                                                                                          The Postal Service is presently managing more than
                                                                  We investigated a former SSA
                                                                                                          $40.4 billion in contracts, ranging from multi-million dollar
                                                                  responsible for the funds (selling
                                                                                                          national contracts for services such as transportation
                                                                  stamps and money orders,
                                                                                                          networks and IT infrastructures, to local contracts for
                                                                  issuing refunds, assisting major
                                                                                                          supplies and services at individual postal facilities. The
                                                                  mailers, and performing audits).
                                                                                                          sheer volume of contracts and the huge dollar value provide
                                                                  Our investigation revealed the
                                                                                                          opportunities for contractors and employees to defraud the
                                                                  SSA took postal funds to pay
                                                                                                          Postal Service. The Ofﬁce of Investigations aids the Postal
                                                                  gambling debts and reused
                                                                                                          Service by aggressively investigating allegations of fraud,
                                                                  postal forms from legitimate
                                                                                                          waste, and misconduct. When contract improprieties are
                                                                  refunds to obtain cash. He said
                                                                                                          documented, we present the evidence for criminal/civil
                                                                  he was “ﬂoating” the money, and,
                                                                                                          prosecution or administrative remedies.
                                                                  on some occasions, he would
                                                                  replace money he took from the          Contract fraud is deﬁned as any intentional, unlawful
                                                                  Postal Service.                         deception designed to deprive the U.S. Government,
                                                                                                          unlawfully, of something of value or to secure from the
                                                                  In December, a federal district
                                                                                                          United States for an individual a beneﬁt, privilege, allowance,
                                                                  court sentenced the SSA to 15
                                                                                                          or consideration to which he/she is not entitled. Following
                                                                  months in prison followed by 3
                                                                                                          are examples of contract fraud that we look to uncover:
                                                                  years of supervised release for
                                                                  misappropriating postal funds.          ■   Billing for services not rendered and/or fraudulently
                                                                  The court also ordered the SSA to           charging for “extra costs.”
                                                                  pay restitution of $108,262.
                                                                                                          ■   Making false statements and/or false claims.
                                                                    Texas SSA Convicted of
                                                                                                          ■   Misrepresenting material facts.
                                                                    Misappropriating $129,000
                                                                    in Postal Funds. A 2004               ■   Offering bribes/gratuities.
                                                                    proactive review of postal units
                                                                                                          ■   Falsifying records.
                                                                    and their postage validation
                                                                    imprinter (PVI) usage found a         ■   Arranging for secret proﬁts, kickbacks, or commissions.
                                                                    post ofﬁce in Texas routinely
                                                                    reporting PVI usage inconsistent      ■   Engaging conﬂict of interest.
                                                                    with the actual meter usage. We       The National Procurement Fraud Task Force, (NPFTF)
                                                                    launched a joint investigation with   formed by the Criminal Division of the U.S. Department
                                                                    the Inspection Service into the       of Justice, promotes the “early detection, prevention,
                                                                    shortages and covertly observed       and prosecution of procurement fraud associated with
                                                                    an SSA improperly processing          increased contracting activity for national security and other
                                                                    transactions into the Point of        government programs.”
                                                                    Sale terminal. Several times,
                                                                    he removed cash from his cash         In conjunction with the national task force initiative,
OIG contract fraud brochure to help Postal Service contracting
                                                                    drawer and co-mingled that cash       various OIG ﬁeld ofﬁces joined regional working groups
ofﬁcers and procurement specialists identify contract fraud.
                                                                    with his own funds by placing the     formed by U.S. Attorney’s Ofﬁces to coordinate and
                                                                    postal funds in his pants pocket.     organize procurement fraud investigations and implement
                                           Our review of records disclosed PVI losses of $128,691         the strategies and mission of the national task force.
                                           from June 1999 through June 2004.                              These regional working groups will also facilitate the
                                                                                                          exchange of information among agencies at the regional
                                                                                                          level. In January, we attended the Forensic Auditing




30
                                                                                                                                     INVESTIGATIVE ACTIVITIES

                                                                                                                Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                       October 1, 2007 — March 31, 2008



Forum sponsored by the NPFTF. The forum examined                In November, MAL signed a $1.2 million settlement
how to integrate audit, investigative, and legal skills to      agreement with the Department of Justice to resolve
identify procurement fraud in forms. The forum promoted         a contract appeal claim. The Postal Service received
the application of forensic auditing as a tool to ﬁght          $825,000 in value from the settlement.
procurement fraud.
                                                                $1.5 M Settlement Agreement, in Lieu of Debarment,
During the reporting period, we conducted 69 contract           with Bell & Howell. The Postal Service contracted with
fraud investigations, resulting in ﬁve arrests and more         Bell & Howell (B&H) to supply 200 Mailing Evaluation
than $2.9 million in funds returned to the Postal Service.      Readability Lookup Instrument (MERLIN) machines, which
Following are examples of contract fraud investigations we      verify address hygiene, barcode readability, and the mail
conducted during this reporting period follow.                  presort sequences of bulk mailings claiming discount
                                                                postage rates.

 Contract Fraud Phases                                          In March 2002, we initiated the investigation after
 Contract fraud can occur at various stages during the life     receiving a referral from a Postal Service contractor who
 of the contract:                                               oversaw e-mails containing previously undisclosed cost or
                                                                pricing data.
 ■   Pre-Solicitation Phase (attempted/actual bribes
     and kickbacks).                                            Our investigation disclosed that during the contract
                                                                negotiations in September 2000, B&H withheld cost or
 ■   Solicitation Phase (falsiﬁcation of certiﬁcations          pricing data that was lower than the proposed costs of
     such as Woman/Minority-Owned Business, bid                 $41,000 per supplier machine. In the weeks preceding the
     submissions by non-existing companies, kickbacks,          negotiations, there was an internal supplier communication
     bribery, conﬂicts of interest, and/or bid rigging).        that its cost per unit was declining and was more than
 ■   Proposal Phase (bid-rigging among contractors,             $5,000 lower than the submitted bid. In November 2005,
     including bid rotation, sporadic bidding, token bids,      a $3.3 million demand letter was issued to B&H by the
     market allocation, and/or change-order schemes).           Department of Justice, based on a Defense Contract Audit
                                                                Agency defective pricing damage report.
 ■   Negotiation and Award Phase (bid-rigging
     among contractors, including bid rotation, sporadic        In January 2007, B&H agreed to settle the claim for
     bidding, token bids, market allocation, and/or             $1.5 million. In February 2008, the Postal Service and B&H
     change-order schemes).                                     entered into an agreement in which the Postal Service
                                                                agreed not to debar the contractor. B&H paid the settlement
 ■   Contract Performance Phase (cost mischarging
                                                                amount in full.
     including material and labor mischarging, defective
     pricing false invoices, over billing, duplicate billing,   Pennsylvania Lead Automotive Technician Indicted.
     fraudulently charging “extra costs” for work not           We investigated a Postal Service Lead Automotive
     performed, and/or product/service substitution).           Technician after receiving information that he accepted
                                                                an all-expense paid trip to Las Vegas, Nevada, for himself,
                                                                his wife, and two friends. He also received other illegal
$1.2 Million Settlement Agreement Reached with
                                                                gratuities from the owner of a Pennsylvania automobile
Vehicle Leasing Vendor. Beginning September 2003,
                                                                service center. Postal Service repair orders provided 80 to
based on an anonymous lead, we investigated allegations
                                                                90 percent of the owner’s revenues ($1.5 million).
that Mike Albert Leasing (MAL) was submitting false repair
estimates for end-of-lease damage claims on Postal Service      When interviewed, the Technician said he knew accepting
vehicles. The investigation subsequently determined that        the trip was wrong, based on his relationship with the
from January 1996 to November 2004, MAL was paid                shop owner. The Technician also said he accepted four
in excess of $3.1 million on approximately 3,200 vehicle        tires for a personal vehicle and another trip from the
damage claims. Many claims were supported by repair             vendor to a local area casino before the Vegas trip. He
estimates inﬂated by approximately 25 percent over the          also attended a Christmas party hosted by the shop owner.
actual repair expense. Our investigation further found MAL      The investigation disclosed the Technician had attended
repaired a signiﬁcant percentage of vehicles before the         “ethics” training.
damage claims were actually submitted to the Postal Service
for payment and knew the actual cost of the repairs before      The Technician was indicted in federal court for accepting
the submission of the claims.                                   illegal gratuities from a shop owner in November.
                                                                In January, the employee was placed on Indeﬁnite




                                                                                                                                                                     31
INVESTIGATIVE ACTIVITIES

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



                                                                         Suspension as a result of our      images, including numerous images that appeared to
                                                                         investigation. The shop owner      be child pornography. Our special agents and the FBI
                                                                         was also indicted.                 executed a search warrant at the Postmaster’s residence.
                                                                                                            During the search, investigators obtained evidence that
                                                                         Computer Crimes                    the Postmaster misappropriated more than $7,700 of
                                                                                                            postal money order funds. Further investigation disclosed
                                                                         As the Postal Service
                                                                                                            additional $5,800 embezzlement.
                                                                         information infrastructure
                                                                         expands and the number
                                                                         of products and services           Executive Investigations and Internal Affairs
                                                                         available over the Internet        We maintain both Special Inquiries (SI) and Internal
                                                                         increases, the agency faces        Affairs (IA) units as part of the Ofﬁce of Investigations.
                                                                         increased exposure to online       SI/IA conducts criminal and administrative investigations
                                                                         risks. Unauthorized access         of Postal Service executives, Inspection Service and OIG
                                                                         into Postal Service networks       personnel, and whistleblower reprisal investigations. Among
                                                                         and improper usage of              the investigative activity for the reporting period was the
                                                                         computers by employees are         following case.
                                                                         just two types of computer
                                                                         crimes to which the Postal         Postal Executive Investigated for Submitting False
                                                                         Service may fall victim.           Mail Condition Reports. We received an anonymous
                                                                         Training for and investigating     allegation that inaccurate Daily Mail Condition Report
                                                                         these computer crimes is           (DMCR) data was being submitted by an Executive at
                                                                         a top priority to ensure the       a Texas P&DC. We discovered the Executive routinely
                                                                         Postal Service’s networks and      reviewed DMCR data before it was reported and reduced
                                                                         databases remain secure.           the volume count numbers signiﬁcantly. Witnesses stated
                                                                                                            the Executive directed them to change the mail volume
                                                                         Our Computer Crimes Unit           count by up to one-half on certain occasions. The ﬁndings
                                                                         (CCU) initiates investigations     were presented to area-level management. Management
                                                                         and provides digital forensics     demoted the executive in grade, salary, and position, to a
                                                                         support to our investigations.     non-executive position.
                                                                         During the reporting period,
                                                                         the unit proactively generated     Whistleblower Activity
                                                                         23 investigations, 10 of which
                                                                                                            In the Postal Service, a whistleblower is an employee, or
                                                                         pertained to felony allegations.
                                                                                                            an applicant for employment, who reports misconduct to
                                                                         The Unit has responded to
                                                                                                            individuals or entities that have power to take corrective
                                                                         more than 563 requests for
                                                                                                            action. Generally, the misconduct is a violation of law, rule,
Our Computer Crimes Unit initiates investigations and provides digital   investigative support to our
                                                                                                            or regulation, and/or a direct threat to public interest —
forensics support to our investigations.                                 investigations. Following are
                                                                                                            fraud, health, safety violations, and corruption are just a few
                                                                         examples of computer crimes
                                                                                                            examples. To be eligible for whistleblower protection, the
                                                                         investigations.
                                                                                                            employee must reasonably believe his or her employer has
                                           CCU’s Web Intervention Nabs Postmaster Viewing                   committed a violation of some law, rule, or regulation.
                                           Child Porn on Postal Service Computer. A former West
                                           Virginia Postmaster was sentenced to 70 months in federal         OIG whistleblower activity during
                                           prison followed by 10 years of supervised release for             this period:
                                           possessing child pornography. He was ordered to pay more
                                                                                                             Allegations received:                                   51
                                           than $13,500 in restitution to the Postal Service for money
                                           orders he converted to his own use.                               OIG investigations initiated:                           30
                                           In October 2005, the Postmaster contacted Postal Service          Investigations closed with no ﬁnding                    16
                                           Information Technology Technicians after his postal               of retaliation or deferred to other
                                           computer ‘crashed’. While servicing the computer, the             adjudicative body:
                                           technicians discovered unauthorized software.
                                                                                                             Open investigations:                                    11
                                           We conducted forensic analyses (web log analysis) on
                                           the Postmaster’s computer and discovered pornographic             OIG found reprisal:                                       0




32
                                                                                                                                        INVESTIGATIVE ACTIVITIES

                                                                                                                   Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                          October 1, 2007 — March 31, 2008



Employee Misconduct and General Crimes                           guilty to stealing 104 bulk containers, valued between
                                                                 $120,000 and $200,000. Sentencing for the trio is
Misconduct on the part of Postal Service employees
                                                                 scheduled for May.
includes the following offenses committed in the course of
their ofﬁcial duties: misuse of Postal Service computers,        District of Columbia Employee Guilty to Fraudulently
destruction, or theft of Postal Service property, falsiﬁcation   Claiming Jury Service. A former Mail Processing Clerk,
of ofﬁcial documents/forgery, theft of funds, abuse of           who fraudulently claimed he served jury duty beyond his
authority, sabotage of operations, narcotics usage, or sale      actual service, may serve up to 20 months in prison for
of drugs while on duty, and alcohol abuse. Following are a       defrauding the Postal Service of approximately $34,000.
few examples of work performed under this program area.          Our investigation determined the former Mail Processing
                                                                 Clerk falsiﬁed court documents by adding months and days
Virginia Supervisor Pled Guilty to Falsifying Postal
                                                                 to his jury duty status so he could be paid for jury service
Records. We investigated a Supervisor, working at a
                                                                 he had not performed. The Mail Processing Clerk had
Virginia post ofﬁce, who fraudulently logged hours in the
                                                                 worked for the Postal Service for 34 years and served jury
postal time and attendance system to inﬂate his pay. Our
                                                                 duty in 2003, 2004, and 2006.
investigation revealed that from May 2007 to July 2007,
the Supervisor arrived to work late and left work early          In February, in the same courtroom where the Mail
almost every day. During that period, the Postal Service         Processing Clerk fraudulently claimed to have performed
paid the Supervisor approximately $5,945 for hours               jury service beyond his actual service, the former Clerk pled
fraudulently entered into the postal time and attendance         guilty to Mail Fraud. As a part of his guilty plea, he agreed
system. Our investigation also revealed another employee         to pay restitution of $38,923 to the Postal Service.
fraudulently entered the Supervisor’s extra time and work
hours on Mondays, which was one of the Supervisor’s
scheduled days off. Additionally, we determined the
                                                                 Narcotics
Supervisor conducted personal real estate business during        Illegal drugs in the workplace can negatively impact
his work hours at the post ofﬁce.                                employee productivity and safety. They also affect
                                                                 employee judgment and can increase stress levels, leading
The Supervisor resigned from the Postal Service in August        to acts of violence or hostility. Use and sale of narcotics
2007. He pled guilty in federal district court in December.      on duty by employees can contribute to other crimes
In March, he was sentenced to 5 months in prison followed        such as theft, embezzlements, and fraudulent workers’
by 1 year of supervised release. He was also ordered to pay      compensation claims.
more than $20,300 in restitution to the Postal Service.
                                                                 Our mission in dealing with illegal drugs in the workplace
Pennsylvania Postal Tractor Trailer Operator                     focuses on detection, investigation, and prevention.
Convicted of Selling Bulk Mail Containers. The                   Detection of illegal drug sales, distribution, and usage in
Inspection Service told us about a Postal Tractor Trailer        the workplace is the ﬁrst step in this overall approach.
Operator (TTO) who was possibly selling aluminum Bulk            Employees selling or distributing illegal drugs are vigorously
Mail Containers-Over the Road (BMC-OTRs) as scrap metal.         investigated and prosecution is pursued. Postal employees
We conducted surveillance from July through October              who are using drugs are normally referred to the Postal
2007, and on several occasions observed the TTO loading          Service Employee Assistance Program for treatment.
containers into a rental truck. He and two non-postal
accomplices drove the containers to area scrap yards             Prevention remains a key long-term strategy for providing a
where they unloaded them.                                        safe and drug-free work environment for postal employees.
                                                                 Deterring employee drug use is the desired outcome
In October, we arrested the TTO and his two non-postal           for the prevention effort. Following are typical narcotics
accomplices. The TTO admitted one of the accomplices             investigation involving a postal employee.
paid him cash ($50 to $300 per truckload) for the
containers, which he had been stealing since December            Letter Carriers Lose Job for Smoking Marijuana
2006. We recovered 64 containers. The replacement cost           While On Duty in Uniform. In January, the New Jersey
of one container is $2,600.                                      Police Department notiﬁed us about a Letter Carrier who
                                                                 was selling narcotics from his residence. Our investigation
The TTO pled guilty in federal district court in February        determined the Letter Carrier distributed narcotics from his
to charges of theft/embezzlement of public property and          residence while on duty and wearing his postal uniform. We
conspiracy to defraud the United States. As part of his          conducted a search with the New Jersey Police Department
plea agreement, he resigned from the Postal Service.             at the residence of the Letter Carrier and discovered
His accomplices pled guilty to similar charges. Each pled        approximately 42 “baggies” of marijuana packaged for




                                                                                                                                                                        33
INVESTIGATIVE ACTIVITIES

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



                                           distribution, estimated street value of $20 per bag. Our      Carrier Observation Program
                                           search also revealed another Letter Carrier smoking
                                                                                                         Improper conduct by postal employees who are on duty
                                           marijuana while on duty and wearing his postal uniform.
                                                                                                         and in uniform casts the Postal Service in a negative light.
                                           Management immediately placed both Letter Carriers in off-
                                                                                                         This improper conduct includes, but is not limited to, Letter
                                           duty status without pay. These cases have been accepted
                                                                                                         Carriers purchasing or consuming alcohol in public places,
                                           for criminal prosecution.
                                                                                                         selling illegal narcotics from their postal vehicle, driving
                                           Arkansas Rural Letter Carrier Guilty of Distributing          with suspended state driver’s licenses, and deviating
                                           Drugs on Route. An Arkansas Sheriff’s Department told         from their routes and conducting non-postal business, all
                                           us a Rural Letter Carrier was expected to deliver illegal     while on duty and in uniform. Letter Carriers who drive
                                           drugs to a postal customer. On the targeted day, we           postal trucks while intoxicated or under the inﬂuence of a
                                           interviewed a postal customer who conﬁrmed the Rural          narcotic also present a threat to others, themselves, and
                                           Letter Carrier had previously supplied Valium pills and       Postal Service property while placing the security of the
                                           solicited selling additional Valium pills. We stopped the     mail at risk.
                                           Rural Letter Carrier and performed a consent search of her
                                                                                                         Investigations we completed during this reporting period
                                           vehicle and seized an unlabeled bottle containing Valium
                                                                                                         resulted in 108 administrative personnel actions including
                                           pills. The Rural Letter Carrier admitted she had previously
                                                                                                         removals, suspensions, and letters of warning.
                                           provided Xanax pills to the customer and had solicited the
                                           sale of Valium pills to the customer.

                                           Management removed the Rural Letter Carrier from duty in
                                           November. Later that month, she pled guilty to Possession
                                           of an Instrument of a Crime in state court. The court
                                           sentenced her to a 12-month suspended jail term.




Stakeholder outreach includes exhibiting at shows such as the Mailer’s Education Day trade show in
Williamsburg, Virginia, sponsored by the Hampton Roads and Central Virginia Postal Customer Councils.




34
                                                                                                                                                   FEATURE STORIES

                                                                                                                   Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                          October 1, 2007 — March 31, 2008




FEATURE STORIES
Following are two feature stories on our audit and investigative work covering the Postal Fleet Card
Program and the SmartPay® Purchase Card Program.


VOYAGER CARD PROGRAM                                             the store where the purchases were made fraudulently
                                                                 submitted beer and cigarette purchases as fuel purchases.
The Postal Service teams up with U.S. Bank and Voyager           In addition, the driver provided her personal identiﬁcation
Fleet Management to provide a single credit card, known as       number to her boyfriend, who also made unauthorized
Postal Fleet Card, to purchase fuel and routine maintenance      purchases using the Voyager card. In March, the former
for all Postal Service-owned vehicles                            contractor/driver was sentenced to 3 years of probation,
                                                                 and her boyfriend was sentenced to 4 years of probation.
During FY 2007, there were about 9.3 million eFleet              They were also ordered to pay restitution of more than
transactions totaling approximately $389.3 million. We           $83,600. Management cancelled the contract during the
performed detailed audits at 10 judgmentally selected            course of the investigation.
Postal sites and determined that ofﬁcials at nine of the sites
did not implement effective controls over the security and       HCR Driver Convicted of Voyager Card Fraud; Ordered
use of the Postal Fleet cards. Control weaknesses existed in     to Pay $13,000 in Restitution. Postal management
the following areas at the nine sites:                           advised us that groceries were charged to a Voyager fuel
■   Training.                                                    card assigned to an Oklahoma Highway Contract Route
                                                                 (HCR). Our investigation disclosed the HCR contractor/driver
■   Reconciliations.                                             had three routes. For two of the routes, the contractor/
                                                                 driver was authorized to purchase fuel on the postal-issued
■   Voyager card security.
                                                                 Voyager cards. One route required the contractor/driver to
■   Personal identiﬁcation number security.                      submit out-of-pocket fuel purchases for reimbursement.
                                                                 The contractor/driver used the Voyager card from
■   Missing receipts.                                            March 2006 through December 2006 to purchase
■   Segregation of duties.                                       approximately 8,000 gallons of fuel to operate the route
                                                                 that was not issued a Voyager card.
■   Vehicle numbers.
■   File administration and record retention.                    In addition, we learned she transferred two routes to
                                                                 her former husband as part of a divorce settlement, in
Nationally, for FY 2007, the Web Enterprise Information          violation of the terms of her contract. Further, she had been
System identiﬁed 220,344 transactions totaling $13.7             operating the remaining route for more than a year without
million as non-reconciled transactions. If transactions have     active insurance coverage. The contractor/driver had
not been properly reconciled, there is greater potential         altered original insurance documents, prior to faxing them
for fraud, waste, and misconduct. Therefore, we identiﬁed        to the area transportation ofﬁce, to indicate that her policy
the $13.7 million in non-reconciled transactions as              was still in effect.
disbursements at risk. We are concerned, however, that this
amount is understated, as our audit noted that some post         In December, the former highway contractor/driver was
ofﬁces were marking transactions as reconciled when they         sentenced to 5 years of federal probation and was ordered
were not. We made local recommendations to address the           to pay more than $13,000 in restitution to the Postal
speciﬁc issues found, and national recommendations to            Service for the unauthorized Voyager card purchases.
make sure district personnel ensure compliance with eFleet       The three contracts were cancelled during the course of
policies and procedures.                                         the investigation.

Alabama Postal Contractor and Boyfriend Indicted                 SMARTPAY® PURCHASE
for Voyager Card Misuse. In November, a former                   CARD PROGRAM
Alabama postal contractor and her boyfriend were indicted
in federal district court for theft of more than $90,000         In November 1991, the Postal Service joined the
in government monies. Our investigation into excessive           government-wide Commercial Credit Card Program under
fuel purchases made between April 2005 and April 2007            the General Services Administration. The contractor for
revealed the highway contractor/driver used a postal-issued      this program is the U.S. Bank and the card company is
Voyager card to purchase beer and cigarettes, which were         VISA®. The program within the Postal Service is called the
subsequently traded for illegal drugs. The merchant in           SmartPay® Purchase Card Program, and the purchase




                                                                                                                                                                        35
FEATURED STORIES

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



                                           card was formerly known as the International Merchant              documenting purchases; review and reconcile, or review
                                           Purchase Authorization Card (IMPAC). The Postal Service            and reconcile timely, purchase card statements; or follow
                                           pays no administrative fees for the services U.S. Bank             purchase approval procedures.
                                           provides and earns refunds based on the aggregate
                                           volume of Postal Service transactions. When operational            We made recommendations to address the issues;
                                           needs cannot be satisﬁed through other priority sources,           identiﬁed $1.2 million in monetary and $2.6 million in
                                           the purchase card is the primary means to delegate local           non-monetary impact; and made ﬁve referrals to our
                                           buying authority (the authority to buy and pay for day-to-         Ofﬁce of Investigations for situations that warranted
                                           day operational needs). A single purchase card transaction         further examination.
                                           may not be greater than $10,000. Five types of purchase
                                           cards are currently issued to Postal Service personnel:            North Carolina Postal Managers Convicted of
                                                                                                              Purchase Card Fraud. In 2006, we investigated a North
                                           ■    Cards to purchase expense items.                              Carolina Manager after receiving a referral regarding
                                                                                                              irregularities on his travel voucher. The Manager had
                                           ■    Cards to purchase capital property.
                                                                                                              made unauthorized charges for hotels and other unusual
                                           ■    Cards issued only to vehicle maintenance facilities for       purchases using an International Merchant Purchase
                                                the purchase of vehicle parts.                                Authorization Card (IMPAC). During an interview, the
                                                                                                              Manager told us that he also used postal funds to replace
                                           ■    Cards issued only to select employees for the purchase        a roof and purchase a lawn irrigation system for his home.
                                                of inventory parts.                                           He perpetuated this scheme with the help of another
                                           ■    Cards issued only to select Engineering employees for         postal Manager, who authorized the eBuy request. Our
                                                the purchase of research and development equipment            investigation into the co-conspirator’s IMPAC purchases
                                                and supplies.                                                 turned up similar irregularities, including purchases for
                                                                                                              ﬁshing reels, ﬂat screen televisions, sound systems,
                                           As purchase card programs are highly vulnerable to fraud           luggage, tools, and a tool chest. Investigation determined
                                           and misuse, we have numerous coordinated activities                the second Manager fraudulently purchased 20 computers,
                                           underway, such as data mining and continuous auditing, to          which he sold for personal gain.
                                           monitor Postal Service purchase card usage and to assess
                                           internal controls. During the reporting period, we used            In January, a North Carolina federal district court sentenced
                                           data from various information systems to judgmentally,             the ﬁrst Manager to 6 months of home detention, 3 years of
                                           and statistically, select transactions for testing. We initially   supervised released upon completion of his term, and 300
                                           reviewed 355 purchase card transactions made from                  hours of community service for making fraudulent credit
                                           December 2006 through February 2007, involving 138                 card purchases. He paid $26,778 in restitution to the Postal
                                           cardholders and totaling more than $750,000.                       Service. In December 2007, the second Manager pled
                                                                                                              guilty to misappropriating postal funds and agreed to repay
                                           We summarized the results of this initial effort in a report       more than $135,000 to the Postal Service. Both Managers
                                           that disclosed weaknesses in internal controls such as             resigned from the Postal Service in November 2006.
                                           purchase card transactions for meals and refreshments that
                                           did not comply with Postal Service policy. In addition, we
                                           identiﬁed systemic issues related to approvals, inadequate
                                           justiﬁcation of purchases, supporting documentation and
                                           certiﬁcation of credit card statements. Overall, we identiﬁed
                                           $244,626 in monetary impact and more than $177,000
                                           in non-monetary disbursement at risk in this initial
                                           effort. Postal management did not agree with our impact
                                           projections, but concurred with $46,917 in monetary and
                                           $115,885 in non-monetary impacts.

                                           As part of our work in support of the audit of the Postal
                                           Service’s ﬁnancial statements, we audited 17 judgmentally
                                           selected district SmartPay Purchase Card programs in FY
                                           2007. We identiﬁed various internal control and compliance
                                           issues in all 17 sites. For example, cardholders and/or
                                           approving ofﬁcials did not always follow procedures for




36
                                                                                                                                 MAP OF OFFICE LOCATIONS

                                                                                                            Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                   October 1, 2007 — March 31, 2008




OFFICE OF INSPECTOR GENERAL AREA FIELD OFFICE LOCATIONS
The OIG currently has more than 1,100 employees located in more than 100 ofﬁces nationwide in each of the Postal Service’s nine areas.




                                               WESTERN
                                                                              GREAT LAKES
                                                                                                                      NORTHEAST


                                                                                                             EASTERN




                                                                                                                                          NEW YORK
                                                                                                                                          METRO


                                                                                                                                  CAPITAL METRO




                                                                                                                               SOUTHEAST


 PACIFIC




                National Headquarters                                       SOUTHWEST
                Area Ofﬁces
                Financial Audit Field Ofﬁces




                                                                                                                                                                 37
APPENDIX A

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008




APPENDICES
The Inspector General Act of 1978 requires semiannual reports on the immediately preceding 6-month periods ending March 31 and
September 30. These reports are sent to Congress and made available to the public.

This report summarizes OIG activities and illustrates signiﬁcant problems, abuses, and deﬁciencies, along with recommendations and
corrective actions related to the administration of U.S. Postal Service programs and operations during the reporting period.

The appendices on the following pages fulﬁll the requirements of the Act.

APPENDIX A
Reports Issued to Postal Service Management
For the period October 1, 2007 — March 31, 2008

OIG audit teams conduct performance and ﬁnancial audits, evaluations, and other reviews to address the business of the Postal Service. Each team issues audit
reports (AR) or management advisory reports (MA) in accordance with the identiﬁed needs of the project.


  Deﬁnitions:
  Questioned Costs. A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, and so forth.

  Unsupported Costs. A cost that is not supported by adequate documentation. Unsupported costs are included with the amounts shown as
  Questioned Costs.

  Funds Put to Better Use. Funds that could be used more efﬁciently by implementing recommended actions.

  Revenue Impact. Amounts from revenue generating functions such as retail sales, rent, leases, or fees that were underpaid or not realized. In addition, this
  category includes increased revenue from existing functions and generating revenue from new sources.


                                                                 Funds Put to                      Total              Unsupported
 Management Goals                   Number of Reports              Better Use          Questioned Costs           Questioned Costs               Revenue Impact
 Generate Revenue                                          5                —                          —                          —                  $88,649,009
 Increase Efﬁciency                                        34     $308,907,598               $188,022,675                $59,106,533                         —
 Improve Service                                            6     $231,337,397                         —                          —                          —
 Customer-Focused Culture                                   7               —                          —                          —                          —
 Enhance Sustainability                                     1               —                          —                          —                          —
 Regulatory Studies and
                                                            3          $12,355                         —                          —                     $13,505
 Reporting Obligations
 Preserving Integrity                                  177          $7,379,777                 $2,186,374                   $839,190                  $4,161,359
 TOTAL                                                 233       $547,637,127              $190,209,049                 $59,945,723                 $92,823,873




38
                                                                                                                                                             APPENDIX A

                                                                                                                     Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                            October 1, 2007 — March 31, 2008



Reports With Quantiﬁable Potential Monetary Beneﬁts
                                                                                             Funds Put to               Total         Unsupported               Revenue
 Report Title                                                                                  Better Use   Questioned Costs      Questioned Costs               Impact
 GENERATE REVENUE
 Financial Reporting
 New York International Service Center – Inbound International Mail;
                                                                                                      —                    —                         —       $13,700,604
 FT-AR-08-005; 1/24/2008
 Sales & Service
 Click-N-Ship Program; MS-AR-08-004; 3/31/2008                                                        —                    —                         —       $74,079,700
 Local Stamps on Consignment Programs; MS-AR-08-003; 3/19/2008                                        —                    —                         —           $868,705
 INCREASE EFFICIENCY
 Delivery
 City Delivery Vehicle Mileage – Base Versus Actual – Capital Metro Area
                                                                                                      —            $2,117,349              $2,117,349                   —
 DR-AR-08-003; 10/26/2007
 Engineering
 Equipment Maintenance Opportunities; DA-AR-08-002; 2/15/2008                                $130,063,240         $11,612,797                        —                  —
 Inspection Service & Facilities
 Postal Service Facilities Single Source Provider System; SA-AR-08-004; 3/3/2008                      —                $9,379                        —                  —
 Sales & Service
 First-Class Permit Reply Mail; MS-AR-08-001; 11/8/2007                                       $61,542,721         $41,860,508                        —                  —
 Supply Management
 Firm Fixed Price Proposal Submitted by Siemens Energy and Automation, Incorporated,
                                                                                                      —           $11,002,117                        —                  —
 Postal Automation Division; CA-CAR-08-011; 1/04/2008
 Firm Fixed Price Proposal, Revision A, Submitted by Siemens Energy and Automation,
                                                                                                      —           $69,876,229             $56,989,184                   —
 Incorporated, Postal Automation Division; CA-CAR-08-019; 3/27/2008
 Supplemental Report on Audit of Proposal Submitted by Northrop Grumman Corporation,
                                                                                                      —           $14,417,441                        —                  —
 Electronic Systems Company; CA-CAR-08-001; 10/15/2007
 Termination for Convenience Settlement Proposal Submitted by Minnesota Diversiﬁed
                                                                                                      —            $1,038,210                        —                  —
 Industries; CA-CAR-08-004; 10/30/2007
 Transportation
 Air Networks – Federal Express Transportation Agreement – Paciﬁc Area;
                                                                                              $45,031,871         $17,756,411                        —                  —
 NL-AR-08-002; 2/19/2008
 Air Networks – Issues in the Paciﬁc Area Associated with a Major Postal Service Customer;
                                                                                              $62,148,585         $18,332,234                        —                  —
 NL-AR-08-001; 11/23/2007
 Postal Vehicle Service Transportation Routes – San Francisco Processing and Distribution
                                                                                              $10,121,181                  —                         —                  —
 Center; NL-AR-08-003; 3/26/2008
 Network Processing
 Summary Audit on the Timeliness of Mail Processing, Transportation, and Delivery
                                                                                             $231,337,397                  —                         —                  —
 Operations in the Chicago District; NO-AR-08-003; 3/28/2008
 REGULATORY STUDIES AND REPORTING OBLIGATIONS
 Cost, Revenue, & Rates
 In-Ofﬁce Cost System Telephone Readings; CRR-AR-08-004; 3/31/2008                                $12,355                  —                         —                  —
 Fiscal Year 2007 Financial Installation Audit
 Postal Accountability and Enhancement Act, Section 709, Assessment of Certain Rate
                                                                                                      —                    —                         —            $13,505
 Deﬁciencies; FF-AR-08-030; 11/29/2007




                                                                                                                                                                          39
APPENDIX A

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



                                                                                          Funds Put to               Total       Unsupported     Revenue
 Report Title                                                                               Better Use   Questioned Costs    Questioned Costs     Impact
 PRESERVING INTEGRITY
 Fiscal Year 2007 Financial Installation Audit
 Alamo Main Post Ofﬁce – Alamo, Texas; FF-AR-08-031; 11/27/2007                                    —                $1,064             $1,064          —
 Brewer Post Ofﬁce – Brewer, Maine; FF-AR-08-004; 10/4/2007                                        —                $4,298                —            —
 Cardiss Collins Postal Store – Chicago, Illinois; FF-AR-08-024; 11/7/2007                         —               $24,055            $24,055     $67,355
 Cleveland Main Ofﬁce Window Service – Cleveland, Ohio; FF-AR-08-028; 11/15/2007              $443,439            $410,450                —            —
 Mooresville Business Mail Entry Unit – Mooresville, North Carolina;
                                                                                                   —                   —                  —        $2,670
 FF-AR-08-018; 11/1/2007
 Newark Main Post Ofﬁce – Newark, California; FF-AR-08-014; 10/22/2007                             —                 $114                 —        $5,943
 Ogdensburg Business Mail Entry Unit – Ogdensburg, New York;
                                                                                                   —                   —                  —        $2,342
 FF-AR-08-013; 10/15/2007
 Paoli Business Mail Entry Unit – Paoli, Pennsylvania; FF-AR-08-006; 10/4/2007                     —                   —                  —        $4,312
 Parker Main Post Ofﬁce – Parker, Colorado; FF-AR-08-035; 11/29/2007                               —                $7,467                —        $1,440
 Pricing and Classiﬁcation Service Center – New York, New York;
                                                                                                   —                   —                  —       $62,251
 FF-AR-08-001; 10/23/2007
 SmartPay Purchase Card Program – Atlanta District, Atlanta, Georgia;
                                                                                                   —                $2,792             $1,740          —
 FF-AR-08-012; 10/18/2007
 SmartPay Purchase Card Program – Baltimore District, Baltimore, Maryland;
                                                                                                   —               $70,485            $34,621          —
 FF-AR-08-022; 11/7/2007
 SmartPay Purchase Card Program – Chicago District, Chicago, Illinois;
                                                                                                   —               $73,415            $37,556          —
 FF-AR-08-021; 11/7/2007
 SmartPay Purchase Card Program – Fort Worth District, Fort Worth, Texas;
                                                                                                   —               $31,028            $14,955          —
 FF-AR-08-025; 11/13/2007;
 SmartPay Purchase Card Program– Los Angeles District, Los Angeles, California;
                                                                                                   —              $166,693           $159,871          —
 FF-AR-08-026; 11/14/2007
 SmartPay Purchase Card Program – Massachusetts District, North Reading, Massachusetts;
                                                                                                   —              $107,517            $66,509          —
 FF-AR-08-037; 11/30/2007
 SmartPay Purchase Card Program – New York District, New York City, New York;
                                                                                                   —               $99,157            $18,701          —
 FF-AR-08-048; 12/17/2007
 SmartPay Purchase Card Program – Northern Virginia District, Merriﬁeld, Virginia;
                                                                                                   —                $5,712             $3,882          —
 FF-AR-08-027; 11/15/2007
 SmartPay Purchase Card Program – Pittsburgh District, Pittsburgh, Pennsylvania;
                                                                                                   —               $11,056             $6,726          —
 FF-AR-08-019; 11/1/2007
 SmartPay Purchase Card Program – Richmond District, Richmond, Virginia;
                                                                                                   —               $45,705                —            —
 FF-AR-08-023; 11/7/2007
 SmartPay Purchase Card Program – Santa Ana District, Santa Ana, California;
                                                                                                   —              $103,694            $94,481          —
 FF-AR-08-038; 11/30/2007
 SmartPay Purchase Card Program – Sacramento District, West Sacramento, California;
                                                                                                   —               $16,052            $12,290          —
 FF-AR-08-015; 10/24/2007
 Southwest Area SmartPay Purchase Card Program; FF-AR-08-072; 1/11/2008                            —               $63,511            $56,427          —
 Yauco Post Ofﬁce – Yauco, Puerto Rico; FF-AR-08-017; 10/30/2007                                   —               $38,230                —        $2,592
 Fiscal Year 2007 Financial Statements Audit
 Board of Governors' Travel and Miscellaneous Expenses for Fiscal Year 2007;
                                                                                                   —                $2,527                —            —
 FT-AR-08-008; 2/15/2008
 Eagan Information Technology and Accounting Service Center; FT-AR-08-007; 2/8/2008                —                   —                  —     $2,706,979




40
                                                                                                                                                            APPENDIX A

                                                                                                                    Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                           October 1, 2007 — March 31, 2008



                                                                                            Funds Put to               Total         Unsupported               Revenue
Report Title                                                                                  Better Use   Questioned Costs      Questioned Costs               Impact
St. Louis Information Technology and Accounting Service Center; FT-AR-08-010; 3/31/2008              —                $6,644                        —                  —
San Mateo Information Technology and Accounting Service Center;
                                                                                                 $32,850             $50,024                        —                  —
FT-AR-08-009; 3/20/2008
Fiscal Year 2008 Financial Installation Audit
Aloha Station – Beaverton, Oregon; FF-AR-08-142; 3/27/2008                                           —                $1,082                   $1,082               $254
Arcadia Business Mail Entry Unit – Arcadia, California; FF-AR-08-054; 12/26/2007                     —                    —                         —             $9,958
Baltimore Main Ofﬁce Window – Baltimore, Maryland; FF-AR-08-064; 1/07/2008                           —               $34,222                     $240            $10,563
Birmingham Business Mail Entry Unit – Birmingham, Alabama; FF-AR-08-091; 2/5/2008                    —                    —                         —            $44,838
Burlington Business Mail Entry Unit – Essex Junction, Vermont; FF-AR-08-114; 2/26/2008               —                    —                         —           $180,840
Caldwell Business Mail Entry Unit – West Caldwell, New Jersey; FF-AR-08-083; 1/30/2008               —                    —                         —           $112,709
Champaign Business Mail Entry Unit – Champaign, Illinois; FF-AR-08-087; 1/31/2008                    —                    —                         —             $2,015
Columbia Business Mail Entry Unit – Columbia, Missouri; FF-AR-08-140; 3/26/2008                      —                    —                         —             $5,805
Dallas Business Mail Entry Unit – Dallas, Texas; FF-AR-08-117; 3/3/2008                              —               $32,378                  $32,378            $95,599
Dulles Business Mail Entry Unit – Dulles, Virginia; FF-AR-08-105; 2/14/2008                          —                $7,583                        —           $205,513
East Hanover Business Mail Entry Unit – East Hanover, New Jersey;
                                                                                                     —                    —                         —             $1,690
FF-AR-08-095; 2/6/2008
Escondido Business Mail Entry Unit – Escondido, California; FF-AR-08-123; 3/7/2008                   —                    —                         —            $19,495
Fresno Business Mail Entry Unit – Fresno, California; FF-AR-08-132; 3/19/2008                        —                 $693                      $693             $3,151
Grand Haven Business Mail Entry Unit – Grand Haven, Michigan;
                                                                                                     —                    —                         —             $1,107
FF-AR-08-144; 3/28/2008
Grass Valley Business Mail Entry Unit – Grass Valley, California; FF-AR-08-079; 1/22/2008            —                    —                         —             $3,324
Gurnee Business Mail Entry Unit – Gurnee, Illinois; FF-AR-08-128; 3/17/2008                          —                    —                         —             $8,338
Heath Branch Post Ofﬁce – Newark, Ohio; FF-AR-08-108; 2/25/2008                                      —               $11,666                        —                  —
High Mar Station – Boulder, Colorado; FF-AR-08-102; 2/13/2008                                        —                $1,113                     $701                 $80
James C. Brown Jr. Facility Post Ofﬁce – Las Vegas, Nevada; FF-AR-08-049; 12/18/2007                 —                 $347                         —             $1,836
Janesville Business Mail Entry Unit – Janesville, Wisconsin; FF-AR-08-040; 12/18/2007                —                    —                         —             $1,012
Kennesaw Business Mail Entry Unit – Kennesaw, Georgia; FF-AR-08-0125; 3/11/2008                      —                    —                         —             $9,524
Kilmer Lobby Branch – Edison, New Jersey; FF-AR-08-118; 3/4/2008                                     —                    —                         —             $6,640
Lake Hughes Post Ofﬁce – Lake Hughes, California; FF-AR-08-145; 3/27/2008                            —                $1,227                        —                  —
Long Beach Business Mail Entry Unit – Long Beach, California; FF-AR-08-068; 1/10/2008                —                    —                         —            $33,848
Madison Business Mail Entry Unit – Madison, Connecticut; FF-AR-08-082; 1/28/2008                     —                    —                         —            $20,347
Manassas Main Ofﬁce Window – Manassas, Virginia; FF-AR-08-135; 3/19/2008                             —               $20,166                  $17,524            $19,480
Manchester Main Post Ofﬁce – Manchester, New Hampshire; FF-AR-08-075; 1/15/2008                      —               $17,583                        —            $42,448
Maplewood Business Mail Entry Unit – Maplewood, New Jersey; FF-AR-08-090; 2/4/2008                   —                    —                         —             $2,761
Mary Esther Post Ofﬁce – Mary Esther, Florida; FF-AR-08-098; 2/7/2008                                —                $5,999                   $5,999             $1,600
Marysville Business Mail Entry Unit – Marysville, Ohio; FF-AR-08-032; 11/29/2007                     —                    —                         —            $13,417
Merriﬁeld Post Ofﬁce – Merriﬁeld, Virginia; FF-AR-08-070; 1/10/2008                                  —                $1,898                        —            $23,382
Miami General Mail Facility Post Ofﬁce – Miami, Florida; FF-AR-08-042; 12/7/2007                     —                    —                         —             $1,158
Milpitas Main Post Ofﬁce – Milpitas, California; FF-AR-08-107; 2/20/2008                             —                 $380                      $380             $5,119




                                                                                                                                                                         41
APPENDIX A

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



                                                                                          Funds Put to                Total       Unsupported       Revenue
 Report Title                                                                               Better Use    Questioned Costs    Questioned Costs       Impact
 Naperville Post Ofﬁce – Naperville, Illinois; FF-AR-08-134; 3/19/2008                              —               $15,698             $3,180        $3,099
 Niles Branch – Niles, Illinois; FF-AR-08-112; 2/25/2008                                            —                   —                  —          $1,591
 North Haven Post Ofﬁce – North Haven, Connecticut; FF-AR-08-119; 3/4/2008                          —                   —                  —         $17,193
 O'Fallon Post Ofﬁce – O'Fallon, Missouri; FF-AR-08-133; 3/19/2008                                  —                   —                  —         $34,715
 Reno Main Ofﬁce – Self-Service Postal Center – Reno, Nevada; FF-AR-08-097; 2/6/2008                —                 $952                $952           —
 Roselle Branch Post Ofﬁce – Roselle, New Jersey; FF-AR-08-110; 2/25/2008                           —                   —                  —          $1,517
 San Antonio Business Mail Entry Unit – San Antonio, Texas; FF-AR-08-146; 3/28/2008                 —                   —                  —         $27,345
 Smithtown Business Mail Entry Unit – Smithtown, New York; FF-AR-08-051; 12/17/2007                 —                   —                  —         $25,180
 Strasburg Business Mail Entry Unit – Strasburg, Virginia; FF-AR-08-104; 2/14/2008                  —                   —                  —        $223,790
 Sylacauga Business Mail Entry Unit – Sylacauga, Alabama; FF-AR-08-069; 1/10/2008                   —                   —                  —          $7,400
 Toledo Business Mail Entry Unit – Toledo, Ohio; FF-AR-08-077; 1/16/2008                            —                   —                  —         $46,507
 Warminster Business Mail Entry Unit – Warminster, Pennsylvania;
                                                                                                    —                   —                  —          $6,513
 FF-AR-08-065; 1/11/2008
 Webb Bridge Station – Alpharetta, Georgia; FF-AR-08-096; 2/5/2008                                  —                $8,285                —         $22,774
 Information Systems
 Identity Theft Potential in Postal Service Information Systems; IS-AR-08-006; 3/6/2008       $102,699              $34,729                —             —
 Oracle Application Control Review – Invoice Processing and Discounts;
                                                                                              $361,108             $404,057                —             —
 IS-AR-08-003; 1/10/2008
 Inspection Service & Facilities
 Postal Inspection Service Security Controls and Processes; SA-AR-08-003; 12/19/2007         $6,439,681                 —                  —             —
 Supply Management
 National Review of SmartPay Purchase Card Transactions; CA-AR-08-002; 11/8/2007                    —              $244,626           $243,183           —
 TOTAL                                                                                    $547,637,127       $190,209,049         $59,945,723    $92,823,873




42
                                                                                                                                                       APPENDIX A

                                                                                                               Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                      October 1, 2007 — March 31, 2008



Report Listing
For the period October 1, 2007 – March 31, 2008

Complete listing of all OIG reports issued to Postal Service management.


GENERATE REVENUE                                      Use of Existing Postal-Owned Space — Capping           Pre-award Accounting System Survey of
                                                      Report; SA-AR-08-007; 3/21/2008                        Material Handling Systems, Incorporated;
Cost, Revenue, & Rates                                                                                       CA-CAR-08-005; 11/9/2007
                                                      Use of Existing Postal-Owned Space in the
Security Review of the Electronic Veriﬁcation         New York Metro Area; SA-AR-08-002; 11/9/2007           Pre-award Accounting System Survey of
System; CRR-AR-08-002; 2/12/2008                                                                             Mechanized Systems Designs, Incorporated;
                                                      Network Optimization                                   CA-CAR-08-015; 2/5/2008
Financial Reporting
                                                      Kansas City, Kansas Processing and Distribution        Pre-award Accounting System Survey
New York International Service Center —               Center Consolidation; EN-AR-08-001; 1/14/2008          of Omega Automation, Incorporated;
Inbound International Mail; FT-AR-08-005;                                                                    CA-CAR-08-008; 11/29/2007
1/24/2008Generate Revenue                             St. Louis Airport Mail Center Outsourcing;
                                                      EN-AR-08-002; 2/29/2008                                Pre-award Accounting System Survey
Information Systems                                                                                          of S/D Engineers, Incorporated;
                                                      Sales & Service                                        CA-CAR-08-006; 11/26/2007
Application Controls Review of the Electronic
Veriﬁcation System; CRR-AR-08-003; 3/31/2008          First-Class Permit Reply Mail;                         Pre-award Accounting System Survey of Scio
                                                      MS-AR-08-001; 11/8/2007                                Systems Incorporated; CA-CAR-08-017; 2/28/2008
Sales & Service
                                                      Function 4 Business Plan Process;                      Pre-award Accounting System Survey of Thinkpath,
Click-N-Ship Program; MS-AR-08-004; 3/31/2008         MS-AR-08-002; 11/16/2007                               Incorporated; CA-CAR-08-002; 10/15/2007
Local Stamps on Consignment Programs;                 Supply Management                                      Pre-award Accounting System Survey of TranSystems
MS-AR-08-003; 3/19/2008Generate Revenue                                                                      Corporation; CA-CAR-08-009; 11/30/2007
                                                      Financial Risk Assessment Audit of Automated Control
INCREASE EFFICIENCY                                   Technologies, LLC; CA-CAR-08-012; 1/29/2008            Revision “B” Forward Pricing Rate Proposal for Fiscal
                                                                                                             Years 2008 through 2012 Submitted by Siemens
Delivery                                              Firm Fixed Price Proposal Submitted by Siemens
                                                                                                             Energy and Automation, Incorporated, Infrastructure
                                                      Energy and Automation, Incorporated, Postal
City Delivery Vehicle Mileage — Base                                                                         Logistics Division; CA-CAR-08-014; 2/4/2008
                                                      Automation Division; CA-CAR-08-011; 1/4/2008
Versus Actual — Capital Metro Area;
                                                                                                             Supplemental Report on Audit of Proposal Submitted
DR-AR-08-003; 10/26/2007                              Firm Fixed Price Proposal, Revision A, Submitted by
                                                                                                             by Northrop Grumman Corporation, Electronic
                                                      Siemens Energy and Automation, Incorporated, Postal
City Delivery Vehicle Mileage — Base                                                                         Systems Company; CA-CAR-08-001; 10/15/2007
                                                      Automation Division; CA-CAR-08-019; 3/27/2008
Versus Actual — National Capping Report;
                                                                                                             Termination for Convenience Settlement Proposal
DR-AR-08-004; 3/4/2008                                Incurred Costs of American Bank Note
                                                                                                             Submitted by Minnesota Diversiﬁed Industries;
                                                      Company; CA-CAR-08-010; 12/17/2007
Engineering                                                                                                  CA-CAR-08-004; 10/30/2007
                                                      Pre-award Accounting System Survey of
Equipment Maintenance Opportunities;                                                                         Transportation
                                                      CAGE Inc.; CA-CAR-08-016; 2/28/2008
DA-AR-08-002; 2/15/2008
                                                                                                             Air Networks — Federal Express
                                                      Pre-award Accounting System Survey of Code
Project Management Challenges in Engineering                                                                 Transportation Agreement — Paciﬁc
                                                      Plus, Inc.; CA-CAR-08-013; 1/29/2008
Programs; DA-MA-08-001; 10/11/2007                                                                           Area; NL-AR-08-002; 2/19/2008
                                                      Pre-award Accounting System Survey of Design
St. Louis Equipment Preventive Maintenance                                                                   Air Networks – Issues in the Paciﬁc Area
                                                      Systems, Incorporated; CA-CAR-08-007; 11/26/2007
and Waste Disposal Follow-Up;                                                                                Associated with a Major Postal Service
DA-MA-08-002; 2/21/2008                               Pre-award Accounting System Survey of Facilities       Customer; NL-AR-08-001; 11/23/2007
                                                      Partners, LLC CA-CAR-08-003; 10/29/2007
Inspection Service & Facilities                                                                              Postal Vehicle Service Transportation Routes —
                                                      Pre-award Accounting System Survey                     San Francisco Processing and Distribution Center;
Postal Service Facilities Single Source Provider      of Foth Production Solutions, LLC;                     NL-AR-08-003; 3/26/2008
System; SA-AR-08-004; 3/3/2008                        CA-CAR-08-018; 2/28/2008




                                                                                                                                                                    43
APPENDIX A

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



IMPROVE SERVICE                                            Violence Prevention and Response Programs                 Birdsboro Post Ofﬁce — Birdsboro, Pennsylvania;
                                                           in Two Paciﬁc Area Performance Clusters;                  FF-AR-08-010; 10/10/2007
Delivery                                                   HM-AR-08-004; 11/13/2007
                                                                                                                     Brewer Post Ofﬁce — Brewer, Maine;
Timely City Delivery — Chicago District;                   ENHANCE SUSTAINABILITY                                    FF-AR-08-004; 10/4/2007
DR-AR-08-001; 10/11/2007
                                                           Engineering                                               Business Mail Entry Units; FF-AR-08-131; 3/19/2008
Network Optimization
                                                           Northern Virginia District Energy Management              Cardiss Collins Postal Store — Chicago,
Automated Area Mail Processing Worksheets;                 Savings Opportunities; DA-AR-08-003; 3/20/2008            Illinois; FF-AR-08-024; 11/7/2007
EN-MA-08-001; 10/19/2007
                                                           REGULATORY STUDIES AND                                    Cleveland Main Ofﬁce Window Service — Cleveland,
Network Processing                                         REPORTING OBLIGATIONS                                     Ohio; FF-AR-08-028; 11/15/2007

Delayed Mail at the Waco Processing and                    Cost, Revenue, & Rates                                    Holland Post Ofﬁce — Holland, Michigan;
Distribution Facility; NO-AR-08-002; 3/13/2008                                                                       FF-AR-08-007; 10/4/2007
                                                           In-Ofﬁce Cost System Telephone Readings;
Mail Condition Reporting at the                            CRR-AR-08-004; 3/31/2008                                  Horsham Business Mail Entry Unit — Horsham,
J.T. Weeker International Service Center;                                                                            Pennsylvania; FF-AR-08-005; 10/4/2007
NO-AR-08-001; 3/13/2008                                    Internal Controls over the Revenue,
                                                           Pieces, and Weight Adjustment System;                     Kansas City Stamp Service Center — Kansas City,
Summary Audit on the Timeliness of Mail Processing,        CRR-MA-08-001; 12/14/2007                                 Missouri; FF-AR-08-020; 11/2/2007
Transportation, and Delivery Operations in the
Chicago District; NO-AR-08-003; 3/28/2008                  Fiscal Year 2007 Financial Installation Audit             Langhorne Business Mail Entry Unit — Langhorne,
                                                                                                                     Pennsylvania; FF-AR-08-003; 10/4/2007
Sales & Service                                            Postal Accountability and Enhancement Act, Section
                                                           709, Assessment of Certain Rate Deﬁciencies;              Mooresville Business Mail Entry Unit — Mooresville,
Business Over the Counter;                                 FF-AR-08-030; 11/29/2007                                  North Carolina; FF-AR-08-018; 11/1/2007
MS-MA-08-001; 3/26/2008
                                                           PRESERVING INTEGRITY                                      Newark Main Post Ofﬁce — Newark, California;
CUSTOMER-FOCUSED CULTURE                                                                                             FF-AR-08-014; 10/22/2007
                                                           Financial Reporting
Engineering                                                                                                          Ogdensburg Business Mail Entry Unit — Ogdensburg,
                                                           Peak Season (Christmas 2006FY 2007) Fuel;                 New York; FF-AR-08-013; 10/15/2007
Ventilation Filtration System Utilization;                 FT-AR-08-003; 12/14/2007
DA-AR-08-001; 1/08/2008                                                                                              Ogdensburg Post Ofﬁce — Ogdensburg,
                                                           Fiscal Year 2007 Cost and Revenue Analysis                New York FF-AR-08-009; 10/10/2007
Human Capital
                                                           Northern New Jersey District, New Jersey                  Paoli Business Mail Entry Unit — Paoli,
Equal Employment Opportunity Contracting                   International and Bulk Mail Center                        Pennsylvania; FF-AR-08-006; 10/4/2007
Function; HM-MA-08-001; 2/21/2008                          FF-AR-08-016; 10/24/2007
                                                                                                                     Parker Main Post Ofﬁce — Parker, Colorado;
Violence Prevention and Response Programs                  San Francisco District, San Francisco International       FF-AR-08-035; 11/29/2007
in Four Northeast Area Performance Clusters;               Service Center; FF-AR-08-011; 10/11/2007
HM-AR-08-005; 1/14/2008                                                                                              Post Ofﬁces, Stations, and Branches;
                                                           Cost and Revenue Analysis;                                FF-AR-08-122; 3/5/2008
Violence Prevention and Response Programs in               FF-AR-08-084; 1/30/2008
Three Capital Metro Area Performance Clusters;                                                                       Potsdam Business Mail Entry Unit — Potsdam,
HM-AR-08-001; 10/16/2007                                   Fiscal Year 2007 Financial Installation Audit             New York; FF-AR-08-002; 10/3/2007

Violence Prevention and Response Programs                  Alamo Main Post Ofﬁce — Alamo, Texas;                     Pricing and Classiﬁcation Service Center — New
in Three Southeast Area Performance Clusters;              FF-AR-08-031; 11/27/2007                                  York, New York; FF-AR-08-001; 10/23/2007
HM-AR-08-002; 11/2/2007
                                                           Allentown Business Mail Entry Unit — Allentown,           SmartPay Purchase Card Program;
Violence Prevention and Response Programs                  Pennsylvania; FF-AR-08-029; 11/16/2007                    FF-AR-08-094; 2/4/2008
in Three Southwest Area Performance Clusters;
HM-AR-08-003; 11/7/2007                                    Atlantic City Business Mail Entry Unit — Atlantic City,   SmartPay Purchase Card Program —
                                                           New Jersey; FF-AR-08-008; 10/9/2007                       Atlanta District — Atlanta, Georgia;
                                                                                                                     FF-AR-08-012; 10/18/2007




44
                                                                                                                                                       APPENDIX A

                                                                                                               Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                      October 1, 2007 — March 31, 2008



SmartPay Purchase Card Program —                       Eagan Information Technology and Accounting           Champaign Business Mail Entry Unit — Champaign,
Baltimore District, Baltimore, Maryland;               Service Center; FT-AR-08-007; 2/8/2008                Illinois; FF-AR-08-087; 1/31/2008
FF-AR-08-022; 11/7/2007
                                                       Manual Transportation Payments;                       Chattahoochee Business Mail Entry Unit —
SmartPay Purchase Card Program — Chicago               FT-AR-08-001; 11/15/2007                              Chattahoochee, Florida; FF-AR-08-143; 3/27/2008
District, Chicago, Illinois; FF-AR-08-021; 11/7/2007
                                                       Ofﬁcers’ Travel and Representation Expenses for       Chattanooga Business Mail Entry Unit —
SmartPay Purchase Card Program —                       Fiscal Year 2007; FT-AR-08-004; 12/20/2007            Chattanooga, Tennessee; FF-AR-08-089; 2/1/2008
Fort Worth District Fort Worth, Texas;
FF-AR-08-025; 11/13/2007;                              St. Louis Information Technology and Accounting       Circleville Post Ofﬁce – Circleville, Ohio;
                                                       Service Center; FT-AR-08-010; 3/31/2008               FF-AR-08-138; 3/24/2008
SmartPay Purchase Card Program —
Los Angeles District, Los Angeles, California;         San Mateo Information Technology and Accounting       Columbia Business Mail Entry Unit — Columbia,
FF-AR-08-026; 11/14/2007                               Service Center; FT-AR-08-009; 3/20/2008               Missouri; FF-AR-08-140; 3/26/2008

SmartPay Purchase Card Program — Massachusetts         Special-Purpose Financial Statements;                 Coraopolis Business Mail Entry Unit — Coraopolis,
District, North Reading, Massachusetts;                FT-AR-08-002; 11/16/2007                              Pennsylvania; FF-AR-08-059; 12/28/2007
FF-AR-08-037; 11/30/2007
                                                       Washington, D.C., Headquarters;                       Covington Business Mail Entry Unit — Covington,
SmartPay Purchase Card Program —                       FT-AR-08-006; 2/8/2008                                Kentucky; FF-AR-08-033; 11/29/2007
New York District, New York City, New York;
FF-AR-08-048; 12/17/2007                               Fiscal Year 2008 Financial Installation Audit         Dallas Business Mail Entry Unit — Dallas, Texas;
                                                                                                             FF-AR-08-117; 3/3/2008
SmartPay Purchase Card Program — Northern              Aloha Station — Beaverton, Oregon;
Virginia District, Merriﬁeld, Virginia;                FF-AR-08-142; 3/27/2008                               Daly City Main Ofﬁce Automated Postal Center —
FF-AR-08-027; 11/15/2007                                                                                     Daly City, California; FF-AR-08-113; 2/26/2008
                                                       Arcadia Business Mail Entry Unit — Arcadia,
SmartPay Purchase Card Program —                       California; FF-AR-08-054; 12/26/2007                  Decatur Business Mail Entry Unit — Decatur,
Pittsburgh District, Pittsburgh, Pennsylvania;                                                               Georgia; FF-AR-08-092; 2/1/2008
FF-AR-08-019; 11/1/2007                                Ash Flat Business Mail Entry Unit — Ash Flat,
                                                       Arkansas; FF-AR-08-086; 1/30/2008                     Doyle Main Post Ofﬁce — Doyle, California;
SmartPay Purchase Card Program —                                                                             FF-AR-08-088; 2/1/2008
Richmond District, Richmond, Virginia;                 Auburn Business Mail Entry Unit — Auburn, New
FF-AR-08-023; 11/7/2007                                York; FF-AR-08-076; 1/15/2008                         Dulles Business Mail Entry Unit — Dulles,
                                                                                                             Virginia; FF-AR-08-105; 2/14/2008
SmartPay Purchase Card Program —                       Aurora Business Mail Entry Unit — Aurora, Missouri;
Sacramento District, West Sacramento, California       FF-AR-08-067; 1/08/2008                               East Hanover Business Mail Entry Unit — East
FF-AR-08-015; 10/24/2007                                                                                     Hanover, New Jersey; FF-AR-08-095; 2/6/2008
                                                       Aurora Main Ofﬁce — Self-Service Postal Center —
SmartPay Purchase Card Program —                       Aurora, Colorado; FF-AR-08-130; 3/17/2008             Eastman Business Mail Entry Unit — Eastman,
Santa Ana District, Santa Ana, California;                                                                   Georgia; FF-AR-08-085; 1/29/2008
                                                       Baltimore Main Ofﬁce Window — Baltimore,
FF-AR-08-038; 11/30/2007
                                                       Maryland; FF-AR-08-064; 1/7/2008                      Escondido Business Mail Entry Unit — Escondido,
Southwest Area SmartPay Purchase Card Program;                                                               California; FF-AR-08-123; 3/7/2008
                                                       Birmingham Business Mail Entry Unit —
FF-AR-08-072; 1/11/2008
                                                       Birmingham, Alabama; FF-AR-08-091; 2/5/2008           Falconer Post Ofﬁce — Falconer, New York;
Stamp Distribution Ofﬁces; FF-AR-08-062; 1/4/2008                                                            FF-AR-08-129; 3/17/2008
                                                       Burlington Business Mail Entry Unit — Essex
Yauco Post Ofﬁce — Yauco, Puerto Rico;                 Junction, Vermont; FF-AR-08-114; 2/26/2008            Farmingdale Business Mail Entry Unit —
FF-AR-08-017; 10/30/2007                                                                                     Farmingdale, New York; FF-AR-08-056; 12/28/2007
                                                       Cabool Main Post Ofﬁce — Cabool, Missouri;
Fiscal Year 2007 Financial Statements Audit            FF-AR-08-053; 12/20/2007                              Flushing Mobile Post Ofﬁce — Flushing,
                                                                                                             New York; FF-AR-08-109; 2/25/2008
Board of Governors’ Travel and                         Caldwell Business Mail Entry Unit — West Caldwell,
Miscellaneous Expenses for Fiscal Year                 New Jersey; FF-AR-08-083; 1/30/2008                   Forest Business Mail Entry Unit — Forest,
2007; FT-AR-08-008; 2/15/2008                                                                                Mississippi; FF-AR-08-126; 3/11/2008
                                                       Castle Rock Automated Postal Center — Castle Rock,
Control Issues; FT-WP-08-001; 2/8/2008                 Colorado; FF-AR-08-139; 3/25/2008                     Fresno Business Mail Entry Unit — Fresno,
                                                                                                             California; FF-AR-08-132; 3/19/2008




                                                                                                                                                                    45
APPENDIX A

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



Gloucester City Post Ofﬁce — Gloucester City,              Kennesaw Business Mail Entry Unit — Kennesaw,             Milpitas Main Post Ofﬁce — Milpitas, California;
New Jersey; FF-AR-08-055; 12/28/2007                       Georgia; FF-AR-08-0125; 3/11/2008                         FF-AR-08-107; 2/20/2008

Grand Haven Business Mail Entry Unit —                     Kilmer Lobby Branch — Edison, New Jersey;                 Mount Hermon Main Post Ofﬁce — Mount Hermon,
Grand Haven, Michigan; FF-AR-08-144; 3/28/2008             FF-AR-08-118; 3/4/2008                                    California; FF-AR-08-060; 12/28/2007

Grants-Milan Station — Milan, New Mexico;                  La Salle Post Ofﬁce — La Salle, Colorado;                 Murphysboro Post Ofﬁce — Murphysboro, Illinois;
FF-AR-08-057; 12/27/2007                                   FF-AR-08-052; 12/20/2007                                  FF-AR-08-063; 1/7/2008

Grass Valley Business Mail Entry Unit — Grass Valley,      Lake Hughes Post Ofﬁce — Lake Hughes,                     Naperville Post Ofﬁce — Naperville, Illinois;
California; FF-AR-08-079; 1/22/2008                        California; FF-AR-08-145; 3/27/2008                       FF-AR-08-134; 3/19/2008

Gravois Mills Post Ofﬁce — Gravois Mills, Missouri;        Liguori Business Mail Entry Unit — Liguori,               Newton Upper Falls Post Ofﬁce — Newton Upper
FF-AR-08-111; 2/25/2008                                    Missouri; FF-AR-08-093; 2/5/2008                          Falls, Massachusetts; FF-AR-08-046; 12/11/2007

Green Bay Business Mail Entry Unit — Green Bay,            Long Beach Business Mail Entry Unit — Long Beach,         Niles Branch — Niles, Illinois;
Wisconsin; FF-AR-08-080; 1/23/2008                         California; FF-AR-08-068; 1/10/2008                       FF-AR-08-112; 2/25/2008

Gurnee Business Mail Entry Unit — Gurnee, Illinois;        Madison Business Mail Entry Unit — Madison,               North Haven Post Ofﬁce — North Haven,
FF-AR-08-128; 3/17/2008                                    Connecticut; FF-AR-08-082; 1/28/2008                      Connecticut; FF-AR-08-119; 3/4/2008

Hazelwood Business Mail Entry Unit — Hazelwood,            Manassas Main Ofﬁce Window — Manassas,                    Norwood Young America Business Mail Entry
Missouri; FF-AR-08-081; 1/24/2008                          Virginia; FF-AR-08-135; 3/19/2008                         Unit — Norwood Young America, Minnesota;
                                                                                                                     FF-AR-08-061; 1/02/2008
Heath Branch Post Ofﬁce — Newark, Ohio;                    Manchester Main Post Ofﬁce — Manchester, New
FF-AR-08-108; 2/25/2008                                    Hampshire; FF-AR-08-075; 1/15/2008                        Novato Business Mail Entry Unit — Novato,
                                                                                                                     California; FF-AR-08-050; 12/18/2007
Hemlock Post Ofﬁce — Hemlock, New York;                    Maplewood Business Mail Entry Unit — Maplewood,
FF-AR-08-045; 12/11/2007                                   New Jersey; FF-AR-08-090; 2/4/2008                        Oakridge Post Ofﬁce — Oakridge, Oregon;
                                                                                                                     FF-AR-08-100; 2/12/2008
High Mar Station — Boulder, Colorado;                      Marion Business Mail Entry Unit — Marion, Kentucky;
FF-AR-08-102; 2/13/2008                                    FF-AR-08-034; 11/29/2007                                  O’Fallon Post Ofﬁce — O’Fallon, Missouri;
                                                                                                                     FF-AR-08-133; 3/19/2008
Hudson Business Mail Entry Unit — Hudson,                  Marion Main Post Ofﬁce — Marion, South Dakota;
Wisconsin; FF-AR-08-066; 1/8/2008                          FF-AR-08-047; 12/11/2007                                  Palos Verdes Business Mail Entry Unit —
                                                                                                                     Palos Verdes Peninsula, California;
Huntingdon Post Ofﬁce — Huntingdon,                        Mary Esther Post Ofﬁce — Mary Esther, Florida;            FF-AR-08-099; 2/7/2008
Pennsylvania; FF-AR-08-101; 2/12/2008                      FF-AR-08-098; 2/7/2008
                                                                                                                     Peotone Post Ofﬁce — Peotone, Illinois;
Huntington Main Post Ofﬁce — Huntington,                   Marysville Business Mail Entry Unit — Marysville,         FF-AR-08-039; 11/30/2007
New York; FF-AR-08-058; 12/28/2007                         Ohio; FF-AR-08-032; 11/29/2007
                                                                                                                     Red Rock Vista Station — Las Vegas, Nevada;
Ida Jean Haxton Station Automated Postal                   Matteson Business Mail Entry Unit — Matteson,             FF-AR-08-036; 11/29/2007
Center — Huntington Beach, California;                     Illinois; FF-AR-08-044; 12/11/2007
FF-AR-08-043; 12/07/2007                                                                                             Reno Main Ofﬁce — Self-Service Postal Center —
                                                           McArthur Main Post Ofﬁce — McArthur, California;          Reno, Nevada; FF-AR-08-097; 2/6/2008
Irvine Self-Service Postal Center — Irvine,                FF-AR-08-116; 3/3/2008
California; FF-AR-08-141; 3/27/2008                                                                                  Roselle Branch Post Ofﬁce — Roselle,
                                                           McKnight Branch Automated Postal Center —                 New Jersey; FF-AR-08-110; 2/25/2008
Jackson Business Mail Entry Unit — Jackson,                Pittsburgh, Pennsylvania; FF-AR-08-103; 2/13/2008
Ohio; FF-AR-08-073; 1/15/2008                                                                                        San Antonio Business Mail Entry Unit – San Antonio,
                                                           Merriﬁeld Post Ofﬁce — Merriﬁeld, Virginia;               Texas; FF-AR-08-146; 3/28/2008
James C. Brown Jr. Facility Post Ofﬁce — Las Vegas,        FF-AR-08-070; 1/10/2008
Nevada; FF-AR-08-049; 12/18/2007                                                                                     Santa Rosa Business Mail Entry Unit — Santa Rosa,
                                                           Miami General Mail Facility Post Ofﬁce — Miami,           California; FF-AR-08-136; 3/20/2008
Janesville Business Mail Entry Unit — Janesville,          Florida; FF-AR-08-042; 12/7/2007
Wisconsin; FF-AR-08-040; 12/18/2007                                                                                  Scottsville Post Ofﬁce — Scottsville,
                                                           Milledgeville Business Mail Entry Unit — Milledgeville,   Kentucky; FF-AR-08-121; 3/5/2008
Keene Business Mail Entry Unit — Keene, New                Georgia; FF-AR-08-106; 2/15/2008
Hampshire; FF-AR-08-074; 1/15/2008




46
                                                                                                                                                             APPENDIX A

                                                                                                                     Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                            October 1, 2007 — March 31, 2008



Smithtown Business Mail Entry Unit — Smithtown,          Information Systems Access Controls at Selected           Voyager Card Program; CA-AR-08-006; 3/21/2008
New York; FF-AR-08-051; 12/17/2007                       Information Technology Facilities for Fiscal Year 2007;
                                                         IS-AR-08-002; 11/6/2007                                   Transportation
Southington Post Ofﬁce — Southington,
Connecticut; FF-AR-08-120; 3/5/2008                      National Accounting Oracle Financials                     Vehicle Management — Unsecured Trailers — San
                                                         Application Data Encryption Follow-Up;                    Francisco Processing and Distribution Center;
Strasburg Business Mail Entry Unit — Strasburg,          IS-AR-08-008; 3/11/2008                                   NL-AR-08-004; 3/29/2008
Virginia; FF-AR-08-104; 2/14/2008
                                                         Oracle Application Control Review — Invoice
Sylacauga Business Mail Entry Unit — Sylacauga,          Processing and Discounts; IS-AR-08-003; 1/10/2008
Alabama; FF-AR-08-069; 1/10/2008
                                                         Oracle Processing — Application Control Review —
Temple City Main Post Ofﬁce — Temple City,               Processing Phase; IS-AR-08-005; 3/3/2008
California; FF-AR-08-124; 3/10/2008
                                                         Update Processes for Active Directory
Toledo Business Mail Entry Unit — Toledo, Ohio;          and CA-ACF2; IS-AR-08-009; 3/14/2008
FF-AR-08-077; 1/16/2008
                                                         Inspection Service & Facilities
Warminster Business Mail Entry Unit — Warminster,
Pennsylvania; FF-AR-08-065; 1/11/2008                    Assessing Management Controls, Processes, and
                                                         Programs Regarding U.S. Postal Inspection Service
Watertown Business Mail Entry Unit — Watertown,          Security; SA-AR-08-001; 10/29/2007
New York; FF-AR-08-041; 12/6/2007
                                                         Emergency Preparedness Plans for the New York
Watsonville Business Mail Entry Unit 01 —                Metro Area; SA-AR-08-005; 3/21/2008
Watsonville, California; FF-AR-08-071; 1/10/2008
                                                         Emergency Preparedness Plans for the
Wayne Business Mail Entry Unit — Wayne,                  Western Area; SA-AR-08-006; 3/21/2008
New Jersey; FF-AR-08-078; 1/18/2008
                                                         Postal Inspection Service Security Controls and
Webb Bridge Station — Alpharetta, Georgia;               Processes; SA-AR-08-003; 12/19/2007
FF-AR-08-096; 2/5/2008
                                                         Postal Service’s Personnel Security Process;
West Palm Beach Main Ofﬁce Window Unit — West            SA-MA-08-001; 2/12/2008
Palm Beach, Florida; FF-AR-08-115; 2/29/2008
                                                         Supply Management
West Rutland Post Ofﬁce — West Rutland,
Vermont; FF-AR-08-137; 3/20/2008                         Estimated Supply Chain Management Impact
                                                         Associated with Waste, Trash, and Recycling
Winder Business Mail Entry Unit — Winder,                Services; CA-MA-08-001; 1/10/2008
Georgia; FF-AR-08-127; 3/17/2008
                                                         National Review of SmartPay Purchase Card
Information Systems                                      Transactions; CA-AR-08-002; 11/8/2007
Compliance Audit of the Postal Service’s                 Voyager Card Program — Alexandria, Louisiana
External Public Key Infrastructure Services;             South Park Station and Baton Rouge, Louisiana
IS-AR-08-001; 10/5/2007                                  Downtown Station; CA-AR-08-004; 12/31/2007
Enterprise Payment Switch Solution Phase III:            Voyager Card Program — Denver, Colorado Vehicle
Security Testing; IS-AR-08-004; 2/6/2008                 Maintenance Facility and Longmont, Colorado Post
                                                         Ofﬁce; CA-AR-08-001; 10/19/2007
Fiscal Year 2007 Information Systems
General Computer Controls Capping Report;                Voyager Card Program — Hayward and Concord,
IS-AR-08-007; 3/11/2008                                  California Post Ofﬁces; CA-AR-08-003; 11/16/2007
Identity Theft Potential in Postal Service Information   Voyager Card Program — Orlando, Florida Lee Vista
Systems; IS-AR-08-006; 3/6/2008                          Station and Boynton Beach, Florida Main Ofﬁce
                                                         Station; CA-AR-08-005; 2/29/2008




                                                                                                                                                                          47
APPENDIX B

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



APPENDIX B
Findings Of Questioned Costs
For the period October 1, 2007 — March 31, 2008

Questioned Cost: A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, or contract.

As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of questioned costs in audit reports.

                                                                                                                                                               Unsupported Costs Included
 Description                                                                                       Number of Reports                 Questioned Costs                 in Questioned Costs
 Reports for which no management decision was made at the beginning of the                                               28               $290,673,034                           2,314,919*
 reporting period
 Reports requiring management decision that were issued during the reporting period                                      53               $190,209,049                         $59,945,723
 TOTAL                                                                                                                   81              $480,882,083                         $62,260,642


 Reports for which a management decision was made during the reporting period (i+ii)                                     66               $432,666,383                         $61,889,945
              (i) Dollar Value of disallowed cost                                                                        —                     $70,180,280                      $4,900,761
              (ii) Dollar value of cost not disallowed                                                                   —                $362,486,103                         $56,989,184

 Reports for which no management decision was made by the end of the reporting period;                                   15                    $48,215,700                        $370,697
 negotiations are ongoing
 Reports for which no management decision was made within 6 months of issuance                                            3                     $2,624,316                         $71,956
 (See Note 1 for a list of individual reports)
 Reports for which no management decision was made within 1 year of issuance                                              2                    $45,221,850                              —
 (See Note 2 for a list of individual reports)



Note 1 — Reports for Which No Management Decision Was Made Within 6 Months of Issuance:

                                                                                                                                                             Unsupported Costs Included in
 Subject                Report/Case Number               Report Date                                                  Questioned Costs                                   Questioned Costs
 6/15/2007              NL-AR-07-005                     Vehicle Management – National Trailer Lease                                997,016                                             —
                                                         Renewal – Southwest Area
 9/28/2007              NL-AR-07-009                     Vehicle Management – National Trailer Lease                               1,555,344                                            —
                                                         Renewal – Paciﬁc Area
 7/18/2007              CA-CAR-07-015                    Audit of Price Adjustment Claim Submitted by Bertsch                        71,956                                         71,956
                                                         Properties, Limited Liability Corporation (LLC)
 TOTAL                                                                                                                           $2,624,316                                       $71,956


* The unsupported amount shows an increase of $572 from what was reported in the September 2007 Semiannual Report to Congress.




48
                                                                                                                                                                   APPENDIX B

                                                                                                                           Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                                  October 1, 2007 — March 31, 2008



Note 2 — Reports for Which No Management Decision Was Made Within 1 Year of Issuance:

                                                                                                                                            Unsupported Costs Included in
 Subject               Report/Case Number          Report Date                                            Questioned Costs                              Questioned Costs
 9/30/2004             NL-AR-04-005                Vehicle Management – Delivery Vehicles – Buy                   $42,751,032                                                 —
                                                   Versus Lease
 7/5/2006              CA-CAR-06-027               Report on Audit of Settlement Proposal Under                    $2,470,818                                                 —
                                                   Contract Number 102591-03-Q-0454 Submitted by
                                                   Hasler Incorporated
 TOTAL                                                                                                           $45,221,850                                                  —


Note 3 — Contract Reports With a Signiﬁcant Audit Finding:

                                                       Questioned
                                                            Costs       Disallowed       Unsupported Costs Finding Description
 Firm Fixed Price Proposal Submitted                   $11,002,117                 —                       —     The cost or pricing data submitted by the contractor was not
 by Siemens Energy and Automation,                                                                               adequate and the proposal was not prepared in accordance with
 Incorporated, Postal Automation Division;                                                                       the U.S. Postal Service Supplying Principles and Practices.
 CA-CAR-08-011; 01/04/2008
 Firm Fixed Price Proposal, Revision A,                $69,876,229                 —               $56,989,184   The cost or pricing data submitted by the contractor was not
 Submitted by Siemens Energy and Automation,                                                                     adequate and the proposal was not prepared in accordance with
 Incorporated, Postal Automation Division;                                                                       the U.S. Postal Service Supplying Principles and Practices.
 CA-CAR-08-019; 3/27/2008
 Supplemental Report on Audit of Proposal              $14,417,441       $14,417,441                       —     The cost or pricing data submitted by the contractor was not
 Submitted by Northrop Grumman Corporation,                                                                      adequate and the proposal was not prepared in accordance with
 Electronic Systems Company;                                                                                     the U.S. Postal Service Supplying Principles and Practices.
 CA-CAR-08-001; 10/15/2007
 TOTAL                                                $95,295,787      $14,417,441                $56,989,184




                                                                                                                                                                                 49
APPENDIX C

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



APPENDIX C
Recommendations That Funds Be Put to Better Use
For the period October 1, 2007 — March 31, 2008

As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of recommendations for funds that can be put to
better use by management.

Funds Put to Better Use. Funds that could be used more efﬁciently by implementing recommended actions.


 Description                                                                                                                   Number of Reports          Dollar Value
 Reports for which no management decision was made at the beginning of the reporting period                                                           6           $59,285,542
 Reports issued during the reporting period                                                                                                          12          $547,637,127
 TOTAL                                                                                                                                               18         $606,922,669


 Reports for which a management decision was made during the report period                                                                           11          $552,681,919
             (i) Value of recommendations agreed to by management                                                                                                $415,578,050
             (ii) Value of recommendations that were not agreed to by management                                                                                 $137,103,869
 Reports for which no management decision was made by the end of the reporting period.                                                                7           $54,240,750
 Reports for which no management decision was made within 6 months of issuance (See Note 1 for a list of individual reports)                          2            $9,717,525
 Reports for which no management decision was made within 1 year of issuance (See Note 2 for a list of individual reports)                            2           $41,811,124



Note 1 - Reports for Which No Management Decision Was Made Within 6 Months of Issuance:

                                                                                                                                                    Recommend Funds Put to
 Subject                                                                                             Report Number               Report Date        Better Use
 Vehicle Management — National Trailer Lease Renewal — Paciﬁc Area                                               NL-AR-07-009           9/28/2007                  $5,960,140
 Vehicle Management — National Trailer Lease Renewal — Southwest Area                                            NL-AR-07-005           6/15/2007                  $3,757,385
 TOTAL                                                                                                                                                            $9,717,525


Note 2 - Reports for Which No Management Decision Was Made Within 1 Year of Issuance:

                                                                                                                                                    Recommend Funds
 Subject                                                                                             Report Number               Report Date        Put to Better Use
 Vehicle Management — Delivery Vehicles — Buy versus Lease                                                       NL-AR-04-005           9/30/2004                 $40,296,954
 Vehicle Management — National Trailer Lease Requirements — Capital Metro Area                                   NL-AR-06-013           9/29/2006                  $1,514,170
 TOTAL                                                                                                                                                           $41,811,124




50
                                                                                                                                                                                 APPENDIX D

                                                                                                                                         Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                                                October 1, 2007 — March 31, 2008



APPENDIX D
Reported Non-Monetary Beneﬁts
For the period October 1, 2007 — March 31, 2008

Overview

Many of our audit reports identify areas for improvement that result in non-monetary beneﬁts to the Postal Service. These beneﬁts include improvements to
service, protection of assets, and improvements in the reliability of data.


                                                                                                                                    Type of Measure                Value or Amount
 IMPROVED SERVICE
 Recommendations that address the Postal Service’s efforts to improve the quality and accessibility of its                          Number of recommendations                                47
 products and services
 Number of customer service audits conducted                                                                                        Number of audits                                         10
 SAFEGUARDING ASSETS
 Assets or Accountable Items at Risk
 Inadequate internal controls put the value of assets or accountable items (such as cash and stamps) at risk of loss                Dollar value                                  $69,917,447
 Physical Safety and Security
 Dollar value of physical assets (plant, computer equipment, vehicles, and so forth) at risk of loss due to                         Dollar value                                   $1,600,000
 inadequate physical protection
 Recommendations that address the safety and security of Postal Service employees and/or the work environment                       Number of recommendations                                92
 Number of employee/facility safety and security audits conducted                                                                   Number of audits                                         15
 Information Technology Security
 Inadequate controls/protection put the value of data, IT assets (software, networks), and employee work time at risk of loss       Dollar value                                     $587,997
 Number of data security/IT security audits conducted                                                                               Number of audits                                         17
 Revenue at Risk
 Dollar value of revenue that the Postal Service is at risk of losing (mailer seeking alternative solutions for current services)   Dollar value                                   $3,323,080
 Disbursements at Risk
 Dollar value of disbursements made where proper Postal Service internal controls and processes were not followed                   Dollar value                                  $25,633,856
 Goodwill / Branding
 An “adverse impact” on goodwill is an actual event/problem that harms the Postal Service’s reputation or a potential               Number of issues identiﬁed                               22
 problem that could negatively impact the Postal Service “brand name”
 RELIABILITY OF DATA
 Records at Risk
 Data at risk of corruption or loss due to inadequate internal controls and or protection                                           Number of data                                791,948,447
                                                                                                                                    records at risk
 Dollar value of data used to support management decisions that are not fully supported or completely accurate                      Dollar value                                 $890,959,332




                                                                                                                                                                                              51
APPENDIX E

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



APPENDIX E
Reports With Signiﬁcant Recommendations Pending Corrective Actions
For the period through March 31, 2008

As required by the IG Act, the following pages include a list of each audit report for which no management decision has been made by the end
of the reporting period.


                                        Report Title, Recommendation Summary
                                                     R = Recommendation number
 Report Number         Issue Date                    TID = Target Implementation Date
 NO-AR-05-011          6/17/2005        Efﬁciency of the Los Angeles International Service Center
                                        R-1 — Reduce mail processing workhours by 85,000. TID: October 2010
 HM-AR-05-009          7/22/2005        Complaints Regarding Personnel Issues in the Caribbean District
                                        R-13 — Ensure employees are properly recording their clock rings in accordance with policy. TID: Management working on closure request
                                        R-19 — Establish a team to conduct a review of all calendar years 2002 through 2004 special job opportunity hiring of casual and transitional
                                        employees to ensure there were no additional individuals improperly hired. TID: Management working on closure request
 HM-AR-06-004          5/19/2006        Postal Service’s Injury Compensation Programs’ Controversion and Challenge Process in Selected Areas
                                        R-2 — Provide sufﬁcient oversight of injury compensation control ofﬁces by including steps to validate the proper tracking and monitoring of
                                        controverted and challenged claims in the Human Resource Information System and the Claim Control Register in their Area Program reviews.
                                        TID: Management working on closure request
 IS-AR-06-003          2/10/2006        Security Vulnerability Assessment and Audit of Automated Postal Center Systems
                                        R-1 — Identify appropriate corrective action for identiﬁed vulnerabilities. TID: April 2008
                                        R-7 — Implement appropriate maximum ﬁle sizes to ensure desired data is captured and retained for designated periods. TID: April 2008
 FT-AR-06-016          3/31/2006        Postal Service’s Share of Health Insurance Premiums for Retired Employees
                                        R-1 — Establish and communicate policies and procedures to continuously monitor the accuracy of the Postal Service’s share of health insurance
                                        premiums paid for retires and survivors. TID: June 2008
 NL-AR-06-008          7/25/2006        Surface Transportation — Processing and Distribution Center Transportation Routes – Great Lakes Area
                                        R-1 — Verify the actual cancellation, modiﬁcation, or substitution of the 20 trips identiﬁed during our audit by management.
                                        TID: March 2008 (management has not provided a revised date)
                                        R-2 — Verify the actual cancellation, modiﬁcation, or substitution of the 73 trips with which Postal Service ofﬁcials agreed.
                                        TID: March 2008 (management has not provided a revised date)
                                        R-3 — Reassess the 14 trips which managers still feel are necessary and cancel or modify the trips as indicated by the reassessment, or
                                        document the reasons for retaining the trips. TID: March 2008 (management has not provided a revised date)
 DR-AR-06-007          8/9/2006         Overdrawn Express Mail Corporate Accounts
                                        R-3 — Convert all trust Express Mail Corporate Accounts to Automated Clearing House or credit card accounts. TID: March 2009
 HM-AR-06-006          8/29/2006        Postal Service’s Grievance-Arbitration Service Centers
                                        R-8 — Automate the processing and payment of arbitrator invoices using an existing Postal Service electronic purchasing system. TID: April 2007
                                        R-9 — Assess the beneﬁts of transitioning the grievance-arbitration processing function to the shared services center or another feasible
                                        alternative. TID: Not provided
 IS-AR-06-017          9/27/2006        Enterprise Payment Switch Solution Phase 1: Requirements and Design
                                        R-1 — Create or revise polices and procedures to provide guidance for Payment Card Industry compliance. TID: June 2008
                                        R-2 — Resolve the inconsistencies between Postal Service polices and the Payment Card Industry Data Security Standard TID: June 2008




52
                                                                                                                                                                APPENDIX E

                                                                                                                       Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                              October 1, 2007 — March 31, 2008



                             Report Title, Recommendation Summary
                                         R = Recommendation number
Report Number   Issue Date               TID = Target Implementation Date
DR-MA-06-008    9/29/2006    Delivery and Retail Standard Operating Procedures – Great Lakes Area
                             R-2 — Resolve and close Integrated Operating Plan discrepancies timely as required by Standard Operating Procedures. TID: September 2007
                             (management has not provided a revised date)
                             R-3 — Document unauthorized overtime using PS Form 1017-B, Unauthorized Overtime Record, and take corrective actions. TID: September 2007
                             (management has not provided a revised date)
                             R-4 — Use Delivery Operations Information System performance reports to document carriers’ performance feedback.
                             TID: September 2007 (management has not provided a revised date)
HM-AR-06-007    9/29/2006    Postal Service’s Schedule Awards Program in the New York Metro Area — Report I
                             R-5 — Revise the Basic Injury Compensation Course to include training on how to calculate and verify the schedule award amounts the OWCP
                             authorizes and include the revised portion as mandatory training for all injury compensation managers and specialists. TID: Not provided
                             R-7 — Revise Postal Service policy to require injury compensation managers to monitor compensation payments via chargeback summaries and
                             detail reports. Immediately notify the OWCP district ofﬁces of any underpayments. TID: Not provided
DA-AR-06-006    9/30/2006    Biohazard Detection System
                             R-1 — Procure and implement a technological solution to ensure Automated Facer Canceller System and Biohazard Detection System operations
                             are synchronized for starts and stops. TID: August 2008
EN-AR-06-001    9/26/2006    Pasadena, California, Processing and Distribution Center Consolidation
                             R-3 — Update the Area Mail Processing policy. TID: April 2008
EN-AR-07-001    11/9/2006    Sioux City, Iowa, Processing and Distribution Facility Consolidation
                             R-1 — Complete revisions to the Sioux City Area Mail Processing (AMP) proposal. TID: December 2008
                             R-2 — Communicate updated information on the Sioux City AMP to stakeholders. TID: December 2008
                             R-3 — Provide detailed instructions for completing facility information. TID: December 2008
                             R-4 — Provide detailed instructions for estimating employee relocation. TID: April 2008
EN-AR-07-002    12/5/2006    Service Implications of Area Mail Processing Consolidations
                             R-1 — Improve instructions for completing service standards worksheets. TID: April 2008
                             R-2 — Revise Area Mail Processing (AMP) Guidelines to outline a speciﬁc methodology for measuring service performance. TID: April 2008
                             R-3 — Revise AMP Guidelines to include the impact on collection box pick-up times and any planned changes for business mail entry units
                             and retail operations. TID: April 2008
                             R-4 — Revise the Collection Point Management System to track changes to collection box pick-up times. TID: September 2009
IS-AR-07-003    12/7/2006    Security Vulnerability Assessment of Legacy Applications at the Eagan Host Computing Services, Eagan, Minnesota
                             R-1 — Implement an automated asset management solution. TID: December 2008
IS-AR-07-006    12/26/2006   National Customer Management System Encryption
                             R-1 — Replace the current encryption methodology. TID: March 2008 (management has not provided a revised date)
                             R-2 — Verify all encryption algorithms used in the storage or transmission of sensitive cardholder data comply with Postal Service and Payment
                             Card Industry Security requirements. TID: July 2008
IS-AR-07-007    2/23/2007    Enterprise Payment Switch Solution Phase II: Preparations for Security Testing
                             R-2 — Complete the Payment Card Industry Compensating Controls Worksheet. TID: June 2008




                                                                                                                                                                              53
APPENDIX E

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



                                        Report Title, Recommendation Summary
                                                    R = Recommendation number
 Report Number         Issue Date                   TID = Target Implementation Date
 SA-AR-07-002          3/30/2007        Postal Service Security Controls and Processes for the Capital Metro Area
                                        R-1 — Provide consolidated standard operating procedures and guidance to assist in performing duties and responsibilities consistently
                                        and in a timely manner. TID: July 2008
                                        R-2 — Establish and implement appropriate internal controls, such as an internal review and approval process, to ensure that security personnel
                                        complete facility security surveys (FSS) accurately and in a timely manner. TID: October 2008
                                        R-3 — Establish a formal process for conducting FSSs, including timeframes for addressing deﬁciencies and follow-up reviews. TID: October 2008
                                        R-4 — Establish requirements for mandatory security training including periodic refresher training, for responsible security personnel at the area-,
                                        district-, and facility-levels. TID: January 2009
                                        R-5 — Develop performance measures to assess the achievement of security goals. TID: January 2009
 NL-AR-07-004          4/20/2007        Surface Transportation - Processing and Distribution Center Transportation Routes – Southwest Area
                                        R-1 — Verify the actual cancellation, modiﬁcation, or substitution of the 32 trips with which Postal Service managers agreed.
                                        TID: May 2007 (management has not provided a revised date)
 NO-AR-07-004          4/25/2007        Efﬁciency Review of the Bridgeport Processing and Distribution Facility – Bridgeport, Connecticut
                                        R-1 — Consolidate the Bridgeport Processing and Distribution Facility’s incoming mail processing operations into the Stamford Processing and
                                        Distribution Center. TID: Not provided
 SA-AR-07-003          5/9/2007         Postal Service Security Controls and Processes for the Paciﬁc Area
                                        R-1 — Establish and implement appropriate internal controls (such as an internal review and approval process) to ensure security personnel
                                        complete facility security surveys accurately and in a timely manner. TID: October 2008
                                        R-2 — Develop appropriate performance measures for physical security to assess the achievement of security goals and incorporate them into
                                        performance plans for area-, district-, and ﬁeld-level security personnel. TID: January 2009
 HM-AR-07-002          5/16/2007        Postal Service’s Workplace Safety and Workplace-Related Injury Reduction Goals and Progress
                                        R-1 — Closely monitor conversion to the SAP Environmental Health and Safety module. Ensure the upgraded system captures costs by facility,
                                        district/performance cluster, and area ofﬁce, as well as the costs for identiﬁed key categories. TID: March 2009
 DR-MA-07-004          6/14/2007        Management of Retail Work Hours in Relation to the Workload for Mobile Units – Triboro District
                                        R-1 — Revise the Handbook for Retail Operations, to include standard procedures for mobile units. TID: December 2008
                                        R-2 — Distribute the revised Handbook for Retail Operations to Area ofﬁcials for implementation. TID: December 2008
 NL-AR-07-005          6/15/2007        Vehicle Management - National Trailer Lease Renewal – Southwest Area
                                        R-1 — Strengthen management control over National Trailer Lease equipment allocated to the Southwest Area. TID: Not provided
                                        R-2 — Analyze the number of trailers needed to transport mail and equipment and return unneeded trailers. TID: Not provided
                                        R-3 — Analyze storage requirements and procure storage space in the most cost-effective manner. TID: Not provided
 EN-MA-07-001          6/26/2007        Area Mail Processing Initiation Process
                                        R-1 — Validate current consolidation opportunities with changes in the network realignment strategy. TID: June 2008
                                        R-2 — Revise Area Mail Processing Guidelines to integrate the “bottom-up” and “top-down” approaches to identifying consolidation opportunities.
                                        TID: April 2008
 EN-AR-07-003          7/18/2007        Bronx, New York, Processing and Distribution Center Consolidation
                                        R-1 — Revise Area Mail Processing Guidelines to include a more objective and supportable method for determining workhours required to process
                                        mail volume transferred between mail processing facilities. TID: April 2008
 IS-AR-07-012          7/25/2007        Review of Controls Over Postal Inspection Service Network Switches
                                        R-2 — Apply the updated hardening standards and guidelines. TID: May 2008




54
                                                                                                                                                                    APPENDIX E

                                                                                                                         Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                                October 1, 2007 — March 31, 2008



                             Report Title, Recommendation Summary
                                         R = Recommendation number
Report Number   Issue Date               TID = Target Implementation Date
EN-AR-07-004    8/14/2007    Post-Implementation Reviews of the Marina Processing and Distribution Center Area Mail Processing Consolidation
                             R-2 — Clarify the Area Mail Processing (AMP) Guidelines to identify and use the most current four postal quarters prior to the AMP
                             submission as a source for review baseline data. TID: April 2008
                             R-3 — Include a description of other cost-saving initiatives underway concurrently with the consolidation in the review. TID: April 2008
                             R-4 — Establish a more rigorous review process to more effectively identify misstatements and errors in methodology. TID: April 2008
IS-AR-07-016    8/20/2007    Audit of Database Administration Practices
                             R-2 — Establish policies and procedures for the protection and use of sensitive data in the test, development, and production environments.
                             TID: September 2008
CA-MA-07-005    8/2/2007     Commodity Sourcing Activities Within the Automation Category Management Center
                             R-1 — Explore options for developing alternative sources for mail automation equipment. TID: October 2008
                             R-2 — Negotiate mail automation technology rights that protect the Postal Service in the event of supplier debarment or suspension, while staying
                             within the scope of existing and new technology protection clauses. TID: Management working on closure request
                             R-3 — Obtain cost or pricing data when negotiating noncompetitive, share-in-savings, incentive-type contracts for mail automation equipment.
                             TID: September 2008
IS-AR-07-017    8/29/2007    Separation of Duties at the Eagan, Minnesota; San Mateo, California; and St. Louis, Missouri Information Technology and
                             Accounting Service Centers
                             R-1 — Assess the risk of the duties of all Information Technology and Accounting Service Center positions for the purpose of assigning these
                             positions as sensitive. TID: March 2008 (management has not provided a revised date)
                             R-4 — Coordinate with the Inspection Service to ensure the proper clearance level is attributed to employees. TID: September 2008
DA-AR-07-005    9/10/2007    Automated Flat Sorting Machine 100 Enhancements
                             R-3 — Establish formal procedures for validating baseline throughput ﬁgures. TID: April 2008
DA-MA-07-002    9/13/2007    St. Louis Equipment Maintenance and Waste Disposal
                             R-1 — Continue to support initiatives for an effective maintenance program and formalize the training initiatives, including speciﬁc
                             timeframes for completion. TID: September 2008
DR-MA-07-005    9/21/2007    Maintenance and Repair Payments to Commercial Vendors Using Postal Service Form 8230, Authorization for Payment
                             R-6 — Eliminate one clerk position at the San Mateo Accounting Center through attrition. TID: June 2008
HM-AR-07-004    9/26/2007    The Postal Service’s Comprehensive Strategic Workforce Plan
                             R-1 — Develop guidance and procedures for creating a comprehensive strategic workforce plan to address current and future workforce
                             requirements. TID: December 2008
                             R-2 — Coordinate the agency-wide development and implementation of the comprehensive strategic workforce plan with the vice presidents
                             responsible for human capital issues and other vice presidents responsible for workforce planning and operations. TID: December 2008
NL-AR-07-007    9/27/2007    Postal Vehicle Service Transportation Routes – Milwaukee Processing and Distribution Center
                             R-1 — Verify elimination of the 11,283 hours that management agreed to remove from trip schedules. TID: April 2008




                                                                                                                                                                                 55
APPENDIX E

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



                                        Report Title, Recommendation Summary
                                                    R = Recommendation number
 Report Number         Issue Date                   TID = Target Implementation Date
 FF-AR-07-254          9/28/2007        Audit Report - Chicago District Financial Accountability
                                        R -1 — Develop and implement a mandatory ﬁnancial training program for all unit managers and supervisors. TID: September 2008
                                        R-2 — Establish a system to monitor compliance with ﬁnancial procedures, establish, and enforce accountability for non-compliance.
                                        TID: April 2008
                                        R-3 — Collect cash/stamp shortages and post ofﬁce box/caller service fees identiﬁed in the individual site memoranda, as appropriate.
                                        TID: April 2008
                                        R-5 – Provide a quarterly and annual summary of unit compliance with ﬁnancial procedures regarding remediation of the ﬁndings contained
                                        in this report. TID: October 2008
                                        R-6 — Monitor monthly compliance with the cash deposit procedures for the Grand Crossing Station, until remediation of the issue has been
                                        maintained for 12 months. TID: August 2008
 MS-AR-07-004          9/28/2007        Postal Service Passport Program
                                        R-1 — Develop a reconciliation process to ensure that both the Postal Service’s Facilities Database and the Department of State’s database contain
                                        identical passport acceptance facilities information. TID: Management working on closure request
 NL-AR-07-008          9/28/2007        The Impact of Transportation on Chicago District Performance
                                        R-1 — Analyze Chicago District operations to identify excess postal vehicle resources. TID: Not provided
                                        R-2 — Improve communication and coordination between processing facilities and local post ofﬁces by improving local transportation planning and
                                        scheduling. TID: Not provided
                                        R-3 — Require managers to plan transportation between the two facilities and properly account for mail in trailers. TID: Not provided
                                        R-4 — Improve data collection by properly supervising employees and properly training employees on the Surface Visibility system.
                                        TID: Not provided
 NL-AR-07-009          9/28/2007        Vehicle Management — National Trailer Lease Renewal — Paciﬁc Area
                                        R-1 — Strengthen management control over National Trailer Lease equipment allocated to the Paciﬁc Area. TID: March 2008 (management has
                                        not provided a revised date)
                                        R-2 — Analyze the number of trailers needed to transport mail and equipment. Return unneeded trailers. TID: March 2008 (management has not
                                        provided a revised date)
                                        R-3 — Analyze the number of 28-foot trailers needed, ﬁll operational requirements with 53-foot trailers where feasible, and return unneeded
                                        equipment to the leasing contractor. TID: March 2008 (management has not provided a revised date)
                                        R-4 — Analyze storage requirements and procure storage space in the most cost-effective manner. TID: March 2008 (management has not
                                        provided a revised date)
 NO-AR-07-012          9/28/2007        Timeliness of Mail Processing at the Chicago, Illinois, Cardiss Collins, Processing and Distribution Center
                                        R-1 — Monitor delayed mail on a daily basis and develop action plans to ensure timely processing of the mail. TID: Not provided (follow-up work
                                        will be done by September 2008)
                                        R-2 — Ensure supervisors are properly trained and held accountable for results in their operations. TID: Not provided
                                        R-3 — Establish performance goals for employees, monitor achievement of those goals, and rate performance based on goals. TID: Not provided
                                        R-4 — Ensure timely and proper preventive maintenance is conducted. TID: Not provided
                                        R-5 — Ensure proper stafﬁng and use of overtime in relation to workload. TID: Not provided
                                        R-6 — Ensure proper plans are developed and followed for events that will affect mail processing operations. TID: Not provided (follow-up work will
                                        be done by September 2008)
                                        R-7 — Develop contingency plans in the event that mail cannot be processed at the Cardiss Collins Processing and Distribution Center.
                                        TID: Not provided (follow-up work will be done by September 2008)
                                        R-8 — Provide constant supervision to improve the timely processing of the mail. TID: Not provided




56
                                                                                                                                                                     APPENDIX E

                                                                                                                          Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                                 October 1, 2007 — March 31, 2008



                             Report Title, Recommendation Summary
                                          R = Recommendation number
Report Number   Issue Date                TID = Target Implementation Date
DR-AR-07-016    9/29/2007    Implementation and Utilization of the Growth Management Tool
                             R-1 — Update Delivery and Retail Growth and Delivery Point Management Standard Operating Procedures. TID: July 2008
DR-AR-08-001    10/11/2007   Timely City Delivery — Chicago District
                             R-1 — Implement Delivery Standard Operating Procedures in all delivery units. TID: Not provided
                             R-2 — Provide appropriate oversight to ensure delivery unit Standard Operating Procedures are in place, operating as intended, and
                             achieving desired results. TID: Not provided
                             R-3 — Validate that the Chicago District has implemented Delivery Standard Operating Procedures in all delivery units. TID: Not provided
                             R-4 — Provide appropriate oversight to ensure the Chicago District is monitoring delivery unit performance. TID: Not provided
EN-MA-08-001    10/19/2007   Automated Area Mail Processing Worksheets
                             R-1 — Enhance Area Mail Processing guidelines to use facility-speciﬁc historical productivity rates. TID: April 2008
                             R-2 — Analyze Highway Contract Route (HCR) variable and ﬁxed–cost data to determine the average price to mileage increase ratio. TID: April 2008
                             R-3 — Document major concerns and input provided by stakeholders. TID: April 2008
                             R-10 — Include speciﬁc instructions to retain all documentation and reports used to complete the area mail processing proposal. TID: April 2008
HM-AR-08-002    11/2/2007    The Postal Service’s Violence Prevention and Response Programs in Three Southeast Area Performance Clusters
                             R-1 — Implement an internal control to ensure current zero tolerance policy is properly posted in all facilities, at least annually. TID: May 2008
                             R-2 — Update the zero tolerance policy to include the lead plant managers’ signatures. TID: May 2008
                             R-5 — Instruct Human Resources managers of their responsibility to conduct periodic reviews to determine if management has met the mandatory
                             workplace violence awareness training requirements for all employees; implement a control to determine which managers and supervisors did not
                             receive the violence awareness training. TID: May 2008
                             R-7 — Implement a control to ensure threat assessment teams comply with the Threat Assessment Team Guide when responding to and assessing
                             reports of potentially violent situations and inappropriate behavior. TID: May 2008
                             R-8 — Direct the threat assessment teams to review the incidents that had insufﬁcient supporting documentation and determine if they were
                             resolved in accordance with the Threat Assessment Team Guide. TID: May 2008
                             R-9 — Direct Performance Cluster managers to ensure the threat assessment teams document their evaluations of climate indicators to identify
                             trends and potential hotspots. TID: May 2008
                             R-11 — Implement controls to ensure threat assessment teams document the processes used to measure the team’s performance and ensure the
                             measurements used are adequate for determining success and identifying areas for improvement. TID: May 2008
                             R-12 — Implement an internal control to ensure Performance Cluster managers provide adequate oversight of their threat assessment teams to
                             improve the effectiveness of the violence prevention and response programs. TID: May 2008




                                                                                                                                                                                  57
APPENDIX E

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



                                        Report Title, Recommendation Summary
                                                     R = Recommendation number
 Report Number         Issue Date                    TID = Target Implementation Date
 HM-AR-08-003          11/7/2007        The Postal Service’s Violence Prevention and Response Programs in Three Southwest Area Performance Clusters
                                        R-1 — Implement an internal control to ensure current zero tolerance policy is properly posted in all facilities, at least annually. TID: May 2008
                                        R-3 — Notify Performance Cluster managers that workplace violence awareness training is a ﬁscal year mandatory requirement; and it is their
                                        responsibility to ensure that training occurs. TID: May 2008
                                        R-4 — Determine which managers, supervisors, and 204b supervisors have not received the 8-hour (one-time) workplace violence awareness
                                        training; and provide the training as soon as possible. TID: May 2008
                                        R-5 — Instruct Human Resources managers of their responsibility to conduct periodic reviews to determine if management has met the mandatory
                                        workplace violence awareness training requirements for all employees; and to determine which managers and supervisors did not receive training.
                                        TID: May 2008
                                        R-7 — Implement a control to ensure threat assessment teams comply with the Threat Assessment Team Guide when responding to and assessing
                                        reports of potentially violent situations and inappropriate behavior. TID: May 2008
                                        R-8 — Direct the threat assessment teams to review the incidents that had insufﬁcient or no supporting documentation and determine if they were
                                        resolved in accordance with the Threat Assessment Team Guide. TID: May 2008
                                        R-9 — Ensure threat assessment teams document their evaluations of climate indicators to identify trends and hotspots. TID: May 2008
                                        R-11 — Ensure threat assessment teams implement performance measures that gauge whether the team’s efforts and processes to prevent
                                        violent incidents in the workplace are successful or need improvement. TID: May 2008
                                        R-12 — Implement controls to ensure threat assessment teams document the processes used to measure the teams’ performance, as required
                                        by the Threat Assessment Team Guide, and ensure the measurements used are adequate for determining success and identifying areas for
                                        improvement. TID: May 2008
                                        R-13 — Implement an internal control to ensure Southwest Area Performance Cluster managers provide adequate oversight of their threat
                                        assessment teams to improve the effectiveness of the violence prevention and response programs. TID: May 2008
                                        R-14 — Ensure management implements adequate controls. TID: May 2008
 IS-AR-08-002          11/6/2007        Information Systems Access Controls at Selected Information Technology Facilities for Fiscal Year 2007
                                        R-2 — Reconcile the number of users between two applications and disable all unused or inactive accounts. TID: February 2008 (management
                                        has not provided a revised date)
                                        R-5 — Change the password expiration and password length default settings to comply with Postal Service policy. TID: February 2008
                                        (management has not provided a revised date)
 MS-AR-08-001          11/8/07          Review of Postal Service First-Class Permit Reply Mail
                                        R-1 — Revise Domestic Mail Manual nonmachinable criteria. TID: Management working on closure request
                                        R-2 — Notify affected mailers that their two-way Digital Video Disk return mailpieces must be tested by Postal Service Engineering staff to ensure
                                        that the affected mailpieces are machinable, or be subject to the $0.17 nonmachinable surcharge. TID: Management working on closure request
                                        R-3 — Ensure Business Mail Entry Unit employees begin collecting the $0.17 per piece nonmachinable surcharge for all affected mailpieces.
                                        TID: Management working on closure request




58
                                                                                                                                                                     APPENDIX E

                                                                                                                          Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                                 October 1, 2007 — March 31, 2008



                             Report Title, Recommendation Summary
                                          R = Recommendation number
Report Number   Issue Date                TID = Target Implementation Date
HM-AR-08-004    11/13/2007   The Postal Service’s Violence Prevention and Response Programs in Two Paciﬁc Area Performance Clusters
                             R-1 — Implement an internal control to ensure current zero tolerance policy is properly posted in all facilities, at least annually. TID: June 2008
                             R-2 — Notify Performance Cluster managers that workplace violence awareness training is a ﬁscal year mandatory requirement and it is their
                             responsibility to ensure that training occurs — preferably during non-peak operational periods. TID: October 2008
                             R-3 — Determine which managers and supervisors have not received the 8-hour (onetime) workplace violence awareness training, and provide the
                             training as soon as possible. TID: September 2008
                             R-4 — Direct Performance Cluster managers to ensure the remaining managers and supervisors receive the 8-hour (one-time) workplace violence
                             awareness training as soon as possible. TID: April 2008
                             R-5 — Instruct Human Resources managers of their responsibility to conduct periodic reviews (at least quarterly); determine if management
                             has met the mandatory workplace violence awareness training requirements for all employees (special supervisors) and threat assessment team
                             members; implement a control to ensure Human Resources managers conduct periodic reviews. TID: October 2008
                             R-7 — Implement a control to ensure threat assessment teams comply with the Threat Assessment Team Guide when responding to and assessing
                             reports of potentially violent situations and inappropriate behavior. TID: September 2008
                             R-8 — Direct the threat assessment team to review the incidents that had insufﬁcient supporting documentation and determine if they were
                             resolved in accordance with the Threat Assessment Team Guide. TID: June 2008
                             R-9 — Ensure the threat assessment teams document their evaluations of climate indicators to identify trends and potential hotspots.
                             TID: June 2008
                             R-11 — Ensure the threat assessment team has the requisite number and type of threat assessment team members.
                             TID: March 2008 (management working on closure request)
                             R-12 — Implement controls to ensure the threat assessment team document the processes used to measure the team’s performance, as required
                             by the Threat Assessment Team Guide; and ensure the measurements used are adequate for determining success and identifying areas for
                             improvement. TID: September 2008
                             R-13 — Implement an internal control to ensure Performance Cluster managers provide adequate oversight of their threat assessment teams to
                             improve the effectiveness of violence prevention and response programs. TID: October 2008
                             R-14 — Ensure management implements adequate controls. TID: October 2008
FT-AR-08-001    11/15/2007   Manual Transportation Payments
                             R-2 — Communicate policies and procedures to appropriate personnel. TID: June 2008
MS-AR-08-002    11/16/2007   Function 4 Business Plan Process
                             R-1 — Adhere to the Function 4 on-site review schedule and ensure qualiﬁed teams are available to conduct scheduled reviews. TID: July 2008
                             R-2 — Monitor performance and track adherence to the approved Function 4 Business Plans. TID: July 2008
                             R-3 — Provide Automated Workforce Projection System training to ensure awareness of the requirements to update the system with the Function 4
                             on-site and administrative reviews. TID: July 2008
                             R-4 — Update the Automated Workforce Projection System workload annually for every unit. TID: July 2008
FF-AR-08-030    11/29/2007   Postal Accountability and Enhancement Act, Section 709, Assessment of Certain Rate Deﬁciencies
                             R-1 — Update guidance to improve the revenue deﬁciency monitoring and collection process; and to reﬂect current Postal Service regulations,
                             terminology, and accounting codes. TID: June 2008
                             R-2 — Clarify and communicate the 12-month time limit for assessing revenue deﬁciencies to appropriate ofﬁcials and mailers. TID: June 2008
SA-AR-08-003    12/19/2007   Postal Inspection Service Security Controls and Processes
                             R-1 — Assess the allocation of resources to ensure the appropriate assignment of personnel to effectively and efﬁciently perform security surveys
                             and reviews. TID: Not provided
DA-AR-08-001    1/8/2008     Review of Ventilation Filtration System Utilization
                             R-1 — Develop and implement a mechanical lockout device for the VFS control panel. This will limit control panel access for making operating
                             mode changes to authorized personnel. TID: June 2008




                                                                                                                                                                                   59
APPENDIX E

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



                                        Report Title, Recommendation Summary
                                                    R = Recommendation number
 Report Number         Issue Date                   TID = Target Implementation Date
 HM-AR-08-005          1/14/2008        The Postal Service’s Violence Prevention and Response Programs in Four Northeast Area Performance Clusters
                                        R-3 — Notify Performance Cluster managers that workplace violence awareness training is a ﬁscal year mandatory requirement, and it is
                                        their responsibility to ensure training occurs, preferably during non-peak operational periods. TID: March 2008 (management has not
                                        provided a revised date)
                                        R-9 — Implement a control to ensure threat assessment teams comply with the Threat Assessment Team Guide when responding to and assessing
                                        reports of potentially violent situations and inappropriate behavior. TID: March 2008 (management has not provided a revised date)
                                        R-10 — Direct threat assessment teams to review the incidents that had insufﬁcient supporting documentation and determine if they were resolved
                                        in accordance with the Threat Assessment Team Guide. TID: March 2008 (management has not provided a revised date)
                                        R-11 — Ensure the threat assessment teams document their evaluations of climate indicators to identify trends and potential hotspots.
                                        TID: March 2008 (management has not provided a revised date)
                                        R-14 — Implement controls to ensure teams document the process used to measure team’s performance and ensure they are adequate for
                                        determining success and identifying areas for improvement. TID: March 2008 (management has not provided a revised date)
 FT-AR-08-005          1/24/2008        New York International Service Center — Inbound International Mail
                                        R-1 — Establish and communicate policies and procedures to address the complete processing and billing cycle for inbound international mail.
                                        TID: March 2009
                                        R-2 — Evaluate, modify, and test the program used to prepare inbound Express Mail data for billing. TID: March 2008 (management has not
                                        provided a revised date)
                                        R-3 — Direct International Accounting Branch and appropriate systems personnel to establish controls to ensure that foreign postal administrations
                                        are correctly billed for all valid dispatches, including dispatch numbers used more than once in a calendar year. TID: December 2008
 IS-AR-08-004          2/6/2008         Enterprise Payment Switch Solution Phase III: Security Testing
                                        R-1 — Complete the Information Security Assurance process in accordance with Postal Service policy. TID: February 2008 (management has not
                                        provided a revised date)
                                        R-2 — Review the Information Security Assurance document package completed in Recommendation 1 to ensure compliance with Postal Service
                                        and Payment Card Industry security requirements. TID: February 2008 (management has not provided a revised date)
                                        R-3 — Include in the Postal Service’s 2007 Payment Card Industry Report on Compliance a description of planned actions for all uncorrected risks
                                        identiﬁed by the Information Security Assurance process. TID: January 2008 (management has not provided a revised date)
 CRR-AR-08-002         2/12/2008        Security Review of the Electronic Veriﬁcation System
                                        R-2 — Revise Publication 91, Conﬁrmation Services Technical Guide, to require mailers to utilize a secure ﬁle transfer method when transmitting
                                        manifests for electronic veriﬁcation to the Postal Service. TID: September 2008
 DA-AR-08-002          2/15/2008        Equipment Maintenance Opportunities
                                        R-1 — Develop an automated system support solution for production-based maintenance to facilitate daily maintenance routines. TID: May 2008
                                        R-3 — Provide training to ﬁeld maintenance supervisors on production-based maintenance capabilities, usage, and beneﬁts. TID: May 2008
                                        R-4 — Require site maintenance managers to adhere to requirements to implement production-based maintenance. TID: Not provided
 FT-AR-08-008          2/15/2008        Postal Service Board of Governors’ Travel and Miscellaneous Expenses for Fiscal Year 2007
                                        R-1 — Implement and communicate formal, written policies and procedures for processing Board of Governors’ travel vouchers,
                                        including requirements for payment with only two original signatures, to all applicable personnel. TID: March 2008 (management has
                                        not provided a revised date)
 NL-AR-08-002          2/19/2008        Air Networks — Federal Express Transportation Agreement – Paciﬁc Area
                                        R-1 — Use surface transportation to move mail that does not require air transportation to meet Postal Service on-time standards.
                                        TID: March 2008 (management has not provided a revised date)
                                        R-3 — Maximize the use of bypass containers by using bypass sorting as much as possible at processing plants and by dispatching mail to airports
                                        in time for terminal handling service contractors to load it into bypass containers. TID: Not provided




60
                                                                                                                                                                 APPENDIX E

                                                                                                                        Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                               October 1, 2007 — March 31, 2008



                             Report Title, Recommendation Summary
                                         R = Recommendation number
Report Number   Issue Date               TID = Target Implementation Date
HM-MA-08-001    2/21/2008    The Postal Service’s Equal Employment Opportunity Contracting Function
                             R-1 — Fully document the processes and procedures used to select EEO contract investigation and ﬁnal agency decision letter writing services.
                             TID: September 2008.
EN-AR-08-002    2/29/2008    St. Louis Airport Mail Center Outsourcing
                             R-2 — Establish a post-implementation review program for Airport Mail Centers (AMC) that compares anticipated savings with actual results.
                             TID: March 2008 (management has not provided a revised date)
                             R-3 — Conduct a post-implementation review for the St. Louis AMC closure and outsourcing initiative using the guidance established in
                             recommendation 2. TID: Not provided
DR-AR-08-004    3/4/2008     City Delivery Vehicle Mileage — Base Versus Actual — National Capping Report
                             R-2 — Revising the Automated Vehicle Utilization System to eliminate the possibility of negative miles being recorded by modifying the system to
                             prevent input of the ending mileage being less than the beginning mileage. TID: Not provided
IS-AR-08-006    3/6/2008     Identity Theft Potential in Postal Service Information Systems
                             R-1 — Ensure that employees and contractors accessing identiﬁed systems have the appropriate security clearance and that the clearance status
                             is documented with the access request. TID: September 2008
                             R-3 — Establish and implement host encryption solutions for data back-up dates prior to off-site shipping and storage. TID: May 2008
IS-AR-08-008    3/11/2008    National Accounting Oracle Financials Application Data Encryption Follow-Up
                             R-2 — Perform veriﬁcation tests to ensure management identiﬁes and adequately protects all sensitive information in accordance with policy.
                             TID: March 2008 (management has not provided a revised date)
IS-AR-08-009    3/14/2008    Update Processes for Active Directory and CA-ACF2
                             R-1 — Review the manager roles in the two systems to determine how these roles can be integrated. TID: May 2008
                             R-2 — Review the capabilities and establish requirements for tracking employees assigned to detail positions and how to pass on timely and
                             accurate data to another system. TID: December 2008
                             R-3 — Develop and implement planned enhancement that will ensure access reviews take place when signiﬁcant changes occur in job
                             assignments. TID: May 2008
FF-AR-08-131    3/19/2008    Fiscal Year 2007 Financial Installation Audits — Business Mail Entry Units
                             R-1 — Provide proper management oversight and instructions to schedule periodic veriﬁcations when Periodicals mailings are received during non-
                             business hours. TID: September 2008
                             R-2 — Develop and implement an action plan to measurably reduce the current deﬁciency and its likelihood of continuing. TID: September 2008
                             R-3 — Properly train all employees, including supervisors, who accept business and Periodicals mail. TID: September 2008
                             R-4 — Review existing policies and procedures for consistency. TID: September 2008
MS-AR-08-003    3/19/2008    Local Stamps on Consignment Programs
                             R-1 — Provide information about local Stamps on Consignment programs to the Manager, Retail Access Channels. TID: Not provided
                             R-2 — Terminate existing local Stamps on Consignment agreements, incorporate them into the national program, and collect the past due amounts
                             that consignees owe the Postal Service for stamp consignments. TID: Not provided
DA-AR-08-003    3/20/2008    Northern Virginia District Energy Management Savings Opportunities
                             R-1 — Establish energy awareness programs. TID: Not provided
                             R-2 — Explore the use of low- and no-cost energy conservation initiatives. TID: Not provided
                             R-3 — Direct applicable personnel to perform periodic walk-through inspections at facilities to measure compliance with energy
                             management program initiatives. TID: June 2008
                             R-4 — Direct applicable personnel to review and monitor energy bills to ensure accuracy and to review the adequacy of rate plans.
                             TID: Not provided




                                                                                                                                                                                61
APPENDIX E

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



                                        Report Title, Recommendation Summary
                                                    R = Recommendation number
 Report Number         Issue Date                   TID = Target Implementation Date
 CA-AR-08-006          3/21/2008        Voyager Card Program
                                        R-1 — Reiterate to district personnel the importance of complying with Voyager Card policies and procedures. TID: Not provided
                                        R-2 — Direct district personnel to provide sufﬁcient oversight of their Voyager Card Programs. TID: Not provided
 MS-MA-08-001          3/26/2008        Review of Business Over the Counter
                                        R-1 — Add language to Postal Service (PS) Form 3849, “Sorry We Missed You,” to make customers aware they can request redelivery through
                                        USPS.com and the contact center. TID: May 2008
                                        R-2 — Add language to PS Form 8076, “Authorization to Hold Mail,” to make customers aware they can place mail on hold through USPS.com and
                                        the contact center. TID: June 2008
                                        R-3 — Use advertisements to inform customers that hold mail and redelivery services are available via USPS.com and the contact center.
                                        TID: Not provided
 NL-AR-08-003          3/26/2008        Postal Vehicle Service Transportation Routes – San Francisco Processing and Distribution Center
                                        R-1 — Verify elimination of the 26,698 hours that management agreed to remove from trip schedules. TID: May 2008
                                        R-2 — Coordinate and conduct a zero-base review to determine if all facility driver tasks are necessary, determine how much time is necessary for
                                        drivers to perform the tasks, and adjust driver schedules accordingly. TID: May 2008
 NO-AR-08-003          3/28/2008        Summary Audit on the Timeliness of Mail Processing, Transportation, and Delivery Operations in the Chicago District
                                        R-1 — Monitor the processing and delivery of mail to ensure these operations are timely. TID: Not provided
                                        R-2 — Conduct safety talks, correct potential hazards, and follow up on limited duty employees and unscheduled absences. TID: Not provided
                                        R-3 — Reduce workhours by 697,245 by ﬁscal year 2017. TID: Not provided
                                        R-4 — Improve delivery operations efﬁciency by improving supervision and holding employees accountable. TID: Not provided
 NL-AR-08-004          3/29/2008        Vehicle Management — Unsecured Trailers — San Francisco Processing and Distribution Center
                                        R-1 — Secure Postal Service property and equipment stored on the unsecured lot have damaged or defaced trailers repaired or removed from
                                        operation. TID: Not provided
 CRR-AR-08-003         3/31/2008        Application Controls Review of the Electronic Veriﬁcation System
                                        R-1 — Re-evaluate all warning messages in the Product Tracking System to determine whether they impact the postage calculation.
                                        TID: March 2009
                                        R- 2 — Strengthen the edit rules in the Product Tracking System to enforce the requirements for destination entry discounts. TID: June 2009
                                        R-3 — Develop and implement formal procedures for sampling and monitor delinquent sampling. TID: December 2009
                                        R-5 — Develop reconciliation solution. TID: September 2008
 CRR-AR-08-004         3/31/2008        In-Ofﬁce Cost System Telephone Readings
                                        R-1 — Expand existing quality control programs to assist area and district management with identifying and monitoring data collectors with a high
                                        number of inaccurate In-Ofﬁce Cost System readings. TID: December 2008
                                        R-4 — Implement the expanded quality control program developed by Statistical Programs to identify and monitor data collectors with a high
                                        number of inaccurate In-Ofﬁce Cost System readings. TID: December 2008
                                        R-5 — Follow the quality control procedures Statistical Programs has established to handle the In-Ofﬁce Cost System readings that do not meet
                                        data integrity standards to prevent such data from inclusion in national aggregation. TID: December 2008
 FT-AR-08-010          3/31/2008        Fiscal Year 2007 Postal Service Financial Statements Audit — St. Louis Information Technology and Accounting Service Center
                                        R-1 — Implement and communicate complete written policies and procedures to require employees to enter and update rates timely, to obtain
                                        support for rates as necessary, and periodically verify international rates. TID: Not provided
                                        R-2 — Modify policies and procedures to include the destination facility validation in the highway extra trips payment process. TID: June 2009




62
                                                                                                                                                                   APPENDIX F

                                                                                                                           Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                                  October 1, 2007 — March 31, 2008



                                  Report Title, Recommendation Summary
                                              R = Recommendation number
 Report Number      Issue Date                TID = Target Implementation Date
 MS-AR-08-004       3/31/2008     Click-N-Ship Program
                                  R-1 — Disable customers’ ability to print labels without purchasing postage from the Click-N-Ship application. TID: May 2008
                                  R-2 — Emphasize Click-N-Ship Website instructions. TID: June 2008
                                  R-3 — Communicate Postal Service policies and procedures to affected employees pertaining to items with omitted postage, insufﬁcient postage,
                                  and mailed with stale dates. TID: May 2008
                                  R-4 — Strengthen policies and procedures to include methods to detect packages retrieved from collection boxes with omitted postage and with
                                  stale dates. TID: May 2008
                                  R-5 — Educate delivery and retail employees on policies and procedures relating to accepting Click-N-Ship packages mailed with omitted postage,
                                  insufﬁcient postage, and with stale dates. TID: May 2008
                                  R-6 — Provide instructions on the SCAN form for delivery and retail employees to follow when handling Click-N-Ship items. TID: June 2008
                                  R-7 — Educate delivery and retail employees on SCAN forms when accepting Click-N-Ship packages. TID: April 2008
                                  R-8 — Consolidate the three Click-N-Ship merchant identiﬁcation numbers into one. TID: September 2008
                                  R-9 — Develop written policies and procedures for the Click-N-ship program ofﬁce. TID: September 2008




APPENDIX F
Signiﬁcant Management Decisions in Audit Resolution
For the period October 1, 2007 — March 31, 2008

As required by the IG Act, the following page discusses information concerning any signiﬁcant management decision with which the Inspector General disagrees
and is currently in audit resolution.

Status

The OIG has no signiﬁcant management decisions in audit resolution as of March 31, 2008.




                                                                                                                                                                                  63
APPENDIX G

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



APPENDIX G
Investigative Statistics1
For the period October 1, 2007 — March 31, 2008

                                                                                                                  Internal        Ofﬁcial
                                               Contract Fraud        Financial Fraud        Health Care Fraud    Mail Theft   Misconduct        TOTAL
 Investigations completed                                      69                   422                   724          945          1,594         3,754
 Arrests                                                        5                    99                    23          166           125           418
 Indictments/informations                                       3                    98                    21          151            87           360
                                2
 Convictions/pretrial diversions                                7                    75                    13          115            92           302
 Administrative actions taken                                  25                   181                   134          330           728          1,398
 Cost avoidance                                               —             $2,100,411             $95,495,877          —             —     $97,596,288
 Total ﬁnes, restitutions, and recoveries              3,466,719             2,068,429               6,175,255      251,769     1,643,815   $13,605,987
                                    3
     Amount to the Postal Service                      2,919,219             1,913,047               2,724,366      164,774     1,523,345    $9,244,750
 Cases referred to management for                             —                      —                     —            —             —           1,891
 administrative action


 1
   Statistics include joint investigations with other law enforcement agencies.
 2
   Convictions reported in this frame may be related to arrests made in prior reporting periods.
 3
   Amount included in ﬁnes, restitutions, and recoveries.




64
                                                                                                                                                                                           APPENDIX H

                                                                                                                                                   Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                                                          October 1, 2007 — March 31, 2008



APPENDIX H
Summary of U.S. Postal Inspection Service Actions Under 39 USC 3005 and 3007
For the period October 1, 2007 — March 31, 2008

The Postal Reorganization Act requires the Postmaster General to furnish information, on a semiannual basis, on the investigative activities of the Postal
Service by the U.S. Postal Inspection Service. With passage of the Deceptive Mail Prevention and Enforcement Act in December 1999, the Postal Service’s
reporting obligations were changed. The Act requires the Postal Service to submit its semiannual report on investigative activities to the OIG rather than to the
Governors, expands the subject matter that must be reported, and revises the reporting schedule to coordinate with the OIG Semiannual Report to Congress.
The information in the report includes actions directed at combating crimes involving the mail; costs and expenditures devoted to Inspection Service investigative
activities; use of subpoena power; and any additional information the OIG may require.

The following information summarizes the administrative and judicial actions initiated and resolved during the reporting period. These actions include the
issuance of cease and desist orders directed to mailers, actions to intercept payments fraudulently induced, and orders seeking to intercept fraudulent mailings.

                                                                                     Consent                               Cease &
 Type of Scheme                                  Complaints Filed                 Agreements              FROs        Desist Orders
 Advance fee                                                           3                        —               1                      1
 Contests/sweepstakes                                                  4                         1            —                        1
 Coupon fraud                                                          4                         4            —                        4
 False billings                                                        9                         6              3                      8
 Internet auction                                                      8                         3              4                      7       FY 2008 Financial Reporting
 Lotteries (foreign and domestic)                                      2                         1            —                        2       On Investigative Activities
 Medical                                                               5                        —             —                       —          Type
 Merchandise:                                                                                                                                    Personnel                                 $143,267,671
   Failure to furnish                                                  4                         1            —                        1         Nonpersonnel                               $24,789,227
   Failure to pay                                                     17                         7              1                      7         TOTAL                                    $168,056,898
   Misrepresentation                                                  10                        —             —                       —          Capital obligations                         $4,740,645
 Miscellaneous                                                        11                         3            —                        4
 Telemarketing                                                         2                         1              2                      2
 Work at home                                                         15                         5              4                      9
 TOTAL                                                               94                        32             15                     46


 Other Administrative Actions
 Administrative action requests                                                                                                       96
 Temporary restraining orders requested                                                                                               —
 Temporary restraining orders issued                                                                                                  —
 Cases using direct purchase authority                                                                                                 2
 Civil penalties (Section 3012) imposed                                                                                       $329,800
 Test purchases                                                                                                                    $204
 Withholding mail orders issued                                                                                                       79
 Voluntary discontinuances                                                                                                             8


Note:
1) There is a signiﬁcant increase in the number of subpoenas issued this past summer due to a growing increase in inbound foreign lottery solicitations mailed from Canada.
2) There is a signiﬁcant increase in the number of administrative actions and civil penalties due largely to renewed emphasis on that program by the Postal Service’s Ofﬁce of Counsel.




                                                                                                                                                                                                        65
APPENDIX H

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



Administrative Subpoenas Requested by the Inspection Service:
October 1, 2007 — March 31, 2008

 Defendant:                                                     Violation:                                                            Date Issued:          Date Returned:
 08-001 American Online, Inc.                                   39 USC 3005; 3016 Sweepstakes promotion                                    10/26/07                         —
 08-002 Electric Lightwave, Inc.                                36 USC 3005; 3016 false representation; invoice                            10/26/07                         —
 08-003 Fonorola Corporation                                    39 USC 3005; 301 Deceptive mailings                                        10/26/07                 Not served
 08-004 Lightyear Network Solutions, LLC                        39 USC 3005; 3016 Deceptive mailing; sweepstakes                           10/26/07                         —
 08-005 Lightyear Network Solutions, LLC (second submission)    39 USC 3005; Deceptive mailing; sweepstakes                                10/26/07                         —
 08-006 AdBoutique                                              39 USC 3005; 3016 Deceptive mailing                                        10/26/07                   12/5/07
 08-007 Clifford Robison                                        39 USC 3005; 3016 Deceptive mailing; sweepstakes                           10/18/07                   1/31/08
 08-008 Mastiff Consultants, Inc. (second submission)           39 USC 3005; 3016 Deceptive mailing; sweepstakes                            11/1907                  11/28/07
 08-009 Jo Lee Smith, and Smithhaven, Inc.                      39 USC 3005; 3016 Deceptive mailing; sweepstakes         Withdrawn; to be resubmitted                       —
                                                                                                                                   as two subpoenas
 08-010 Libbey J. Tiefer (International Express Awards, Inc.)   39 USC 3016; False representation; sweepstakes mailing                       12/4/07                  1/11/08
 08-011 U.S. Bank National Association                          39 USC 3016; False representation; sweepstakes mailing                       12/7/07                  1/14/08
 08-012 Todd Hoover                                             39 USC 3016; False representation; sweepstakes mailing                       12/7/07    To be personally served
 08-013 Scott Diltz                                             39 USC 3016; False representation; sweepstakes mailing                       12/7/07                    1/8/08
 08-014 Kevin Kasday (trustee for Greyhound Trust)              39 USC 3016; False representation; sweepstakes mailing                       12/7/07                    1/8/08
 08-015 Kelly Fyffe                                             39 USC 3016; False representation; sweepstakes mailing                       12/7/07                    1/8/08
 08-016 Alisa Williams                                          39 USC 3016; False representation; sweepstakes mailing                       12/7/07                    1/9/08
 08-017 Nicole Scott                                            39 USC 3016; False representation; sweepstakes mailing                       12/7/07                    1/9/08
 08-018 Jo Lee Smith                                            39 USC 3016; False representation; sweepstakes mailing                       12/7/07                  1/10/08
 08-019 Smithhaven, Inc                                         39 USC 3016; False representation; sweepstakes mailing                       12/7/07                  1/10/08
 08-020 Andrea Burrow                                           39 USC 3016; False representation; sweepstakes mailing                       12/7/07                  1/14/08
 08-021 Don Lyon                                                39 USC 3016; False representation; sweepstakes mailing                     12/10/07                   1/14/08
 08-022 Michael S. Fox                                          39 USC 3016; False representation; sweepstakes mailing                     12/10/07                     1/9/08
 08-023 Sheilah Williams                                        39 USC 3016; Sweepstakes Mailing                                           12/10/07                         —
 08-024 Paul Ivaska                                             39 USC 3016; False representation; sweepstakes mailing                     12/10/07                   1/24/08
 08-025 Pam Nagel                                               39 USC 3016; False representation; sweepstakes                             12/10/07                   1/18/08
 08-026 Transmonde USA, Inc. (Hartford Direct)                  39 USC 3016; Psychic scheme                                                  2/13/08                        —
 08-027 Prize Paradise, Inc.                                    39 USC 3016; False representation; sweepstakes                               3/27/08                        —
 08-028 Cashorama, Inc.                                         39 USC 3016; False representation; sweepstakes                               3/27/08                        —
 08-029 Elwood & Stanley, Inc.                                  39 USC 3016; False representation; sweepstakes                               3/27/08                        —




66
                                                                                                                                                                          APPENDIX I

                                                                                                                                Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                                       October 1, 2007 — March 31, 2008



APPENDIX I
Closed Congressional and Board of Governors Inquiries
For the Period October 1, 2007 — March 31, 2008

This appendix lists the Congressional and Board of Governors inquiries the OIG closed during this reporting period. We reviewed these inquiries to help identify
systemic issues and to determine the need for future Postal Service-wide audits. Inquiries are listed in the chronological order of receipt.

Investigations
 Requestor                    Allegation/Concern                                              Our Findings                                                              Closure Date
 Representative, New York     Unlicensed contractor illegally used another's New York State   Our investigation resulted in an arrest and a guilty plea. We provided         3/10/08
                              Alarm License to obtain work at a postal facility.              information on the resolution of the case to management.
 Senator, Massachusetts       Whistleblower reprisal after reporting waste and                We reviewed, found concerns communicated to us were not covered               11/14/07
                              mismanagement to the OIG.                                       by the Postal Service whistleblower protection rules. Employee
                                                                                              has pending Equal Employment Opportunity (EEO) complaints, we
                                                                                              declined additional work.
 Representative, Maryland     Management intentionally delayed or hid mail in trailers at     We investigated, did not substantiate allegations. However, we                10/25/07
                              multiple facilities.                                            identiﬁed signiﬁcant mail delay problems in the area and reported
                                                                                              our ﬁndings to management.
 Representative, Oversight    Fraud, waste, and abuse by a postal manager.                    We investigated, did not substantiate allegations.                            10/31/07
 Committee Ranking Member
 Representative, Florida      Management used forged and falsiﬁed records as a basis for      We investigated, found management followed proper regulations                  10/4/07
                              distributing federal retirement account beneﬁts and insurance   and procedures.
                              proceeds following the death of a postal employee.
 Representative, California   An employee intentionally delayed bulk political mail to help   We investigated, did not substantiate allegations.                             10/4/07
                              the local opposition party.
 Representative, New Jersey   Mishandling of mail at a P&DC.                                  We investigated, did not substantiate allegations. However,                   10/31/07
                                                                                              we found delayed mail problems and provided our ﬁndings to
                                                                                              district management.
 Representative, Florida      Mail tampering by an employee.                                  We investigated, did not substantiate allegations.                             10/4/07
 Senator, Florida             Retaliation for contacting Congress about                       We reviewed, found the case met none of the four necessary                    10/31/07
                              employment-related issues.                                      elements of whistleblower reprisal.
 Representative, Illinois     A Postmaster took mail and stole bank account                   Our investigation did not substantiate allegations and found no               10/10/07
                              information to sell to others.                                  similar complaints or instances of tampering or losses for this ZIP
                                                                                              Code; we noted the complainant refused to cooperate in procedures
                                                                                              to track and report lost mail.
 Representative, New Jersey   Lost or stolen Registered Mail originating in Israel.           We investigated. We could not determine the point where the loss              11/14/07
                                                                                              occurred; but we found no evidence of misconduct on the part of
                                                                                              postal employees and no pattern in the area.
 Representative, New York     Retaliation for contacting the OIG on workplace issues.         We reviewed, found case did not meet the four necessary                          2/6/08
                                                                                              elements of whistleblower reprisal.
 Senator, Massachusetts       Employment-related complaint.                                   The employee had a pending Equal Employment Opportunity                       10/22/07
                                                                                              complaint; we deferred any work pending the EEO review.
 Representative, California   In retaliation for reporting a physical assault, management     We investigated, did not substantiate allegations; we noted pay               11/30/07
                              withheld overtime pay.                                          errors had been corrected, and assisted in explaining earnings
                                                                                              statement to complainant.
 Representative, Virginia     Letter Carrier signed for but did not deliver a registered      We conﬁrmed the Letter Carrier signed for package, as a courtesy,              11/6/07
                              package; investigating agents harassed complainant.             which we reported to management. We found no misconduct on the
                                                                                              part of the Special Agents.
 Senator, California          Mail tampering by postmasters and employees of                  Our investigation did not substantiate allegations and found no similar       11/15/07
                              multiple post ofﬁces.                                           complaints, instances of tampering, or losses for these post ofﬁces.




                                                                                                                                                                                     67
APPENDIX I

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



 Requestor                      Allegation/Concern                                                 Our Findings                                                           Closure Date
 Representative, New York       Theft of greeting cards, possibly by a postal employee.            Our investigation revealed a postal employee had unauthorized               1/10/08
                                                                                                   possession of U.S. Mail and was stealing cash. We arrested
                                                                                                   the employee and provided our ﬁndings to management and
                                                                                                   the U.S. Attorney.
 Senator, Delaware              Theft of two parcels, both originating in the United Kingdom,      We investigated, found no evidence of misconduct or theft on the             1/7/08
                                possibly by a postal employee.                                     part of the postal employees, and unsuccessfully attempted to locate
                                                                                                   the missing items.
 Representative, Texas          Agent harassed subject of an investigation; request for            We investigated, found no evidence of misconduct on the part               10/30/07
                                expungement of investigatory records under the Privacy Act.        of the agent; we discretionarily chose to add subject's account
                                                                                                   to our database.
 Senator, Florida               Postal Service managers gave false testimony in connection         We were unable to investigate due to unwillingness of complainant          12/20/07
                                with a claim of discrimination ﬁled in an EEO case.                to cooperate with our agents.
 Senator, Florida               Postal Service managers gave false testimony in connection         We were unable to investigate due to unwillingness of complainant          12/20/07
                                with a claim of discrimination ﬁled in EEO case.                   to cooperate with our agents.
 Representative, Texas          A complainant sought to appeal ﬁndings from an investigation.      Our ofﬁce does not adjudicate appeals and issues no appealable             12/20/07
                                                                                                   investigative ﬁndings. We reviewed the claimant's allegations,
                                                                                                   management activities, and pending EEO actions. We concluded
                                                                                                   no additional investigative work was indicated.
 Representative, Ohio           Mail tampering.                                                    We investigated, did not substantiate allegation.                          10/29/07

 Senator, Virginia              Letter Carrier signed for but did not deliver a registered         We conﬁrmed the Letter Carrier signed for package as a courtesy,            11/6/07
                                package; investigating agents harassed complainant.                which we reported to management. We found no misconduct on the
                                                                                                   part of the Special Agents.
 Representative, Kentucky       A business reported late or missing inbound and                    We investigated, found no evidence to indicate misconduct or               12/19/07
                                outbound mail.                                                     illegal activity by postal employees; we noted that the design of
                                                                                                   the mailpiece, especially its window, may cause delays.
 Senator, Oversight Committee   Employment-related complaint.                                      The employee had a pending EEO complaint; we deferred any work             11/16/07
 Chairman                                                                                          pending the EEO review.
 Representative, Maryland       Mail theft of a registered package, possibly by                    Our investigation revealed the Letter Carrier violated postal              12/10/07
                                postal employee.                                                   procedure and improperly delivered registered package to an
                                                                                                   individual other than the intended addressee. We forwarded our
                                                                                                   ﬁndings to postal management.
 Representative, New York       Mail theft, possibly by a postal employee.                         We investigated, did not substantiate allegation. Since the sender          1/24/08
                                                                                                   did not elect delivery conﬁrmation, we could not determine where in
                                                                                                   the mail stream the loss occurred.
 Senator, Georgia               Mail tampering.                                                    We investigated, found no evidence of mail tampering                        1/24/08
                                                                                                   by postal employees.
 Representative, Texas          Theft of gift card.                                                We investigated, determined theft occurred external to the                 12/11/07
                                                                                                   Postal Service. We referred our ﬁndings to the Inspection
                                                                                                   Service for investigation.
 Senator, Delaware              Theft from or riﬂing of package.                                   We investigated, noted the delay in local dispatch was unusual, but        11/30/07
                                                                                                   alone not conclusive proof of misconduct. We identiﬁed no patterns,
                                                                                                   indicators, or trends of suspicious activity that would give rise to
                                                                                                   further investigation or substantiate allegations.
 Representative, Georgia        Theft from or riﬂing of package.                                   We investigated, did not determine if damage more likely resulted            1/7/08
                                                                                                   from machinery, or handling, or mail theft. We are continuing to
                                                                                                   monitor postal databases to see if this incident may be part of a
                                                                                                   systemic problem.
 Senator, Massachusetts         Request that we revisit allegations of falsiﬁcation of documents   We declined further review and noted the matter had been heard in           2/19/08
                                related to an OWCP claim and that the agent behaved                the EEO process. We found no misconduct on the part of the Agent.
                                improperly during the investigation.
 Representative, Ohio           Mail tampering and/or delay in delivery.                           We investigated, found that employees attempted delivery of an              1/24/08
                                                                                                   Express Mail piece within a day of its being mailed.




68
                                                                                                                                                                                APPENDIX I

                                                                                                                                       Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                                              October 1, 2007 — March 31, 2008



Requestor                    Allegation/Concern                                                     Our Findings                                                             Closure Date
Senator, Ohio                Loss of a Priority Mail package with Delivery Conﬁrmation.             We investigated, found no evidence of mail theft by postal                      3/12/08
                                                                                                    employees, but were unable to determine the point of loss.
Representative, California   Alleged delayed or discarded mail at a post ofﬁce.                     We reviewed, found management properly documented signiﬁcant                    2/25/08
                                                                                                    amounts of Standard "ﬂats" mail that was backlogged or delayed.
                                                                                                    We did not substantiate intentional delay of mail.
Senator, Maryland            Theft of gift card sent via Priority Mail service, possibly by a       We attempted but were unable to investigate due to insufﬁcient                  3/27/08
                             postal employee.                                                       information from complainant.
Senator, Texas               Mail tampering.                                                        We investigated, found no evidence of mail tampering by postal                  3/12/08
                                                                                                    employees or mail tampering in general, but noted that the tears in
                                                                                                    mail were consistent with damage from automated machinery.
Senator, Vermont             Delay or length of time the for completion of                          We reported that the investigation and report to management                     3/13/08
                             an investigation.                                                      concluded prior to receipt of the inquiry.
Senator, Texas               Postal Service documents, containing personal employee                 We investigated, conﬁrmed documents containing personal                         3/12/08
                             information, were improperly discarded in trash receptacles at         information of Postal Service employees were left unsecured in a
                             a post ofﬁce.                                                          trash receptacle. We forwarded our ﬁndings to postal management.




Audits
Requestor                    Allegation/Concern                                                 Our Findings                                                                  Closure Date
Representative, Illinois     Request we evaluate mail delivery issues in the Chicago            Issues were addressed in the following Audit Reports:                                11/1/07
                             area and recommend improvements.
                                                                                                ■    Timely City Delivery — Chicago District,
                                                                                                     issued 10/11/07
                                                                                                ■    Timely City Delivery — Chicago District,
                                                                                                     issued 10/11/07
                                                                                                ■    Chicago District Financial Accountability,
                                                                                                     issued 9/28/07
                                                                                                ■    The Impact of Transportation on Chicago
                                                                                                     District Performance, issued 9/28/07
Representative, Oversight    The Committee on Oversight and Government                          The Ofﬁce of Audit submitted a Compendium of Open Signiﬁcant                         2/29/08
Committee Chairman           Reform requested the OIG provide a list and details of             Recommendations on January 31, and a Final Compendium on
                             recommendations made by the OIG from January 1,                    February 29. With the second submission, we reported that working
                             2001, to present that have not been implemented by                 with the Postal Service we closed 30 of the 228 open signiﬁcant
                             agency ofﬁcials or by Congress.                                    recommendations we addressed in January.




General Counsel
Requestor                    Allegation/Concern                                                 Our Findings                                                                  Closure Date
Representative, Texas        Harassment and falsiﬁcation of mail counts                         We conﬁrmed management took steps to resolve and prevent                             12/6/07
                             at a Texas post ofﬁce.                                             harassment. We referred the falsiﬁcation allegations to the Ofﬁce
                                                                                                of Investigation.
Senator, Florida             Postal Service did not compensate complainant for                  We noted an arbitrator denied a related grievance in 2002 and declined              11/19/07
                             suggested service improvement idea submitted                       to open a formal review.
                             to management.
Representative, Washington   Whistleblower reprisal after reporting corruption                  Employee's formal grievance, EEO complaint, and legal action covering               10/11/07
                             and mismanagement.                                                 the same issues were pending; we declined action.




                                                                                                                                                                                            69
APPENDIX I

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



 Requestor                      Allegation/Concern                                           Our Findings                                                                Closure Date
 Senator, Maine                 A coworker created a hostile environment; a manager          We reviewed and found management took steps to address the hostile                2/5/08
                                shared conﬁdential personal information with                 environment, including assembling a Threat Assessment Team to
                                complainant's coworker.                                      address workplace safety issues. Although it had been referred to the
                                                                                             Inspection Service, we attempted to review management's response
                                                                                             to the disclosure allegation but were unable, due to the manager's
                                                                                             extended unavailability.
 Senator, Connecticut           Request for agency records concerning noise levels           We treated the request as a FOIA matter and determined records are               12/5/07
                                from the Advanced Facer Canceling System.                    part of a draft audit report and not releasable at this time.
 Representative, Ohio           Request for expungement of records under the Privacy Act.    We discretionarily chose to insert the information the requestor provided        12/5/07
                                                                                             into the investigative ﬁle.
 Representative, Missouri       Request for an investigation into the way                    We reviewed, found employee had a pending grievance and EEO                      2/29/08
                                management implements the incentive awards                   complaint. Our review did show at least an appearance of inequity in
                                program at a Missouri facility.                              how management decides on awards; we provided information to District
                                                                                             Management for action deemed appropriate.
 Senator, Washington            Alleged fraud, mismanagement, and racial discrimination.     We reviewed and found these to be isolated issues; we                           11/29/07
                                                                                             declined further review.
 Representative, New Jersey     Postmaster and Supervisor created a threatening and          We reviewed, found these to be individual issues subject either to union        11/19/07
                                hostile work environment.                                    grievance or EEO processes and declined further work.
 Senator, Virginia              Request for the identity and a review of the approach        We reviewed, found no wrongdoing on the part of the employee.                    1/29/08
                                taken by an OIG employee who conducted an evaluation of
                                allegations of a hostile work environment.
 Representative, New York       Hostile work environment created by a Supervisor in a        We conﬁrmed several of the allegations to some degree and found                  3/31/08
                                training position.                                           District management had already responded to the alleged unprofessional
                                                                                             conduct. We did not substantiate the remaining allegations.
 Representative, Florida        FOIA request for ﬁndings of an investigation into            Our FOIA Ofﬁce provided redacted records approved for release.                   2/20/08
                                management's distribution of proceeds from a
                                deceased employee's retirement account, insurance,
                                and savings plans.
 Senator, Georgia               FOIA request for an investigative report.                    Investigative work remained open. We declined to release so as not to            2/26/08
                                                                                             interfere with on-going investigative work.
 Representative, Tennessee      Discrimination and harassment by management.                 We reviewed, found these to be individual issues subject either to union          2/7/08
                                                                                             grievance or EEO processes, and decline further work.
 Representative, New Jersey     Employment-related request.                                  We declined assistance.                                                          2/21/08
 Senator, New York              Alleged harassment, discrimination, and intimidation by      We reviewed, found to be individual issues subject either to union                3/5/08
                                management at a post ofﬁce.                                  grievance or EEO processes, and declined further work.
 Senator, Missouri              Mismanagement at a postal plant.                             We were unable to investigate due to insufﬁcient information from the            3/20/08
                                                                                             anonymous source.




Referrals
 Requestor                      Allegation/Concern                                          Referred To                                                                  Closure Date
 Senator, Michigan              Package sent to England but returned to the                 Postal Service Government Relations Ofﬁce                                          1/3/08
                                U.S. marked undeliverable.
 Representative, Georgia        Mail fraud.                                                 Inspection Service                                                                1/30/08
 Representative, New Mexico     Delay of campaign mail. Request for reimbursement for       Government Relations Ofﬁce                                                         2/4/08
                                printing, designing, and mailing of the campaign mail
                                delivered after the elections.
 Senator, Maryland              Mail theft; our initial review indicated involvement of a   Inspection Service                                                                3/10/08
                                person external to the Postal Service.




70
                                                                                                                                                              APPENDIX I

                                                                                                                     Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                            October 1, 2007 — March 31, 2008



Requestor                     Allegation/Concern                                        Referred To                                                         Closure Date
Senator, Missouri             Delay of mail at two facilities, and concerns with        Government Relations Ofﬁce                                                  3/3/08
                              contracting out mail delivery by hiring subcontractors.
Representative, Illinois      Management wrongfully terminated an employee after        Government Relations Ofﬁce                                                  3/6/08
                              he ﬁled a Workers' Compensation claim for injuries as a
                              temporary Letter Carrier in inclement weather.
Representative, Florida       Trinity area is not offered full postal services.         Government Relations Ofﬁce                                                  3/6/08
Representative, Connecticut   Working and physical plant conditions at a post ofﬁce.    Government Relations Ofﬁce                                                 3/27/08




                                                                                                                                                                          71
FREEDOM OF INFORMATION ACT

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008




SUPPLEMENTAL INFORMATION
Freedom of Information Act
The Freedom of Information Act (FOIA) Ofﬁce for the Postal Service Ofﬁce of Inspector General operates independently of, but frequently coordinates
with, its counterparts at the Postal Service and the Inspection Service. The FOIA Ofﬁce receives requests for records from the public, the media, and Postal
Service employees. The Freedom of Information Act, according to the Department of Justice, “generally provides that any person has a right,
enforceable in court, to obtain access to federal agency records, except to the extent that such records (or portions of them) are protected from public
disclosure by one of nine exemptions.

Activities

For the period October 1, 2007 — March 31, 2008


 Requests                                                     Number of Requests
 Carryover from prior period                                                      34
 Received during period                                                         156
 Total on hand during period                                                    190


 OIG Actions                                                   Number of Requests
 Processed during the period                                                     185
             Requests released in full                                            11
             Requests partially granted                                           53
             Requests not granted                                                 24
             Requests referred to another agency                                  50
             No Records                                                           42
             Not proper FOIA requests                                              1
             Refusal to comply                                                     2
             Other                                                                 2


 Balance                                                       Number of Requests
 Balance at the end of the period (pending)                                        5


 Processing Days                                                    Number of Days
 Median processing days to respond to a FOIA request                               5




72
                                                                                                                                  WORKPLACE ENVIRONMENT

                                                                                                              Ofﬁce of Inspector General Semiannual Report to Congress
                                                                                                                                     October 1, 2007 — March 31, 2008



Workplace Environment
For the period October 1, 2007 — March 31, 2008

The OIG’s Workplace Environment team receives referrals involving workplace environment and operational issues from multiple sources, which include the
Hotline, Congress, the Board of Governors (BOG), and Postal Service and OIG management. Complaints reviewed by the team include sexual harassment;
discrimination; harassment and intimidation; nepotism; mail delivery and processing; and workplace safety issues. Workplace Environment closely coordinates
efforts with management to ensure Postal Service employees have a stress-free and adversity-free work environment. The team also reviews complaints
received from OIG staff, which provides them with another avenue to report their concerns, in addition to the Equal Employment Opportunity process. Once the
review is completed, the team may issue a Fact-Finding Report to OIG management. This process has been successful in assisting employees and the OIG in
resolving workplace issues that may have a negative impact on employee moral and productivity, or that may not have been addressed until an EEO is ﬁled or
other adverse consequences occur.


 Referrals                                                                                                                                                    Total
 Carryover from prior period                                                                                                                                     44
 Complaints received from OIG Hotline                                                                                                                           301
 Congressional/BOG/Postal Service management                                                                                                                       6
 Internal                                                                                                                                                          6
 Other                                                                                                                                                             3
 Total on hand during this period                                                                                                                               360


 Workplace environment actions                                                                                                                                Total
 Complaints closed during this period                                                                                                                           339
             Referred to Postal Service management                                                                                                               57
             Referred to OIG Ofﬁce of Investigations                                                                                                               7
             Referred to OIG Ofﬁce of Audit                                                                                                                        1
             Summary of ﬁndings reported to Congress/BOG/Postal Service management                                                                                 5
             Conducted limited inquiry into allegations/issues                                                                                                  208
             Referred to database for statistical analysis and possible systemic reviews                                                                         57
             Fact-ﬁnding reports issued to OIG management                                                                                                          4
 Referrals pending at the end of the period                                                                                                                      21




                                                                                                                                                                   73
GLOSSARY

Ofﬁce of Inspector General Semiannual Report to Congress
October 1, 2007 — March 31, 2008



Glossary

Advance Fee Scheme. Obtaining fees purporting              Lottery Scheme. Advertisements seeking money          Processing And Distribution Center/Facility
to secure buyers or obtain loans.                          or property by mail for participation in schemes to   (P&DC/F). A central mail facility that processes
                                                           win prizes through chance.                            and dispatches part or all of both incoming mail
BMC. Bulk Mail Center where packages and                                                                         and outgoing mail for a designated service area.
standard mail are processed.                               Merchandise Failure To Pay Scheme.                    It also provides instructions on the preparation of
                                                           Mail order merchandise acquired without               collection mail, dispatch schedules, and sorting
Bulk Mail. Mail that is rated for postage partly           providing payment.                                    plan requirements to mailers.
by weight and partly by the number of pieces in
the mailing. The term is generally used to refer to        Merchandise Misrepresentation Scheme. Mail            Retail Facility. A postal unit of a post ofﬁce
Standard Mail (A).                                         order merchandise or services that are materially     and its subordinate units as well as military Post
                                                           misrepresented in advertising.                        Ofﬁces that sell postage stamps and provide
Express Mail Service. A mail class that provides                                                                 other postal retail services to customers. The
expedited delivery service for mailable matter             OWCP. Administered by the U.S. Department             subordinate units are within the service area of a
subject to certain standards.                              of Labor, the Ofﬁce of Workers’ Compensation          main post ofﬁce and include post ofﬁce stations,
                                                           Programs provides direct compensation to              post ofﬁce branches, contract postal units, and
False Billings Scheme. Mailing solicitations in            providers, claimants, and beneﬁciaries.               nonpersonnel units.
the guise of billings.
                                                           PCIE ECIE. The President’s Council on Integrity       SmartPay® Purchase Card. SmartPay®
First-Class Mail. A class of mail that includes all        and Efﬁciency and Executive Council on Integrity      Purchase Cards are how the Postal Service
matter wholly or partly in writing or typewriting, all     and Efﬁciency address integrity, economy, and         acquires goods and services through contracts.
actual and personal correspondence, all bills and          effectiveness issues that transcend individual
statements of account, and all matter sealed or            government agencies.                                  Standard Mail. A class of mail that includes
otherwise closed against inspection. First-Class                                                                 advertisements, circulars, newsletters, magazines,
Mail comprises three subclasses: postcards, letters        This organization also seeks to increase the          small parcels, and merchandise.
and sealed parcels, and Priority Mail.                     professionalism and effectiveness of IG personnel
                                                           throughout the government.                            Unsupported Costs. Costs that are questioned
Any mailable matter may be sent as First-                                                                        because of inadequate supporting documentation
Class Mail. First-Class Mail is a Postal                   Postal Act of 2006. Abbreviation for the Postal       for the proposed/ claimed costs.
Service trademark.                                         Accountability and Enhancement Act passed by
                                                           Congress in December 2006.                            Veriﬁcation. Process to check a mailing
Flat–Size Mail. A mailpiece that exceeds one of                                                                  presented by a mailer to determine proper
the dimensions for letter-size mail (11-1/2 inches         Postal Regulatory Commission (PRC).                   preparation and postage payment.
long, 6-1/8 inches high, 1/4 inch thick) but that          An independent federal agency that makes
does not exceed the maximum dimension for the              recommendations on Postal Service requests for        Voyager Fleet Cards. These are credit cards are
mail processing. Flat-size mail may be unwrapped,          changes in postal rates and mail classiﬁcations.      used by postal employees to acquire automotive
sleeved, wrapped, or enveloped.                            The ﬁve commissioners are nominated by the            goods and services, such as gasoline or repairs.
                                                           President and approved by the U.S. Senate. The
FY. Fiscal year.                                           name was changed from Postal Rate Commission          Work At Home Scheme. Schemes, such as
                                                           on December 20, 2006.                                 envelope stufﬁng, that falsely purport to provide
Highway Contract Routes. A route served by a                                                                     home employment.
postal contractor to carry mail by highway between         Priority Mail. First-Class Mail that weighs more
designated points.                                         than 13 ounces and, at the mailer’s option, any
                                                           other mail matter weighing 13 ounces or less.
                                                           Priority Mail provides expedited delivery.




The following are among the many trademarks owned by the United States Postal Service: United States Postal Service®, U.S. Postal Service®, USPS®,
First-Class Mail®, USPS.com®, Click-N-Ship®, Automated Postal Center®, APC®, Express Mail®, Priority Mail®, Standard Mail®, Parcel Post®, Media
Mail®, Customized Market Mail®, United States Postal Service Ofﬁce of the Inspector General®, Post Ofﬁce™, Postal Service™, Signature Conﬁrmation™,
Certiﬁed Mail™, Delivery Conﬁrmation™, Registered Mail™, Post Ofﬁce Box™, Zip Code™, Carrier Pickup™, Quick, Easy, Convenient™ and Postmaster
General™. The Sonic Eagle Logo, Round Top Collection Box design, Letter Carrier Uniform design, and the Mail Truck Design are also registered trade-
marks belonging to the United States Postal Service.




74
OFFICE OF INSPECTOR GENERAL


Report
Fraud, Theft,
and Misconduct
in the Postal Service
CONTACT THE HOTLINE AT:

1.888.USPS.OIG
1.888.877.7644
Fax: 1.866.756.6741
or www.uspsoig.gov
TTY (HEARING IMPAIRED)
1.866.OIG.TEXT
1.866.644.8398
U.S. POSTAL SERVICE OFFICE OF INSPECTOR GENERAL
1735 N. Lynn Street, Arlington, VA 22209-2020
703.248.2100 Fax: 703.248.2291 www.uspsoig.gov
